<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                  ______

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  ROBERT B. ADERHOLT, Alabama           CHAKA FATTAH, Pennsylvania
  JOHN R. CARTER, Texas                 MICHAEL M. HONDA, California
  JAIME HERRERA BEUTLER, Washington     JOSE E. SERRANO, New York
  MARTHA ROBY, Alabama                  DEREK KILMER, Washington
  DAVID W. JOLLY, Florida               
  STEVEN M. PALAZZO, Mississippi        

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
                     Colin Samples, and Taylor Kelly
                            Subcommittee Staff
                                   _______

                                    PART 5

                                                                   Page
Department of Commerce.......................................         1
National Oceanic and Atmospheric Administration..............        57
National Aeronautics and Space Administration................        87
National Science Foundation..................................       253
Federal Investments in Neuroscience Research.................       321

             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
                               _______

                                  
          Printed for the use of the Committee on Appropriations
                               _______

                  U.S. GOVERNMENT PUBLISHING OFFICE

96-070                  WASHINGTON : 2015








   

                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey   NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama           MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                    PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho             JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas           ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida               DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                 LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California               SAM FARR, California   
  TOM COLE, Oklahoma                    CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida            SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania         BARBARA LEE, California
  TOM GRAVES, Georgia                   MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                   BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska            TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida             C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee     DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington     HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                  CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California          MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                 DEREK KILMER, Washington
  MARTHA ROBY, Alabama                  
  MARK E. AMODEI, Nevada                
  CHRIS STEWART, Utah                   
  E. SCOTT RIGELL, Virginia             
  DAVID W. JOLLY, Florida               
  DAVID YOUNG, Iowa                     
  EVAN H. JENKINS, West Virginia        
  STEVEN M. PALAZZO, Mississippi

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2016
                                _______

                                            Tuesday, March 3, 2015.

                         DEPARTMENT OF COMMERCE

                                WITNESS

HON. PENNY PRITZKER, SECRETARY, DEPARTMENT OF COMMERCE
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. And we are 
delighted to have with us today the Commerce Secretary.
    Secretary Pritzker, we are delighted to have you. Thank you 
for your service to the country. And as you present the 
President's 2016 Department of Commerce budget request, we are 
just delighted you could be with us today and really genuinely 
appreciate your service to the country.
    You have many important responsibilities of the department 
including obviously promoting trade and dual use technologies, 
making sure those are not exported improperly, helping 
economically distressed communities, administering our patent 
and trademark laws, preparing for and conducting the decennial 
census, advancing the measurement of science standards and 
technology, and forecasting the weather and protecting and 
researching our oceans which is extraordinarily important.
    And we will, of course, work with you to do everything that 
we can to be sure that each one of your important 
responsibilities are adequately funded, but it is important to 
point out that the department's request proposes discretionary 
appropriations totaling $9.8 billion which is a total of $1.3 
billion higher than last year.
    And your request proposes increases for nearly every 
Department of Commerce program. And in light of the sequester 
and the difficult circumstances budget-wise that we find 
ourselves in, it is not a realistic budget proposal. It also 
assumes a number of different fee and tax increases which are 
simply not going to happen.
    The subcommittee will not have an allocation that is 
sufficient to fund this excessive level of spending. While we 
recognize the important work that you do and we will work with 
you and the Members of the Committee to meet the resource needs 
of your highest priority programs, we have to find savings and 
reduce spending for lower priority or ineffective programs. Our 
current budget environment will simply not allow everyone to 
get everything that they want.
    We look forward to hearing from you about how we can help 
you improve the management of the department and to ensure that 
Commerce employees, for example, are not abusing tele-work 
programs.
    We heard earlier from the inspector general. Our first 
hearing of the year was from the inspector general and the 
weather satellite programs. We want to make sure they meet 
their cost and schedule milestones.
    And the 2020 census, we want to work with you to make sure 
that the cost of the 2020 census is less than the last census 
and to find out how you are prioritizing cyber security and 
protecting the department from the ever-growing threat of cyber 
attack.
    We will do, as I say, all we can to help you, but we are 
going to have to prioritize and cut wherever we can. I do 
appreciate your service to the country.
    And I want to, before we proceed, recognize my colleague, 
Mr. Fattah, for any remarks he might wish to make.
    Mr. Fattah. Thank you, Mr. Chairman.
    And I want to thank the Secretary for the extraordinary 
service that she has provided to the Nation. Having spent a 
great deal of time in the private sector to take on this role 
at this time I know is a major sacrifice but has helped our 
country.
    So we now have 59 months of straight consecutive job growth 
and over the last 11 months, we have seen job growth of 200,000 
or above each month. And we hope that when the February numbers 
are made public that we will continue to see this trend moving 
in the right direction.
    This country, this economy in which you are the chief 
custodian for has generated more jobs than the rest of the 
developed world combined. And so you have done a great job 
under some challenging circumstances.
    We welcome you to the committee. And I know that my 
colleagues on the other side always talk about dynamic scoring. 
In your case, it is kind of like dynamic investing. If we 
invest in job growth, we can reap the rewards. And we look 
forward to hearing about your budget request. Thank you.
    Mr. Culberson. Madam Secretary, we will, of course, without 
objection enter your statement into the record in its entirety 
and welcome your testimony to summarize your statement. And if 
you could, keep your statement to five minutes. Thank you very 
much, and we are pleased to recognize you.
    Secretary Pritzker. Thank you very much.
    Chairman Culberson, Ranking Member Fattah, and Members of 
the committee when they arrive, thank you for this opportunity 
to lay out the priorities of President Obama's fiscal year 2016 
budget for the Department of Commerce.
    This budget advances the core tenets of our department's 
mission which are to develop and implement policies that 
support economic growth, enhance our country's competitiveness 
and global leadership, as well as strengthen America's 
businesses both at home and abroad.
    To support this mission, the fiscal year 2016 budget 
provides $9.8 billion in discretionary funding to reinforce the 
priorities of the department's strategy, our open for business 
agenda, by promoting U.S. exports, trade and investment, by 
spurring high-tech manufacturing and innovation, by unleashing 
more data for economic benefit, by gathering and acting on 
environmental intelligence, and by making our agencies' 
operations more efficient and effective.
    Today I want to highlight some key initiatives supported by 
this budget. First the Census Bureau. The Census Bureau creates 
data products used by businesses, policymakers, and the public.
    And this budget reflects the fact that this is a critical 
year for preparation of the 2020 census as we test the use of 
administrative records, re-engineered field operations and 
Internet data collection, create new systems to improve the 
quality of the census and develop plans so that in fiscal year 
2017 and 2018, we can conduct an integrity test of the entire 
process, all leading to a potential savings of $5 billion to 
taxpayers. To achieve these savings, we must invest today.
    Another part of our agenda is to help communities and 
businesses prosper in a changing environment. NOAA's budget 
will enhance our ability to meet this goal through two 
investments.
    First, the budget proposes $2.4 billion to fully fund the 
next generation of weather and environmental satellites. 
Funding the development and launch of future satellites is 
absolutely critical to reduce the risk of a potential gap in 
the weather data in 2017 and beyond.
    Second, the budget requests $147 million to develop a high-
endurance, long-range ocean survey vessel. Immediate action is 
necessary to maintain our critical ocean observing 
capabilities. Making this investment this year will enable NOAA 
to take advantage of the navy's design work and project 
management team which will save taxpayers millions of dollars 
in acquisition and design costs.
    For generations, manufacturing has been a key to U.S. 
innovation, a source of middle class jobs and a pillar of our 
global leadership. Over the last five years, America's 
manufacturers have added more than 870,000 jobs, growing for 
the first time in decades.
    Recognizing the importance of manufacturing to our 
competitiveness, Congress passed the Revitalize American 
Manufacturing and Innovation Act which calls for the expansion 
of the National Network for Manufacturing Innovation or NNMI.
    This initiative brings together industry, university 
researchers, community colleges, NGOs, and government to 
accelerate the development of cutting-edge manufacturing 
technologies.
    Our fiscal year 2016 budget requests funding first to 
support and coordinate current and future NNMI institutes and 
second to support two institutes led by the Commerce Department 
which would focus on manufacturing technologies that industry 
determines have the most potential.
    This budget will also provide the International Trade 
Administration with the resources needed to advance President 
Obama's robust trade agenda and to help U.S. businesses expand 
their exports and reach the 95 percent of customers outside of 
the United States.
    Finally, our budget requests $24 million for the renovation 
of the department's headquarters to enable us to make better 
use of our space and ultimately to reduce the amount of funds 
required to house our employees.
    These priorities only scratch the surface of our 
department's work to support U.S. businesses, communities, and 
our economy.
    I look forward to answering your questions today and to 
partnering with this committee to keep America open for 
business. Thank you.


                              2020 census


    Mr. Culberson. Thank you, Madam Secretary.
    I wanted to ask you a couple of questions about the census. 
I have a lot of constituents who are concerned about the 
American Community Survey, the intrusiveness of it in a lot of 
areas, and, of course, the survey response is currently 
mandatory.
    Is that statutory or by your internal administrative rules 
that the survey is mandatory? I think it is administrative 
rule, but it is mandatory.
    Secretary Pritzker. I am not sure.
    Mr. Culberson. I think it is----
    Secretary Pritzker. It is mandatory by statute. I think it 
is by statute.
    Mr. Culberson. It is mandatory by statute. So we would need 
to change the law in order to make it voluntary?
    And I notice also there is a lot of overlap between the 
information that the community survey asks and information, for 
example, that the Internal Revenue Service already has.
    And the estimate, I know that the Commerce Department is 
predicting that the survey is planning for the census in 2020 
to cost less than the last census, but the estimates show that 
the cost of the census is going to be nearly $13 billion. We 
just simply do not have $13 billion to spend on a census.
    So one way it seems to me that is the straightforward way 
to save money is to use other branches of the government to 
provide some of that data, and so many of the questions that 
are asked in that long census could be obtained from the 
Internal Revenue Service.
    Have you worked with the Authorizing Committee on this? 
What are you planning on doing in order to ensure that you are 
using information already collected by other branches of the 
government to bring down the cost of the census?
    Secretary Pritzker. So, Chairman, you know, one of the 
major efforts that we have with the 2020 census is the use of 
what we call administrative records, the ability to use other 
data that has been collected by the Federal Government.
    What we need to do in order to take advantage of that 
information is we have to test the efficacy of using that. And 
so that is why our request is so significant this year. It is 
very much about testing.
    The 2010 census, as I understand, was pretty much done the 
way censuses have been done for the prior 30 or 40 years. What 
we need to do is to transform the way we do the census. And you 
very much are suggesting that which is that we have more 
automation and greater use of administrative records. And so we 
very much want to use other administrative records. What we 
need to do, though, is test that that will work.
    In terms of the American Community Survey, we respect the 
privacy and time, of the individuals who fill out the American 
Community Survey as well as the time that we ask people to take 
to fill out the survey.
    It is a survey, though, that is very much used by 
businesses, by NGOs, by local, state and Federal Government. 
The VA, for example, is a big user of the American Community 
Survey. It is the only source of data in many instances for 
small and rural communities.
    So if the ACS were no longer available or no longer used, 
there is about 60 million Americans that we would not be 
collecting data on except during the census period.
    But recognizing the concern about this survey, I did last 
year call for complete top to bottom review of the survey, what 
other sources of information could we be using, how frequently 
do we have to ask questions, could we ask them less frequently 
and still have the data be reliable, could we delete questions.
    And we are in the process of analyzing that and the answers 
are due back to me at the latest by the end of the fiscal year.
    Mr. Culberson. So you will be using, for example, 
information from the IRS to help you fill in some of the 
blanks?
    Secretary Pritzker. I do not know the exact sources of the 
administrative records that we are allowed to use. And some of 
that is by statute what we are allowed to use.
    Mr. Culberson. But you anticipate using IRS records?
    Secretary Pritzker. We would anticipate using whatever is 
available to us. We will have to check whether we can use----
    Mr. Culberson. Can you use IRS records?
    Secretary Pritzker. I do not know, but we will find out. I 
will get back to you, Mr. Chairman, on whether we can use IRS 
records. Obviously what we want to do is use whatever 
administrative data and records are available to us. And there 
is a whole list that----
    Mr. Culberson. Right.
    Secretary Pritzker [continuing]. Census is accessing.
    Mr. Culberson. I ask for a couple of reasons. A, obviously 
you want to try to save money by using administrative records 
that are collected by other agencies, but, B, I am a big 
believer in privacy and our most important right as Americans 
is to be left alone which is why I am concerned about the 
American Community Survey.
    It is very long and intrusive and it is treated as though 
it is mandatory. I understand that it is statutory. That is 
something we in Congress ought to change because fundamentally 
the census ought to just be who are you, how many people live 
there, what is your, you know, ancestry,--very simple, 
straightforward questions.
    I am also concerned about whether or not privacy advocates 
are aware that you may be using IRS records with the problems 
that the IRS has had recently about targeting people. I am 
concerned about the privacy angle and I do want to know whether 
or not you will be using IRS records.
    Secretary Pritzker. Mr. Chairman, we will get back to you. 
Privacy is something that we at the Census and we at the 
Department of Commerce take very, very seriously.
    We work very hard to protect the data that we have the 
privilege of having access to and we work very carefully to 
make sure that it is being handled in a responsible fashion 
when we do the things that we are required to do either by 
statute or by the Constitution.
    Mr. Culberson. I understand another way you will be trying 
to save money is with allowing people to log on and handle a 
lot of this online. And if there are 140 million households 
estimated to participate in the survey, you are going to have a 
lot of people visiting the Web site. The Obama Care Web site 
had about 250,000 visitors before it just completely melted 
down.
    What are you doing to prevent something similar from 
happening to the Census Web site?
    Secretary Pritzker. So we are in the process of beefing up 
our systems to be able to handle the volume. But the other 
thing that we need to do is make sure that we--we are equally 
as concerned about the issue of verification to make sure that 
when we send out a survey, a census survey, someone knows that 
it is us, it is the government, it is the Census Bureau. It is 
not someone else.
    And we also will need to have methodologies to authenticate 
that the person responding is actually who they say they are.
    There is a lot to be dealt with to make sure that this 
works online well. It brings me back to what is important is 
that the Census Bureau very much wants to take advantage, as 
you said, of how do we save money, how do we do this 
efficiently.
    But to do that, we have to invest today. We have to be able 
to test because if we cannot prove that it is going to work, 
then we are now allowed by, you know, as I said, what I call 
the lock-down or the integrity test that will occur in fiscal 
years 2017 and 2018.
    If we cannot prove to the Census folks that this will work, 
we are not able to do the census that way. Then we go back to 
the more expensive survey which is sending people to people's 
houses which seems ridiculous in a digital world.
    Mr. Culberson. Thank you.
    You know, we just simply will not have the money this year. 
It is going to be a very difficult budget environment.
    Secretary Pritzker. No, I understand.
    Mr. Culberson. Thank you very much.
    Mr. Fattah.

                        MANUFACTURING INITIATIVE

    Mr. Fattah. Well, let me first of all, Madam Secretary, ask 
you about the manufacturing initiative. One of my priorities on 
the subcommittee over the last few years that I have been the 
ranking member has been the MEP program, the Manufacturing 
Extension Partnership, the Hollings legacy around manufacturing 
extension using the same basic method that was used in the 
agriculture extension to apply to our manufacturers.
    Now, we have seen arrested by this Administration the major 
losses that we were seeing in this sector. In fact, I recall in 
the first weeks of the Administration economists aggregated 
together on the pages of the New York Times saying how this 
could not work and manufacturing could not come back.
    And the Administration has shown that this was a fallacy, 
that in truth manufacturing has led the recovery. And you said 
it is 800,000 jobs, but there is more for us to do. And I have 
talked to you about this.
    I am particularly interested in how this intersects with 
the other work of our subcommittee because we invest in 
science. And the chairman and I have a great interest in 
science.
    But I am interested to make sure that American innovation, 
that is American ideas are connected to American jobs, that 
when we have the spinoffs from our space program and other 
programs in which intellectual property is allowed to be used 
mainly for free by companies to create wealth that we require 
in the licensing of this intellectual property that whatever 
jobs it created are created in the United States of America.
    And the committee has done some work in this area in the 
past, and I have a continuing interest to make sure that where 
we invest in a national lab, where we invest in NIST or NASA or 
NOAA that when there are new widgets that those widgets get 
manufactured whether in Texas or Pennsylvania or some other 
place, California, New York, and Washington State.
    But the point here is that there is no reason why taxpayer-
financed research, even though it may create wealth for some 
innovators, and I think that is wonderful, I am all for it, but 
that the jobs that go with it should benefit Americans and the 
Americans that we are taxing to make the initial investment 
into science.
    So if you could talk a little bit about that, that would be 
helpful.
    Secretary Pritzker. Congressman, you know that I am as 
passionate about manufacturing as you are and I view my number 
one responsibility is to help our economy grow and help our 
private sector grow because one thing I know from my own 
experience 27 years in the private sector is that the people 
who create jobs are the private sector.
    And so one of the things you talked about, the 
Manufacturing Extension Partnership, and, as you know, we are 
re-competing our MEPs at this time and we have just done ten of 
them, and the reason that we are doing that is and the reason 
that MEP exists is to help small and medium-size manufacturers.
    And if you had told me from the private sector before I had 
this job that the Federal Government could help you to have 
better access to technology and processes to manufacture, I was 
highly skeptical until I went out and actually saw this with my 
own eyes and, more importantly, talked with owners of 
businesses who said I would not have been able to adapt the 
kind of world-class processes that I have access to because of 
the Manufacturing Extension Partnership.
    So these are programs that I think are extremely effective. 
We have changed the funding match to be one to one so more 
small businesses can take advantage of it. And it is something 
that, you know, is really exciting to see the kind of 
specialized expertise that a small manufacturer can take 
advantage of.
    In terms of other efforts that we have around innovation, 
whether it is the Centers of Excellence in terms of that NIST 
has working on disaster resilience or forensic science or 
advanced materials, these are areas where we work with outside 
universities to take technologies, move them forward so that 
they can get out of the laboratory sooner rather than later.
    The National Network of Manufacturing Innovation is a 
continuation of that effort to take ideas that we think can go 
from lab to market over the next five to seven years, and that 
is why I was so excited when you all passed the Revitalize 
American Manufacturing Innovation Act because it is an 
opportunity for us as a country to really put together our 
researchers in the universities, our private sector, our local 
governments, our NGOs, our community colleges and the supply 
chain and the skilled labor training that can go on in our 
community colleges to take technologies like lightweight 
materials or take technologies like photonics or digital 
manufacturing and really bring them to market.
    And the reason we need to do that is we know that a third 
of our economic growth since 2009 has come from our 
innovations. And so it is really critical.
    Mr. Fattah. Thank you, Madam Secretary.
    I saw the red light come on and I think that----
    Secretary Pritzker. Sorry.
    Mr. Fattah [continuing]. Means that--no--that I will wait 
until the next round to ask a follow-up. No, we are going to 
try to follow the rules.
    Mr. Culberson. Thank you very much.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Madam Secretary, I wanted----
    Mr. Fattah. Could the gentle lady introduce the young one?
    Ms. Herrera Beutler. Sure. This is my daughter, Abigail. 
She used to be quiet and you could just drag her anywhere. And 
now she just babbles, so I thank the Chair for his indulgence. 
Babbling that people like, right?
    Okay. I wanted to bring up an issue that is not wholly your 
purview, but it is something I would like you to be aware of 
and would very much appreciate your assistance and your 
thoughts. So I want to get it right. Let me stick to my notes.

                        GROUNDFISH BUYBACK LOAN

    Fishermen in Washington State and along the West Coast have 
been under a challenge since about 2003 under the groundfish 
buyback loan. We feel that the terms of the loan are punitive 
and so we moved in a bipartisan fashion to change that.
    And it was actually the end of last year with the NDAA 
passage and the President signed into law provisions that fully 
refinanced that loan at rates that other businesses get which 
we feel like is a little bit more appropriate.
    The implementation of the law has been held up, though, 
with the Office of OMB, which we will be bringing it up as 
well, claiming that either the funding must come out of NOAA's 
budget or a new appropriation is required which Congress did 
not feel like that was necessary. That is why we were able to 
move it, quite frankly. The bill was fully offset in the NDAA, 
so we felt like we had provided what we needed to.
    So what we are seeing is a challenge within the 
Administration where the money is going to come from. And the 
law was passed. The offset was in it. I, quite frankly, do not 
care whose budget it comes out of. I just would like to make 
sure that it is addressed and that the law is followed in 
conjunction with the Congress and the President's signature.
    So if you have a comment, great.
    Secretary Pritzker. I would just say I am well aware of 
this issue.
    Ms. Herrera Beutler. Oh, great.
    Secretary Pritzker. And I know it is important to you. And 
I understand my staff is working with your staff and the 
committee's staff to try and get this addressed.

                              FISH STOCKS

    Ms. Herrera Beutler. Great. I think that is what we would 
like. We would just want to make sure that it gets taken care 
of and that, you know, recognizing the offset was there. And it 
is nice to see everybody behind you, yeah. Okay. I know how 
that works as a former staffer.
    And I brought this up with the OIG as well. The salmon 
hatcheries, switching issues on the Columbia River are funded 
through the Mitchell Act and which supports recreational and 
commercial fisheries in the rural communities. I am along the 
Columbia River and then out to the Pacific Ocean, so that is 
almost my entire district. They provide a lot of jobs and 
resources in my local area.
    I was really upset to see NOAA requested a decrease of 
nearly $3 million to the salmon management account and those 
reductions actually target the Mitchell Act Hatcheries. So even 
under level funding, we know that the number of fish released 
is decreasing and the costs are going up.
    Moreover, the funding needed to ensure that the hatcheries 
are maintained is being undermined and we are seeing the 
consequences of fish losses from failed equipment.
    So despite all these facts, NOAA states in their budget 
that a document that they are able to--in their funding 
document, they believe they are able to meet their obligation 
for operation and maintenance and their obligation to meet 
their hatchery reform responsibilities.
    But given these facts, I am not sure how NOAA is going to 
be able to do this, and I guess I would love comments that you 
have on that because this is another big one.
    Secretary Pritzker. Making sure that we have adequate 
salmon stocks and that this fish stock is doing well is of 
great importance to us. What I would ask is that I would 
probably have my NOAA staff work with yours to explain to you 
how exactly we believe--we believe this is adequate funding to 
do what we need to do, but I would like to have them come and 
work with you so that you can be satisfied about that.
    Ms. Herrera Beutler. Absolutely. Mitchell Act funding for 
these hatcheries is key and so we want to make sure what we are 
hearing on the ground corroborates with what your NOAA staff 
are seeing and hearing.
    My time is just about up. I just want to put this on your 
radar. Hatchery genetic management plans which are required 
under ESA, and we can go into a little bit more detail, again, 
I do not want to run out of time, but I am concerned about the 
backlog. I think I have seen over 100 are due and we do not 
have them. So we will bring that up with your staff as well, 
but those are kind of my top three.
    Secretary Pritzker. Terrific. We will look into it and we 
will work with you.
    Ms. Herrera Beutler. Thank you. Appreciate it.
    With that, I yield back.
    Mr. Culberson. I yield to my colleague and good friend Mr. 
Serrano from New York.

        2020 CENSUS--IMMIGRATION REFORM AND TRADE OPPORTUNITIES

    Mr. Serrano. Thank you. And thank you, Madam Secretary, for 
being here today and for your work. I am going to ask you two 
quick questions at the same time because they are based on 
hopes. It might be that by the next time the Census comes 
around we may have immigration reform. While what that means to 
the Census Bureau, other than people coming forth to be counted 
that perhaps were afraid to do so before, you know, are we 
ready for that? Will it be a big challenge or something you 
have to be ready for? And secondly, my second hope, which seems 
to be coming to be, is that by pretty soon we may have full 
diplomatic relations with Cuba which may entail a lot of trade. 
And the Commerce Department will play a role. Are you ready to 
meet that challenge if that comes your way? Simple questions, 
but historic in nature.
    Secretary Pritzker. Yes. Well Congressman, I too hope that 
we have immigration reform, comprehensive immigration reform by 
the time, certainly hopefully before the next 2020 Census. And 
I assure you we stand ready to be able to handle that 
regardless of when it comes into fruition. It will not affect 
the processes that we use, it simply is the number of people 
that we count.
    In terms of Cuba diplomatic relations, which is also as you 
said historic and something that as the Department of Commerce 
we have been proud to play a role in. You know, we are working 
on the regulatory aspects of, and the licensing aspects 
particularly in the area of telecommunications where there is 
an opportunity for certain goods to be sold into Cuba. And so I 
am looking forward to having the opportunity to visit Cuba 
later this year.
    There is an embargo in place. We respect the embargo. But 
it does, the current laws do allow for certain items to be sold 
into Cuba to the private sector particularly in the area of 
telecommunications. I think there will also be some 
agricultural opportunities now and banking opportunities.

                    CUBAN TRADE MARKET OPPORTUNITIES

    Mr. Serrano. Right. Without telling me anything I am not 
supposed to know, although we are supposed to know everything, 
right? What items does the Commerce Department think the Cubans 
would be ready to sell us other than to flood us with great 
baseball players and great music and so on, which is great. But 
we know what we can sell to Cuba. We have been doing it little 
by little. But what would we be interesting in getting from 
them in that kind of trade?
    Secretary Pritzker. You know Congressman, I have not 
studied the opportunities for two-way trade in the way we 
should. But I am sure that is something that our International 
Trade Administration will be looking into and I am happy to do 
more research for you.
    Mr. Serrano. All right. Thank you. One last question since 
I do have time. The chairman is interested in cigars, by the 
way, in case----
    Secretary Pritzker. I think it is $400 worth of cigars you 
can buy?
    Mr. Serrano. That is right.
    Secretary Pritzker. I think that is the limit right now.
    Mr. Serrano. That will end, hopefully.
    Mr. Fattah. Well I am sure the chairman and the ranking 
member will be glad to go with you----
    Mr. Serrano. Right, very, that is true. Very quickly----
    Mr. Fattah [continuing]. Allocation if you got the chairman 
some cigars, you know what I mean? I hear that, Judge, I am 
sorry.
    Mr. Serrano. Are you charging me for this time? No, but 
anyway. No, it is not. Madam Secretary, in 2010 the Census 
received a lot of criticism and feedback around how respondents 
of Hispanic or Latino origin were able to self-identify. How if 
at all has the agency considered making changes to this area? 
Are there any plans to expand the existing response categories 
of Mexican, Mexican American, or Chicano, Puerto Rican, Cuban, 
and other Hispanic, Latino, or Spanish origin? And have you 
been in conversations with any groups concerning those changes 
or petitions for changes?
    Secretary Pritzker. Well Congressman, we are committed to 
accurately measuring how people self-identify their race and 
origin. And we tested an approach in 2020 and we are building 
on the research of that in twenty--we tested in 2010 and we are 
building on that for 2020. We have been actively working with 
stakeholders and in fact we have just put out a big Federal 
Register notice on this issue. So we are trying to make sure 
that we get this accurate, get this right. Because we are very 
much committed to an accurate Census.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much. Judge Carter.

                           EXPORT INITIATIVES

    Mr. Carter. Thank you, Mr. Chairman. I apologize for being 
late. I have got a bill on the floor. Thank you very much for 
being here. I am from Texas, as my colleague from Texas pointed 
out, and energy export remains a major driver of the Texas 
economy. The Obama administration's regulatory policies 
threaten to impair this vital part of our trade economy. How 
does your agency expect our nation to be able to expand trade 
to reach foreign markets if the regulatory burden here at home 
cripples those industries? And with these concerns in mind what 
are the challenges to encouraging direct foreign investment in 
domestic industries?
    Secretary Pritzker. Well I will start with the last part 
and then talk about our export initiative. But first in terms 
of foreign direct investment, we run a program called 
SelectUSA. In fact, I am quite excited, I got a report on, an 
update this morning about SelectUSA. This is the first ever 
effort by the federal government of the United States to 
welcome investment by foreign companies into the United States. 
And what we do know is about 5.6 million Americans today are 
employed by U.S. subsidiaries of foreign companies.
    So SelectUSA is both, is populated by people in 32 key 
markets that we want to attract investment from, and we also 
put on a summit. Our foreign commercial service officers that 
work on SelectUSA are helping those companies invest here in 
the United States and then we have staff here in the United 
States helping them navigate our federal system. But obviously 
we do not prefer one state over another.
    Then we also run a summit once every 18 months. The second 
annual summit will be March 23rd and 24th. You are all invited. 
We will have about 1,200 attendees. The goal is 2,500 attendees 
and about 1,200 companies to join us for that. These are 
companies interested in investing in the United States. So we 
have a robust effort to reach out to foreign companies to 
invest in the United States.
    In terms of helping American businesses export, that falls 
under our Foreign Commercial Service and our U.S. Export 
Assistance Center and our National Export Initiative which we 
just revitalized this year. We took a look at what we have been 
doing over the last three or four years and tried to update it 
to grow exports. And you know we hit record exports this year 
at $2.35 trillion. So we work both to attract foreign direct 
investment as well as helping American businesses, particularly 
small and medium sized businesses, that need help to understand 
well what market our U.S. Export Assistance Centers, of which 
there are 108 I think in the United States, they help American 
business identify what countries their products are competitive 
in. And then our Foreign Commercial Service Officers, which are 
in 75 countries around the world, help those companies then 
navigate the local regulations, the local rules, etcetera, to 
be able to do business there.
    Mr. Carter. Oh, you did not answer my question about the, 
the United States regulatory burden and how it affects trade 
and commerce.
    Secretary Pritzker. Ah. Well, to date what we are finding 
in terms of interest in investing in the United States, it is 
extremely high. We are the number one place in the world, by 
A.T. Kearney, by Goldman Sachs, to invest in the U.S. So in 
terms of regulatory burden it does not appear that that seems 
to be an impediment at this time for companies being interested 
in investing in the U.S.
    But President Obama has asked his head of OIRA and each and 
ever one of us running our departments to look at our 
regulatory burden and to assess whether on a cost benefit 
basis, whether our regulations are working and are worth it and 
are effective. And we have been doing that here at the 
Department of Commerce. For the most part that would affect, 
for example, two different areas. First fisheries, how does it 
affect our fisheries and how we regulate our fisheries? And the 
second area is really our licensing at BIS. At BIS we, if you 
have a dual use product that we are trying to sell outside the 
United States there is what is going on is what is called 
export control reform. Something like 30,000 plus items have 
gone from being really restricted to being sold outside the 
United States to a much lower standard, which is what we 
manage. And so BIS has gone from 24,000 licenses in fiscal year 
2013 to our estimate in fiscal year 2016 of about 50,000 
licenses a year. So we are trying to lower the regulatory 
burden to encourage exports as well as foreign direct 
investment.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Judge. Mr. Honda.

                          NNMI SITE SELECTION

    Mr. Honda. Thank you, Mr. Chairman. And thank you for being 
here, Madam Secretary. You made the comments on the NNMI and on 
MEP, which were very positive and we are grateful for that. 
Under the NNMI you in your testimony indicated that the 
Department of Commerce would be looking at two selections for 
sites and I was just curious as to how is that choice, how are 
those choices going to be made? Who will be part of that? And 
do you know when these choices will be effective?
    Secretary Pritzker. Well assuming that we get funding for 
two institutes then what we would do is we would run an open 
topic federal funding opportunity that would be posted. And 
then what we would do is consider the results of the FFO and we 
would structure the FFO that would take into account the 
recommendations that the PCAST has made, you know, the 
President's Advanced Manufacturing Partnership has also made. 
They have recommended various technologies. The idea being our 
goal is really to have industry decide what are the 
technologies that ought to be in the Department of Commerce 
institutes as opposed to at the Department of Defense and the 
Department of Energy they are choosing the technologies that 
they would like to see go from lab to market. We view that our 
role would be more to take our cues from industry.
    Mr. Honda. And based upon that process, then, the outcome 
if the decisions would make more clear the sites or the regions 
that----
    Secretary Pritzker. That would help determine topics and 
then we would use those topics to determine, to run a 
competition where consortia would come together regionally. It 
seems that to date the consortia being put together, they are 
pretty broad actually in terms of their geography. They tend to 
end up locating one place but the groups that come together 
tend to often be broad based upon the researchers needed to 
bring the ideas from lab to market.
    Mr. Honda. Okay. I have always been one to make sure that 
we fully fund this process so hopefully we move forward on a 
fully funded----
    Secretary Pritzker. I hope so, too.

                      SEQUESTRATION AFFECTS ON PTO

    Mr. Honda. On the USPTO we were fortunate to have the 
Department of Commerce locate in Silicon Valley. And which 
city, that was arm wrestling among the cities in the district. 
But we were very fortunate to have USPTO place the office 
there. Having said that, since that selection was made 
sequestration came in. And USPTO is fully funded through fees, 
which is not part of the tax dollar budget process. However, in 
spite of the fact that it is fully funded by fees it was 
affected by sequestration. How will you help us build a 
firewall around that fund so that if there is another episode 
of sequestration that we can build a firewall around agencies 
that are fully funded by fees and not be affected by 
sequestration?
    Secretary Pritzker. Well sequestration, you know, was very 
destructive to the Department of Commerce and particularly 
destructive to the Patent and Trademark Office. In terms of its 
effect on the Patent and Trademark Office, basically when 
sequestration came down the only real flexibility in terms of 
cutting that we had at that time was to cut our investment in 
IT. And so first of all it was sort of a double whammy. If you 
think about it PTO, as you said, is fully funded by fees. So 
the idea of sequestration does not make any sense because I do 
not know where that money went to but it is not accessible to 
PTO. But folks seeking a patent or a trademark put up fees in 
order to get their patent and trademark adjudicated, so that is 
kind of nuts. And the second thing is that our IT systems, it 
is really critical, we are working now on something called 
patent end to end. One of the issues that is often brought up 
about our Patent and Trademark Office is its backlog, or how 
long until we have a first adjudication and how long until a 
final adjudication. We have a target of ten months to first 
adjudication, and 20 months to final adjudication. By, if we 
were to have sequestration and then not have access to the 
money that third parties have paid as fees in to actually 
adjudicate a patent, the thing that would probably get cut is 
our systems. And the systems are the very things that help us 
actually expedite, systems and training and number of patent 
adjudicators, are kind of the three inputs to how fast you can 
do patent adjudication. So it would kind of be a double whammy 
to the Patent and Trademark Office. So I am certainly hoping 
that we can come to a budget as opposed to end up with 
sequestration.
    How we protect against that, I think that falls under----
    Mr. Honda. The administration?
    Secretary Pritzker. We do not have that control. That falls 
under----
    Mr. Honda. Well it was OMB that decided, as far as I 
understand. And since you are part of the administration I 
would hope that----
    Secretary Pritzker. I will fight, I will----
    Mr. Honda [continuing]. The term that is nuts is, you know, 
communicated to the administration. Because it is nuts. I mean 
it is, first it is fee-based. So those who are wanting their 
patents processed. And it is an economic engine for more jobs 
and for the economy. So I would hope that we start that 
discussion within the administration in the case of 
sequestration that we have that firewall built in early.
    Secretary Pritzker. Congressman, you are probably more 
knowledgeable about this than I am because fortunately I have 
basically lived with a budget as far as I have understood it. 
And so if it is up to me to argue that with OMB, I will argue 
like all get it. I would love the support of you all. And if it 
is up to you I sure hope we can work this out. So I look 
forward to not finding ourselves in that situation because I do 
think it is nuts.
    Mr. Honda. I think not only California but Texas is also 
impacted by patents, so.
    Mr. Culberson. We are in the middle of a vote. We have got 
13 minutes, and I would like to recognize Mr. Kilmer.

                 HATCHERY AND GENETIC MANAGEMENT PLANS

    Mr. Kilmer. Thank you, Mr. Chairman. And thank you, Madam 
Secretary for being here. And thanks for coming out to 
Washington State recently. We loved having you.
    I wanted to follow up on some of the points that Ms. 
Herrera Beutler had brought up, specifically with regard to 
NOAA. NOAA obviously pays a big role in our salmon recovery 
efforts and the Marine Fisheries Services has an obligation to 
ensure that programs comply with the Endangered Species Act. 
And one of the ways in which it does that is through the 
Hatchery and Genetic Management Plans. And without approval of 
those I am concerned that the hatchery managers are subject to 
significant risk of litigation which could potentially have 
very severe implications for our recovery efforts, for federal 
tribal trust obligations, and for the $9 billion West Coast 
Fishery. So I have heard a number of concerns from stakeholder 
about concerns that NMFS lacks the work force that it needs to 
process these plans in a timely manner and I wanted to get a 
sense from you what steps is NMFS taking to address the issue?
    Secretary Pritzker. So this year we are seeking to increase 
the number of staff devoted to the hatchery plans review from 
two to six, and we are also reprioritizing some of the existing 
staff to assist with the reviews and analysis. So we are taking 
it very seriously to be able to try and address these 
challenges.
    Mr. Kilmer. Thank you. It is certainly a big area of 
concern in our area.

                  INTERAGENCY TRADE ENFORCEMENT CENTER

    I also wanted to ask about the International Trade 
Administration. The President's budget calls for a $6 million 
increase in funding to the Interagency Trade Enforcement 
Center, a multiagency effort to address unfair trade practices 
and barriers the impede U.S. exports. So how has that 
Interagency Trade Enforcement Center affected the 
administration's ability to identify and challenge unfair trade 
practices? And how will that funding increase affect the 
ability of American made goods and services to remain 
competitive internationally?
    Secretary Pritzker. So what ITEC does is it really helps us 
identify areas for enforcement and then also does research for 
cases during enforcement. And what we need is we need more 
language proficient trade analysts. We need more subject matter 
experts, so that the budget calls for 15 new positions. And you 
know, fundamentally in a world where we have more trade 
agreements we need more enforcement because we have folks that 
are trying to avoid and evade our trade agreements.

                             IT PROCUREMENT

    Mr. Kilmer. Thank you. You touched on, with my time 
remaining, you touched on IT issues. There are a number of 
members of Congress, myself among them, who are very interested 
in IT procurement reform. Your department and a lot of 
departments are significant purchasers of technology. But I 
think there is concern about whether there is adequate 
coordination between bureaus on what is procured. And so your 
department and other departments often will purchase products 
that they already own, or do not benefit from economies of 
scale, lack interoperability among products. So are there any 
internal initiatives that you can share with us that would 
eliminate some of the redundancy in IT programs and ensure, you 
know, a more coordinated and standard based approach to IT 
procurement?
    Secretary Pritzker. Yes, thank you for asking. You know 
Congressman, when I arrived our IT situation was, pretty good 
at the bureaus but really pretty awful at the Office of the 
Secretary and in kind of the central office, if you will. We 
have been fortunate to be able to bring in a new CIO and he has 
really put together a plan overhauling not just our security 
risk management but also our procurement. So he is working with 
our Chief Financial Officer, who is sitting behind me, to 
understand what are our opportunities for bulk buying of 
equipment, of software, of different programs. And in fact I 
have already seen in certain software that we have needed to 
use for customer management, that process come into effect. I 
am not saying we are where we need to be, I am suggesting that 
we have a really strong initiative in place to really better 
manage this effort. But we have work to do.
    Mr. Kilmer. Thank you. And I yield back. Thank you, 
Chairman.
    Mr. Culberson. Thank you very much. I really just want to 
zero in on one area where I think we will wrap up after this.
    Mr. Fattah. That is correct. And I have one ten-second 
area.
    Mr. Culberson. Okay.
    Mr. Fattah. Do you want me to go first?
    Mr. Culberson. Go ahead, sure.
    Mr. Fattah. As we discussed when we met, I am very 
interested in working with you to pursue the neurotechnology 
sector as an industry. I am going to be in Israel next week, in 
Tel Aviv, at the BrainTech Israel Conference. But there is a 
growing industry internationally, but America leads, and we 
should continue to focus on how to develop these businesses 
focused on brain related health issues. And I look forward to 
an opportunity as you indicated for us to put together some of 
the industry representatives with you to talk about what we can 
do as a country to work in this space. All right? Thank you 
very much.
    Secretary Pritzker. I look forward to that.

                      NTIA'S ROLE IN THE INTERNET

    Mr. Culberson. Thank you, Chaka. I want to ask about the 
Internet. The National Telecommunication and Information 
Administration has contracted with the Internet Corporation for 
Assigned Names and Numbers since as I recall almost the 
beginning of the Internet when the Defense Department first ran 
it, but it has always been controlled by the United States. 
This is an American owned company. And the administration 
recently came out with a proposal to shift that over to a 
global multi-stakeholder model. What would be the role of 
foreign governments and international organizations like the 
United Nations in the new planned model?
    Secretary Pritzker. Mr. Chairman, the goal of this is not 
to be a government run effort, this is meant to be a multi-
stakeholder effort. And just let me step back for a minute. Our 
role, NTIA's role, has been one of stewardship. We are 
committed to a free and open Internet. And what we have done is 
set up. I met in fact this week with the head of ICANN. We laid 
down a set of criteria that are absolutely essential to be met 
before we would give up our stewardship role at this point. One 
is it has got to be a reliable multi-stakeholder model that is 
not government-led. It has got to be able to do its function of 
providing a secure, stable, and resilient Internet domain name 
process. It has got to be able to service its customers. It has 
got to be able to support an open and free Internet. So we are 
waiting now for their proposal back as to how they would do 
that and also how they would assure that governments are not 
going to highjack the Internet.
    Mr. Culberson. But a multi, when you say multi-stakeholder, 
that includes either foreign companies or foreign governments' 
involvement either directly or indirectly?
    Secretary Pritzker. Multi-stakeholder is just what it 
sounds like. It is a broad group of constituents in the 
Internet world but it is not meant----
    Mr. Culberson. International?
    Secretary Pritzker. Yes, it is international.
    Mr. Culberson. International, that is what I was concerned 
about.
    Secretary Pritzker. Right.
    Mr. Culberson. Because the Chinese, of course, are 
aggressively censoring the Internet. I am strongly opposed to 
this FCC regulation that just came out, I am deeply concerned 
that this regulation that the FCC has just come out with is 
going to put the government in a position to regulate the 
Internet like a utility and the Internet has thrived because it 
is free and unregulated. What role would countries like China 
have, or companies owned and operated within China have in the 
administration of the Internet under this proposal?
    Secretary Pritzker. So Mr. Chairman, that is what we are 
waiting for a proposal to understand is----
    Mr. Culberson. From?
    Secretary Pritzker. From ICANN. Our role is in the IANA 
transition. IANA is the domain name process. We supervise that 
process. ICANN actually runs that process today and we have a 
supervisory contract with them. And what we are suggesting is 
that we would ultimately let that contract expire, unless the 
criteria that we have set up are put in place. And we are 
waiting for ICANN, which is who does the role now, to give us a 
proposal that would satisfy us that the Internet cannot be 
hijacked by foreign countries or foreign companies, and that 
the Internet remains free and open.
    Mr. Culberson. I just want to make sure I understood. The 
proposal you have asked them to come forward with--you have 
asked them to come up with a proposal that involves foreign-
owned companies?
    Secretary Pritzker. There will be foreign players, yes. 
There will also be domestic players involved.
    Mr. Culberson. Okay. Thank you. That is what I wanted to 
establish. I will have additional questions I know for the 
record. If, of course, Mr. Fattah, you have additional 
questions?
    Mr. Fattah. No. But I do think on this Internet matter, 
just so we can get some clarity at some point, we should just 
do a meeting and have a briefing----
    Secretary Pritzker. Happy to----
    Mr. Culberson. Good idea.
    Mr. Fattah [continuing]. So that all of us can understand 
exactly what is going on. Because I think----
    Secretary Pritzker. I would be delighted to have the 
opportunity----
    Mr. Fattah. Right. So that we can----
    Mr. Culberson. There is a lot of concern.
    Mr. Fattah. Right. Yes.
    Secretary Pritzker [continuing]. To bring myself and my 
experts here and we go through it in detail.
    Mr. Fattah. But the chairman's offices will arrange it. But 
we will----
    Mr. Culberson. Sure, we will set it up.
    Mr. Fattah [continuing]. Just have a meeting, not a 
hearing, and get to the details.
    Mr. Culberson. Because there is a lot of concern. Our 
constituents, Judge, I know yours are as well concerned about 
this.
    Secretary Pritzker. Chairman, I share your concern. So this 
is not something that we are going to let happen, whereas I 
said there is not going to be a hostile takeover of the 
Internet.
    Mr. Culberson. Well I assure you, Congress will help make 
sure that does not happen too.
    Secretary Pritzker. Good. Thank you.
    Mr. Culberson. Thank you very much for your time and your 
service to the country, and the hearing is adjourned.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 18, 2015.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                                WITNESS

KATHRYN SULLIVAN, ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
    ADMINISTRATION
    Mr. Culberson. The House Appropriations Committee for 
Commerce, Justice, and Science will come to order.
    And I want to welcome everyone to this morning's hearing 
with Dr. Kathy Sullivan, the Under Secretary of Commerce for 
Oceans and Atmosphere and NOAA Administrator.
    We deeply appreciate your service to the country, Dr. 
Sullivan. We look forward to hearing from you and asking 
questions about your budget for the coming year.
    And we have a particularly difficult budget year 
recognizing the immense importance of the work that NOAA does 
from weather forecasting to ocean research. We want to make 
sure we get our weather satellite system, and make sure there 
are no gaps in coverage there, of course.
    But it is an extremely difficult budget year and we are, as 
good stewards of our taxpayers' hard-earned tax dollars, going 
to have to be sure we are limiting our investments to our top 
priorities, while recognizing that you have asked for about a 
ten percent increase above the current fiscal year.
    In your budget request for 2016, you are asking for $5.9 
billion, an increase of about $540 million dollars. We will 
certainly do our best to be sure that top priorities of NOAA 
are funded, but, I want to make sure it is clear for the record 
with every one of our other witnesses, that we are facing a 
very difficult budget environment and many of the assumptions 
that the President makes in his budget are not going to happen 
such as tax increases and fee increases, et cetera. These are 
just simply not realistic.
    But we will, of course, do everything we can to protect the 
important work that NOAA is doing. Weather forecasting is so 
vital, and the work that you are doing in ocean mapping and 
exploration is absolutely essential. And we will do our very 
best to protect you.
    The work that we do has always been bipartisan in nature. 
This subcommittee's devotion and support for the sciences and 
scientific research, space exploration, weather forecasting, 
and law enforcement is a long tradition of the subcommittee.
    It has been a privilege for me to be a part of it since I 
first got on the Appropriations Committee and particularly to 
succeed my mentor and dear good friend, Frank Wolf, who we all 
have great memories of and I do my best every day that I have 
got this job to live up to the high standard Frank Wolf set.
    It is a privilege to have you with us here today. And I 
would like to recognize my good friend, Mr. Fattah, for any 
opening statement he would like to make.
    Thank you.
    Mr. Fattah. I want to thank the chairman for hosting you 
and this hearing is an important part of our decision-making 
process. So I want to say a number of things.
    One is that you have a distinction, you know, in terms of 
not just your service at NOAA but as one of the first women 
astronauts and walking in space, so you are an important 
example of the impact science can have in the life of our 
Nation.
    NOAA is a critically important agency and I have been over 
to visit at the National Weather Service. I got a chance to 
keynote or talk at the conference that was held on severe 
weather events. We have a lot going on not just in terms of 
your normal work but the challenges related to weather and the 
historic high in terms of severe weather events.
    The work that NOAA has done to make advancements in weather 
forecasting has helped save lives and protect property 
throughout the country, and also it is critically important for 
navigating our waters for commerce and for troop deployments. 
We need information through NOAA. And the work of the 
Administration to create an ocean policy, I think, has been 
very important.
    I was at their coastal zone conference in Chicago a few 
years back where I got a chance to speak, but more importantly 
to learn about the important efforts of NOAA all the way to and 
including the Guard Club of America and their tremendous 
support. They were just here on The Hill a few weeks ago 
talking to Members and making it abundantly clear these 11,000 
volunteers, how important your work is.
    So I want to welcome you. Look forward to your testimony.
    And I thank the chairman. And, again, I apologize for being 
a couple minutes late. But I was with Tom Cole and he said he 
would give me a slip if I needed one. But we were trying to 
conclude work on Labor HHS. So thank you, Chair.
    Mr. Culberson. Thank you.
    Mr. Fattah. All right.
    Mr. Culberson. That is impressive.
    Mr. Fattah. Well, conclude today's activities, yes.
    Mr. Culberson. Thank you very much.
    Dr. Sullivan, it is a pleasure to have you here with us and 
we will without objection submit your full statement for the 
record in its entirety, and welcome your summarization of your 
testimony. And we are pleased to have you here today and would 
recognize you for your presentation to the subcommittee. Thank 
you, ma'am.
    Ms. Sullivan. Thank you, Mr. Chairman, Mr. Fattah, and 
Members of the subcommittee. I am quite pleased to be here 
today and talk about NOAA's fiscal year 2016 budget request.
    I would agree with both the chairman and the ranking 
member's assessment that NOAA is one of the most valuable 
service agencies in the United States Government. Through our 
observations, our forecasts, and assessments, we strive to 
provide the foresight and information that people need to live 
wisely and well on this dynamic planet. At NOAA, we call this 
information environmental intelligence and producing it is at 
the core of our mission.
    Americans from our citizens to our military to our 
businesses rely upon this environmental intelligence and the 
services that NOAA provides every single day from forecasting 
extreme weather events to providing data that help ensure safe 
navigation, sustaining and promoting economically viable 
fisheries, and protecting endangered species.
    We leverage our capabilities across all of the different 
scientific disciplines involved to support the Nation in 
preparedness, response, and recovery.
    Our fiscal year 2016 budget builds on the foundation that 
was established with the support of this committee and the 
Congress. It sustains our efforts to put critical information 
into the hands of the public. Each of the increases in our 
request is a carefully chosen targeted investment in an area 
that is most vital for NOAA to meet the growing demand we hear 
from the public. I would like to touch briefly on the four main 
priority areas of our request.
    First, this request invests in observational infrastructure 
improvements that are needed to effectively execute NOAA's 
diverse mission portfolio and protect public safety and welfare 
now and into the future. To ensure the continuity of our at sea 
data collection capability, one of the most important requests 
in our budget is funding for the construction of an ocean 
survey vessel that is capable of advanced oceanographic 
research in coastal and deep ocean areas.
    NOAA's current fleet will decline from the current 16 
vessels to just eight by 2028 without continued investment. We 
will continue to partner as we do now robustly with the private 
sector to meet our ship time needs, but a combination of 
contracts, partnerships, and a robust NOAA fleet is clearly a 
must if we are to continue to provide the critical reliable 
data that businesses and the American people depend upon.
    NOAA must also ensure the continuity of satellite 
operations to provide the National Weather Service with the 
data needed for forecasts that protect lives and property. The 
fiscal year 2016 budget initiates development of a Polar 
follow-on satellite system that will reduce the potential for 
gap in these critical observing systems and enhance our ability 
to provide timely and accurate weather forecasts now and into 
the future.
    Second, this budget proposes to equip communities to face 
increasingly frequent natural disasters and confront the long-
term adverse environmental changes that are seen. 2014 was the 
warmest year on record with eight weather and climate 
disasters, each of which had losses totaling $1 billion. Each 
of these events causes widespread damage and devastates 
families, businesses, and communities.
    This budget invests in the services and information to 
support the communities' own efforts to assess their risks and 
minimize their losses in advance and in the aftermath of such 
events.
    For example, it invests in actionable coastal intelligence 
tools such as water level data for improved storm surge 
predictions and nautical charts. It spurs important research to 
help farmers and coastal communities prepare for and mitigate 
drought and flooding and it will strengthen and expand the U.S. 
seafood industry by tapping into a $100 billion aquacultural 
global market for which this country currently only makes up a 
one percent share.
    Third, this budget makes investments to ensure that America 
has a National Weather Service that is second to none. Weather 
and climate impact approximately one-third of our Nation's GDP. 
It can cost billions of dollars and claim thousands of lives 
per year.
    NOAA continues its commitment to build a weather ready 
Nation and provide citizens with the most timely, accurate, and 
well-communicated forecast information.
    Specifically this budget invests in several targeted areas 
needed to improve weather service capability and service 
delivery to meet key user needs. This includes improving the 
geographic accuracy for hazardous weather and improving the 
prediction of precipitation and temperature outlooks for the 
three to four-week range, a time frame that is essential for 
emergency managers to prepare for and mitigate these extreme 
events.
    And, finally, this budget aims to improve our agency's core 
operations. Every day NOAA employees strive to execute our 
mission with discipline and consistency and timeliness. 
However, we cannot perform our core functions at the highest 
level when our support services cannot keep pace with the 
growing demand.
    And in recent years, our support functions have fallen 
drastically behind. This threatens our ability to recruit, 
retain, and reward the best talent possible and to ensure our 
customers receive the best service possible. It compromises our 
ability to engage with the private sector and academia and to 
provide you with the quality and timeliness of accountability 
reporting that you rightly expect.
    Our fiscal year 2016 request for corporate services is 
smaller but similar to what we requested in fiscal year 2015 
and will focus on improving corporate service functions, in 
particular in our workforce and acquisition and grants arena.
    Overall, NOAA's fiscal year 2016 budget request reflects 
the commitment of Secretary Pritzker that she and I have made 
to the President to growing a strong economy that is built to 
last while being fiscally responsible and focusing on priority 
initiatives.
    I am proud to serve with this vital component of the United 
States Government helping to maximize United States 
competitiveness, enable economic growth, foster science and 
technological leadership, and promote environmental 
stewardship.
    I look forward to working with you, Mr. Chairman, and 
Members of this committee as well as partners and our 
constituents to achieve the goals that I have articulated 
through the implementation of this budget. And I thank you for 
this opportunity to make a comment.
    Mr. Culberson. Thank you, Dr. Sullivan. We appreciate your 
testimony and your leadership of the agency.
    And as a father of a daughter who is keenly interested in 
the sciences, I would, if I could, just like to open by asking 
you to tell the committee and anyone out there listening, 
particularly young girls who are thinking about going into the 
sciences, what led you to major in geology and go on to join 
NASA. Tell us what led you into the sciences, what inspired 
you, and talk to us a little about any barriers that you 
encountered as a woman, if any, and what you did to overcome 
those.
    Ms. Sullivan. Well, it is very kind of you to inquire, Mr. 
Chairman. I was driven from a very young age by a strong 
curiosity, basically a strong geographic curiosity about 
virtually every aspect of geography, landscapes, climate, 
critters, peoples, cultures.
    And, frankly, if you poked me as a little girl and asked me 
what my dream was, it was to figure out how someone bought me 
airline tickets so I could actually get to go to all these 
exotic places and learn firsthand about those phenomena and 
those people and those places.
    I first began thinking I would parlay a strength I have in 
foreign languages into a career like that and so actually chose 
my college as a language and linguistics major.
    Mr. Culberson. What was your focus and what language?
    Ms. Sullivan. I was already fluent in French and German and 
I wanted to go into Russian. And happily that college had the 
wisdom to require me as an arts and language major to take 
three science courses which I thought was a terrible idea at 
the time.
    They won and I discovered geology and oceanography and saw 
in the lives and the work of my young professors, all of whom 
were male, but I admired their curiosity. I admired their spunk 
getting out into the field. They invited us into the passion 
that they felt for understanding this planet and how it works 
and for turning that information, the scientific data into 
information that could really help people live better.
    Mr. Culberson. Dr. Robert Ballard's specialty is geology.
    Ms. Sullivan. Well, and young Dr. Robert Ballard and I went 
to sea together in 1974 on the cruise that began his arc of 
fame. He was at that time a very wet-behind-the-ears post-doc 
who was, frankly, doing all the grunt work for the big names 
who were aboard----
    Mr. Culberson. Right.
    Ms. Sullivan [continuing]. The cruise. I was even more 
junior to Bob, so I got to do the even grimier grunt work, but 
that was quite a remarkable voyage in its own right. And it was 
those sorts of experiences, the chance to live overseas in 
Norway for a year for my junior year that reshifted my focus 
towards geology and oceanography, towards the North Atlantic in 
particular which is why I studied in Canada.
    Barriers to overcome, I was blessed to have parents that 
inoculated me through their confidence and their composure that 
any interest their child has is an interest that is valid for 
that youngster to pursue. And the peanut gallery does not get 
to edit those choices, but also strong enough to tell me, you 
know, you have got to work hard at the things you care about. 
Mastery is an important thing unless you just want to make it 
your hobby.
    And so that gave me, I think, some ability to proceed on an 
ignorance is bliss basis. If my work was good, I just managed 
to largely ignore people who thought it was odd that I should 
be doing this.
    You know, it is challenging and you certainly can meet a 
boss or a mentor or supervisor who more actively tries to hold 
you back. I was fortunate to not meet any really malicious 
people who aimed to hold me back, but there were plenty who 
challenged me hard.
    And I think it is fair to say that those of us women in the 
early days of oceanography and geology and the astronaut corps, 
I think we certainly had to reach to a higher level to be 
accredited as basically capable. You know, that is not a bad 
thing. It does make you stronger.
    Mr. Culberson. It does indeed make you stronger and it is a 
great story. And I saw that you were on the mission that 
deployed the Hubble Space Telescope which continues to--
    Ms. Sullivan. The 25th anniversary this coming month.
    Mr. Culberson. Yeah. Continues to give tremendous benefits 
to all of humanity.
    And the Space Program in particular, I know it is a vital 
part of the work that you do at NOAA and we are, all of us on 
the committee, concerned. We want to make sure there is as 
little a gap as possible in our coverage of satellites.
    There was some early problems with the management of the 
Polar weather satellite. We have, all of us on the committee, 
we reviewed the inspector general's report who points out the 
potential gap in data between the current on-orbit Polar 
weather satellite, the NPP, should it fail or if there is a 
launch failure for the next Polar satellite.
    Congress included $111 million in Hurricane Sandy 
supplemental to address this gap and the overall lack of 
program robustness. So we essentially fully funded NOAA's 
weather satellite procurement request for the last several 
years.
    What distinct actions has NOAA taken to address the 
potential gap and what is your best estimate on the length of 
the gap that might occur and what could we do, if anything, to 
move up the launch of the JPSS-1?
    Ms. Sullivan. Thanks for that question.
    We have done a number of things. One is, really along with 
our partners at NASA, we looked carefully at how we are 
managing the current primary satellite, the NPP satellite, 
making sure that we are working well within margins, we are not 
over-straining systems, doing everything we possibly can within 
the operations of that satellite itself to up the likelihood 
that it will last to and beyond its design life.
    That is all going to be statistics. You can make a guess. 
Mr. Fattah can make a guess. Mrs. Herrera Beutler can make a 
guess. And a micrometeorite could hit it tomorrow or----
    Mr. Culberson. Right.
    Ms. Sullivan [continuing]. It could run for a long time. So 
we are doing that. We are doing everything we can to extend the 
life of NPP.
    We scrubbed the JPSS-1 procurement schedule very 
assiduously again with our NASA colleagues and our vendors. We 
have pulled that to the left as far as it is technically 
possible to do. The big constraint there are the long lead 
parts and the intricacy of assembling the primary instruments 
that make the key vertical profiles of the atmosphere. There is 
just only so much that our vendors tell us they can compress 
that given the realities of their supply chains.
    Thirdly, you will recall we mounted an array of activities 
with, in particular, the Sandy supplemental funds aimed at 
inoculating ourselves in every other way we could against a 
loss of data. So factors that feed into that are improvements 
in our operational super-computing capacity at the Weather 
Service, improvements in what is called data assimilation, the 
mathematics by which you pull the data into the system. That 
actually can play a significant role in the skill, the final 
result of a model.
    We have been doing some assessments of whether short-fill 
temporary data sources, how might they make up for a loss of 
JPSS satellite from purchasing more aircraft data. We buy data 
from commercial suppliers of measurements from airplanes, for 
example.
    The key contributor there is the COSMIC radio occultation 
system. There is a COSMIC version 1 in orbit now but well past 
its design life and our focus on securing all 12 of the COSMIC-
2 sensors goes very directly to the notion that they can play a 
significant role should we lose Polar satellite data.
    Mr. Culberson. What is your best estimate today of the 
potential gap and when is your best estimate on when you can 
launch and what, if anything, can we do to help speed that up?
    Ms. Sullivan. JPSS-1 has been meeting every budget and 
schedule target consistently for the last 24 months. The 
program has retired those management risks that were a problem 
in the 2009, 2010, 2011 time frame. Our GAO colleagues concur 
in that assessment. It is now a stable and well-managed 
program. It is on track to launch in the very beginning of 
calendar 2017.
    I would have to pick a random number, Mr. Culberson. You 
would have to decide what probability of a failure do you want 
me to calculate the number on. And you can get a range from 12 
to 14----
    Mr. Culberson. Your best personal estimate.
    Ms. Sullivan. Depending how you cull the statistics, you 
could say it is a 12 to 14 or 18 month. And there are more 
cautious or worried people who would say, oh, it could be 36 or 
48 months. It entirely depends on what----
    Mr. Culberson. Sure.
    Ms. Sullivan [continuing]. Probability. If you want to tell 
me I want a 90 percent probability or 80 or 40 or a 30, that 
gap length will vary significantly. So it is a pretty random 
exercise to try to pick a gap length.
    Mr. Culberson. It sounds like from your answer there is not 
much we could do to speed that up. The supply chain, your 
vendors tell you there is only so much they can do. Not much 
then this subcommittee could to do to help you speed up or make 
that launch date any earlier than early 2017?
    Ms. Sullivan. We have turned over every rock and we have 
asked them point blank if we could provide an additional slug 
of money, can we change this. And they tell us they cannot. 
They do not have the wherewithal to stand up----
    Mr. Culberson. Okay.
    Ms. Sullivan [continuing]. Separate parallel lines. The 
important thing to do in our view is to move out with this 
budget and establish the Polar follow-on program because it is 
that. It is breaking out of this one-at-a-time procurement 
cycle and moving towards a more economically effective multiple 
satellite purchase that will prevent us from kicking this gap 
further down the road and having the same problem at JPSS-2 and 
ever thereafter.
    Mr. Culberson. Thank you.
    Mr. Fattah.
    Mr. Fattah. I think it was Dr. Harris, Bernard Harris who 
wrote the book Dream Walker, and it talks about walking in 
space. And he said that when you are out there and you are 
facing earth, it is warmer. And when you are facing away, it is 
colder.
    I hope you know it is warm in here. When you are here, we 
want to help you do what you want to do and what you need to do 
on behalf of the country.
    And the work of NOAA, this satellite gap that the chairman 
raised, as we know, because the committee looked at this early 
on, this was set in place well before your tenure, well before 
this Administration came into being. But it is a problem that 
we have to help solve.
    And as you say that the best-case scenario is for the life 
of the existing satellite to move as well as it can within the 
probabilities of some type of failure, catastrophic or 
otherwise, until the new satellite can launch, but in terms of 
going forward in terms of not being--I guess there are two 
sides of this.
    One is the satellite repair, you know, the need for 
funding, and we funded this in NASA, some effort to start to 
look at how we can extend lives of existing satellites, because 
we got a lot of satellites floating around out there.
    But also your point is correctly taken which is that one of 
the things the committee can do even as we look at this in the 
rearview mirror, this gap that none of us had anything to do 
with, is to make sure that we do not repeat the same mistake 
and that we forward fund and take the necessary steps to make 
sure that--because these satellites are critical to our 
weather.
    And as I understand when we talk about severe weather 
events, these billion dollar plus events, our ability to 
project where these incidents are going to take place has 
improved dramatically and, therefore, our warning systems in 
terms of moving people, we have saved lives and also because we 
know more about what is going to happen, we are in just a much 
better position. So it is a worthwhile investment.
    And I know that the committee did some work in terms of 
tsunami warning systems and maybe you could talk to us about 
where we are with the investments that we have made there and 
whether there is any additional work we need to do in that 
trade space.
    Ms. Sullivan. Thank you, Mr. Fattah.
    We have made great strides forward in weather forecast 
capability. Earlier this year, we were able to step up the 
operational super-computing capacity times three and sharpen 
the resolution of our models from 13 kilometers to three 
kilometers.
    You know, if you are Craig Fugate or a county emergency 
manager, that boils down to now being able to give you a 
projection of where the key severe weather and storms are going 
to be that is down to the street and block level, not to just 
the city level. Tremendous step forward.
    On tsunamis, what we have been able to do most recently----
    Mr. Fattah. I would love the chairman to hear this.
    Ms. Herrera Beutler. I am sorry. That is me.
    Mr. Fattah. It is okay.
    It is important that you just make sure you get this so the 
chairman can hear.
    Ms. Sullivan. Thank you.
    I had commented we have stepped our operational super-
computing capacity----
    Mr. Culberson. Up three times.
    Ms. Sullivan. Up three times and that is what our model 
was, resolution, get down to storm scale, so we are pinpointing 
a storm in a neighborhood, not roughly a storm somewhere over 
your city. That is a tremendous improvement for emergency 
management folks.
    Mr. Culberson. And the resolution has probably gotten 
better, too, because you are able to use----
    Ms. Sullivan. From 13 kilometers to three kilometers, but 
that is about the computer power that lets us put a finer grid 
cell into the model. That has been a huge step forward.
    That model when we ran it in parallel with the derecho a 
couple of years ago, we had a ten-hour warning on the derecho 
which is what led us to get the emergency management----
    Mr. Culberson. How do you pronounce it?
    Ms. Sullivan. Derecho.
    Mr. Culberson. Interesting. Okay.
    Ms. Sullivan. Mrs. Herrera Beutler will correct my 
pronunciation if I am off.
    Mr. Culberson. Well, as a linguist, you know, I figured----
    Ms. Sullivan. Well, yeah.
    Mr. Culberson. You got it right.
    Ms. Sullivan. With respect to tsunami warnings, one of our 
key concerns there had been the buoy. We have buoys on the deep 
sea floor of the Pacific and Indian and Atlantic oceans that 
measure the tsunami when the tsunami is about a half an inch 
high in the middle of the ocean. This sensor on the sea floor 
15,000 feet below can detect it and help us triangulate where 
it is going and how it is going to develop.
    And they are far away out in the middle of the ocean and 
they are in deep water. It takes very specially equipped ships 
to be able to service them. And their in-service rate had 
fallen off because of declines in ship time due largely to the 
fuel price increases. We have been able to get that tsunami 
buoy network back up to its 80 percent operational target, so--
--
    Mr. Culberson. On the west coast?
    Ms. Sullivan. Throughout the entire system.
    Mr. Culberson. Eighty percent?
    Ms. Sullivan. Yeah, 80 percent. So, you know, that has been 
a real success. And we have both our Anchorage and our Hawaii 
forecast centers that model the whole globe. You have to model 
the whole globe to do tsunami forecasting, the entire global 
ocean. That can be done anywhere. We do it in Anchorage and we 
do it in Hawaii.
    The Hawaii center is linked to the International Tsunami 
Warning Center so that our international partners like the 
Indonesians or the Indians, the Malaysians collaborate and they 
take the warnings and propagate them through their emergency 
system to protect their citizens.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.
    I apologize. I am going to bore you with Snapper.
    Dr. Sullivan, thank you.
    Mr. Culberson. We are interested in Snapper in Texas as 
well.
    Mr. Jolly. Thank you for being here.
    I am going to be very honest. I need your help, your 
leadership on the Snapper issue. The past several years have 
been incredibly controversial and it is going to get so much 
more controversial tomorrow with the publication of the new 
rule.
    I understand that balancing the fish stock, balancing the 
accountability of commercial for hire and recreational. Some 
Members choose to go all in with one sector. I do not. The 
first thing I did when I got elected was I put together a 
council in my district which includes NMFS, NOAA, and other 
agencies, as you know, of all three sectors to try to figure 
out where the sectors could actually agree we needed 
improvement.
    And the one area hands down every single sector agrees on 
is data. Nobody believes the data. Nobody believes the data. 
Magnuson requires the use of best science in determination 
closures. We have seen Snapper go from 75 days to nine days and 
I am pretty sure after tomorrow's rule publication will go to 
six days, but nobody believes the data behind the rules.
    And so as these rules are published and create such 
controversy, it is the underlying data behind that that if we 
can improve the data collection and we can meet the 
requirements of Magnuson, if you can then justify those 
closures and the stakeholders believe the data, okay, that is 
fine. But there is such suspicion about the data that it 
creates the controversy behind the rules.
    And so my question for you is on your view of how we are 
achieving best science, how are you achieving best science 
ahead of any rule decisions determining closures to comply with 
Magnuson?
    Mr. Culberson. And could you talk about the rule itself 
that they are going to publish tomorrow?
    Mr. Jolly. So tomorrow's rule, well, perhaps if you want to 
explain the rule, it essentially is going to reduce, you are 
going to create a buffer zone to reduce the quota number or 
data number on what you allow for days by 20 percent to ensure 
there is no overage. So essentially you are taking what had 
been a hundred percent pool and reducing it to 80 to determine 
closures which is part of the concern of recreational.
    Mr. Culberson. And based on what data which is a really 
important question also when it comes to----
    Mr. Jolly. Sure.
    Mr. Culberson [continuing]. Weather data for global 
warming.
    Mr. Jolly. And I will also share, and it is an 
acknowledgment of the challenge you face, it is easy to get 
compliance and accountability from commercial because of the 
way it is regulated. It is slightly easier with for-hire, 
recreational it is very difficult to determine their 
accountability. The challenge it creates, though, is in musical 
chairs when the music stops, recreational are the last people 
standing and they have no ability for redress.
    So how are you complying with Magnuson's requirement of 
best science?
    Ms. Sullivan. It is a complex issue and a complex question, 
but as you note, it is a very important one and a very 
challenging one in particular in the Gulf. Just as a backdrop, 
although it is counterintuitive, part of what we are dealing 
with here is a cognitive dissonance that comes from the success 
that actually has been achieved in the Gulf in actually 
rebuilding the stock. There are more snapper and they are 
larger and they are being seen now in places where they have 
not been seen for decades. And all of that is thanks to the 
discipline and the self-sacrifice of constituents, including 
the recreational fisher----
    Mr. Jolly. If I may, though, that creates a circular 
argument. And I have had this conversation, because if you 
declare the success of the past management plan because now we 
have more snapper than ever, why are the days going down?
    Ms. Sullivan. Well, yes. So there is where the apparent 
inconsistency comes in. And the catch limits for snapper are 
set on weight and so, when you get bigger fish, fewer fish 
total up to that weight sooner. And that has had this sort of 
ironic and counterintuitive consequence of shortening the 
number of days, because the weight quota is met faster with the 
bigger fish. I completely sympathize with the sort of clash 
that creates for your folks down in the Gulf.
    Mr. Culberson. And in Texas. I am keenly interested in this 
question. So do not be constrained, Mr. Jolly, by that----
    Mr. Jolly. I have got a solution for you----
    Mr. Culberson. Yes.
    Mr. Jolly. Okay.
    Ms. Sullivan. I know it goes all across around the Gulf 
states.
    Mr. Culberson. And you are going to hear about salmon from 
the West Coast.
    Ms. Sullivan. I suspected that might be the case.
    With respect to data, and our Southeast region is actually 
a good example of this, we have completely open data calls. 
Anybody, any party can bring data, and it is everyone 
adjudicates and debates which data meet the quality standards 
that the council has agreed must be met for anybody's data to 
be accepted. If one of my guys brings a study in that does not 
meet those standards, it does not get included in the data that 
will go into the assessment.
    So we do use outside data, we rely on it quite a lot.
    Mr. Jolly. Well, you make the call for data, but I can tell 
you those who try to participate feel as though they really do 
not have a seat at the table, that it is not considered.
    Mr. Culberson. Is the whole process transparent and is the 
data out there for independent verification?
    Ms. Sullivan. It is, yes.
    Mr. Jolly. So let me ask you a question and I realize the 
time is up.
    Mr. Culberson. This is important.
    Mr. Jolly. Let me ask you your opinion on a model that has 
come out of my council. And understand, the council includes 
all sectors. We have had representatives from your agency, from 
NMFS, from state regulators sit at the table as well with us to 
brainstorm on things. Staying out of the controversy of days 
and catch shares, if the issue is data, that everybody agrees 
on, everybody is suspicious of, they feel like they do not have 
a seat at the table, they can submit proposals, they get 
rejected, how about this model.
    The agency currently has cooperative research institutes. 
What if under the jurisdiction of NMFS, so within the 
jurisdiction and control of your agency, there was a 
cooperative research institute that existed with personnel, as 
well as funding to let out competitively awarded, peer-reviewed 
research contracts? So that rather than making the decision 
when the data is presented, you are actually making the 
decision on proposals submitted by third-party data collectors. 
It could be major research universities, it could be commercial 
fishermen who have a GPS, iPhone data system that works, it 
could be recreational. One, it would bring them to the table. 
It would be their opportunity to participate and, if they chose 
not to, well, then shame on them.
    But to have a cooperative research institute under Mr. 
Crabtree's jurisdiction to let out competitive contracts to 
research universities, recreational angler groups, commercial, 
and others that met peer-reviewed processes, let out the 
contracts. That information then is owned by NMFS and we know 
has to then be incorporated, because they have approved the 
manner in which it is being collected. Would that be a way to 
satisfy the----
    Ms. Sullivan. We do fund, we do fund. And I know Mr. 
Crabtree, I can get the statistics for you and give you a more 
detailed briefing. That is the purpose of NMFS's cooperative 
research. We do not have to establish and pay the overhead of 
having an institute per se, because the cooperative research 
budget lines that we have within NMFS are intended to do 
exactly that. I would be happy to get the detailed data on how 
much cooperative research is being done associated with snapper 
across the Gulf.
    Whoever does that cooperative research and whoever collects 
those data on the back end, the data have to pass a peer review 
to be accepted. So, I mean, my guys could go out and do a bad 
job on a cruise too. We do not want their data going in----
    Mr. Jolly. Sure.
    Ms. Sullivan [continuing]. Un-quality checked.
    Mr. Culberson. So you like Mr. Jolly's proposal?
    Ms. Sullivan. I would prefer to not put extra overhead 
expenses in this setting up an institute per se with all the 
administrivia that might come along with that.
    Mr. Culberson. But you like his idea?
    Ms. Sullivan. But I would like to bring back the data on 
what cooperative research is actually currently being done with 
respect to snapper in the Gulf. I do not know those figures, I 
do not know the dollar values or the participants.
    Mr. Jolly. And being incorporated into the closure 
decisions.
    Ms. Sullivan. It is certainly worth looking at.
    Mr. Jolly. Because----
    Ms. Sullivan. That is exactly the----
    Mr. Jolly. Because here is the other thing I think we would 
accomplish with that. We would eliminate the suspicion by the 
sector participants, particularly recreational, who believe 
today--and I know you know this, but I live it--they do not 
believe that they have a seat at the table. They believe they 
see more fish than they have ever seen before, and they see a 
constant reduction annually of the days they are allowed to 
fish and it does not make sense. And the more people I hear 
from the agency who say our plan is working, again, then I ask 
the question, are you declaring success? Because if you are 
declaring success, then tomorrow's rule is not necessary.
    And so there are more fish than ever and yet our 
recreational guys--and listen, this means something in 
communities on quality of life of course, but it also means 
things for our economy. This is a very fragile economic model 
and it is destructive to the quality of life to coastal 
communities.
    And so I started by saying I need your help and I mean that 
to set a tone that I am not beating up on the agency, but I am 
telling you what is being implemented right now is broken. And 
I have tried to find a solution that is--we have gotten to this 
cooperative research institute idea. And I will be honest, I 
appreciate that you have said there is cooperative research 
going on. From this committee's perspective and from compliance 
with Magnuson, unless you can demonstrate the teeth behind that 
and our ability to provide accountability and oversight of the 
third-party data that is including everybody, I still would 
want to push for something that establishes a cooperative 
research institute that we know is accountable.
    So, Dr. Sullivan, I appreciate very much your willingness 
to engage in this conversation.
    Ms. Sullivan. Very much willing to follow up with you, Mr. 
Jolly.
    Mr. Jolly. Thank you.
    Mr. Culberson. And I would like to offer, maybe we can sit 
down together and have a follow-up meeting on this, because it 
is a keen interest to me as well and in Texas. And Washington 
State and the west coast have got similar concerns that are 
maybe not identical, but they have also got some real serious 
concerns about fisheries, because it is so important to their 
economy as well. So I will indulge you guys next.
    Mr. Fattah. Well, there are a few fishermen and women in 
the New England area too. I know there is a lot of interest in 
these catch share things.
    Mr. Culberson. Right, that is right.
    Mr. Fattah. So we would be glad to participate.
    Mr. Culberson. In fact, water quality has improved so much 
around the Gulf Coast. We are seeing porpoises and improvements 
in stocks in areas, like you said, we have not seen them 
before.
    Data collection is so vital, to make sure the data is 
accurate. I cannot find in your submitted statement, I heard 
you say that this is the warmest year on record. Where is that 
and what are you referring to?
    Ms. Sullivan. Those are the global atmospheric 
temperatures.
    Mr. Culberson. Is that in your summary--I cannot figure out 
where it is--is that something that you added?
    Ms. Sullivan. I would have to page through my written 
testimony, that was in my oral statements.
    Mr. Culberson. Okay. The data has to be accurate. I mean, 
that is the most important thing. As long as we have got good 
data, that is something we can all work with. And I think that 
is one of the biggest concerns, whether it be with the climate 
or with fisheries or with anything else that we do. Whether it 
comes to the National Science Foundation, NASA, or NOAA, we 
just need good data to make good decisions. We have got to be 
certain the data is accurate.
    So I concur completely. And we ran a little over, but that 
is okay. And when it comes to salmon and the west coast, you 
guys can do the same thing. So Mr. Kilmer.
    Mr. Fattah. Well, the issue there is whether you are going 
with the natural hatcheries or--and you have got a lot going on 
up there in Washington State.
    Mr. Culberson. Right. Thank you.
    Mr. Kilmer. Thank you, Mr. Chairman. And thank you, Dr. 
Sullivan.
    I do want to talk about salmon, but I want to start on 
coastal resiliency issues. I represent a district with a whole 
ton of coastline and, as a consequence, we are challenged by 
everything from storms to tsunamis to you name it. And in fact 
I have got three tribes in our district that are in the process 
of trying to move to higher ground because of persistent 
challenges.
    In fiscal year 2015, NOAA received an additional $5 million 
to expand its regional coastal resilience grants programs. And 
I just want to get a sense of, one, do you have a sense of when 
the details of that funding opportunity are going to be made 
public? And to what extent will the state coastal zone 
management programs be engaged as part of that effort?
    And then in addition, it seems like a lot of the funding is 
primarily targeted at capacity building and planning. Are we 
doing enough to actually provide resources on the ground to 
these communities, you know, that currently lack the capacity 
to actually address if there is going to be a massive storm or 
a tsunami or whatnot?
    And then I will just also throw in while I am asking you 
questions, how do you see that work being done through this 
proposal complementing the existing resiliency work being done 
by the Integrated Ocean Observing System and the Sea Grant 
Programs?
    Ms. Sullivan. Thank you for those questions.
    Mr. Kilmer. You bet.
    Ms. Sullivan. I do not have the exact date at my fingertips 
of when we will have that FFO out. I know it is in final 
stages, so I do expect it very shortly. And the regional ocean 
partnerships, the coastal zone programs, all I think could be 
competitive under the terms that I think will be the final 
terms of it. But it is soon and we will be happy to get back to 
you when we have got the exact date on that.
    Your next question was about the capacity and, you know, I 
have really seen that vividly as I have traveled around. I was 
in Hoboken on the second anniversary of Sandy, talking with the 
mayor there about what are they doing, how are they trying to 
get up on the curve of the kind of challenges they have there 
where they can get flooded from every side and up through the 
ground.
    I have been down in New Orleans and met with that city's 
mayor and resilience manager. And just a couple weeks ago 
stopped by New York to talk with both the Bloomberg and the 
Rockefeller foundations that are also trying to move some of 
their financial capacity and expertise out to do just what you 
say. To help communities build the capacity within their 
municipal governments to do smarter planning, to be more aware 
of the vulnerabilities they have, to have the kind of 
information tools, which again start with data and start with 
sound maps.
    And key to those maps along the coastal zones are of course 
the coastal bathymetry, a solid and accurate bathymetry, water 
level data, the kind of data that NOAA provides from our 
coastal intelligence arena.
    The scale of the need is huge and I cannot begin to say 
that we are doing enough yet to really meet what we hear and 
see from communities as demand within NOAA. Our budget request 
this year has a couple of asks in it that reflect that. A 
couple million dollars to provide an AmeriCorps kind of service 
capacity out in the field to get out to those communities and 
help them begin to start up their own efforts. An expansion of 
the regional coastal resilience grants from five, which was 
barely enough to begin taking the lessons learned and practices 
from the Sandy area out beyond New York, New Jersey, to 45. And 
uses we would intend with these funds are right on the points 
that we heard loud and clear from the state and local and 
tribal leaders who came together in the President's task force 
in the wake of Sandy.
    The whole Federal family wanted to be sure that we were not 
talking to ourselves about what the needs are and what the real 
gaps in their capability are, but we actually heard from them 
about what do you most need from the Federal Government to help 
you. And when it comes to NOAA, what they most need are the 
kind of environmental intelligence data that we provide that 
have very simple first-order tools that are sort of their 
starting set tools, and that bit of technical support that lets 
them begin to develop the fluency and the competency they need 
to take those tools and go forward and plan and work within 
their community.
    Mr. Kilmer. I want to make sure to ask about some of the 
salmon recovery efforts and I know Ms. Herrera Beutler will 
also be chiming in on this.
    I wanted to raise two concerns, one about the $3 million 
cut to the salmon management activities account and the 
targeted Mitchell Act hatcheries in particular. I think if you 
talk to folks on the ground in our neck of the woods they would 
disagree with the assessment that that level of funding would 
enable to meet NOAA's obligation. And I do not understand and 
perhaps you can speak to it, how do we actually improve our 
hatcheries and ensure species recovery when we are moving 
backwards in terms of funding?
    And then in addition, when Secretary Pritzker spoke in 
front of the committee, I asked her about the ongoing 
challenges facing our hatcheries, which need approved Hatchery 
Genetic Management Plans, HGMPs, to ensure compliance under the 
Endangered Species Act. And she said that they were increasing 
staff from two to six. And I certainly appreciate that, but we 
have got a backlog of a hundred HGMPs that have been submitted 
for review and approval. We have already seen some hatcheries 
that are operating without sufficient HGMPs be subject to 
litigation and even get shut down. And that affects our tribes 
and it affects the recovery efforts and it affects our 
fisheries.
    So how long does it take to review and approve one 
individual HGMP and is there any estimate to how long it is 
going to take with six staff to complete this backlog?
    Ms. Sullivan. We do really appreciate this question and we 
very much understand your concerns about the Mitchell Act 
hatcheries. They are a mainstay of salmon and tribal treaty 
rights in the Columbia River, and we appreciate the points you 
are making about the economy. We have requested level funding 
for these hatcheries for many years and we do believe that that 
level of funding meets our basic obligations.
    We appreciate the data on the ground. Folks see more need 
and more interest. But I assure you we are committed to working 
closely with your partners on the ground, but the level that we 
request we are confident does satisfy our basic obligations.
    With respect to the genetic plans, we are going to increase 
our staff and redirect resources to go from two to six. My 
understanding is that that should let us clear 40 genetic 
plans, so we could get through that backlog within a couple of 
years. But it is part of a larger picture. If you look at our 
endangered species consultation, our genetic management plan 
consultations, our essential fish habitat consultations, the 
fact of the matter is that our staff levels are very woefully 
shy of what it would take to really move any of those forward 
in a timely fashion.
    On our Southeast region, for example, we have a total of 15 
staff that are facing a backlog of 550 permanent actions on 
which we are responsible for endangered species and fish 
habitat consultation. That is a tremendous strain and a morale 
drain on my team, which I care about. But more importantly, 
that makes those permits an impediment to viable and valid 
economic activity in that region.
    And so that is why you will see in this budget request a 
request for increased consultative capacity, because we are 
trying to get ourselves out of precisely these backlog holes 
that you are referring to.
    Mr. Kilmer. It is a really big deal.
    Ms. Sullivan. It is a big deal.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. I recognize the young lady from Washington 
State.
    Ms. Herrera Beutler. You know, I was going to start with 
sea lions, but I will kind of piggyback off of the Mitchell 
Act, because I have asked about HGMPs as well. And you talked 
about level funding, but NOAA requests a decrease of $3 million 
in the salmon management activities account and those 
reductions target Mitchell Act hatcheries. So that is not level 
funding, that is a reduction. And even under level funding, we 
know that the number of fish released is decreasing as costs 
escalate. Moreover, the funding is needed to ensure these 
hatcheries are maintained.
    Just this last week, an estimated 200,000 coho salmon fry 
died in my district at the Kalama Falls Hatchery in Cowlitz 
County after a generator pump failed. And I am not sure of the 
age of the pump, but it is very reflective of deferred 
maintenance action and aging infrastructure on our Mitchell Act 
facilities due to funding shortfalls. So 200,000 coho fry is a 
big deal.
    And despite all this, you know, I have asked this question, 
I think the gentleman from Washington has also asked this 
question. NOAA states in their budget document they are able to 
meet their obligation for operation and maintenance, and that 
their obligation will be fulfilled with regard to hatcheries. I 
am really hoping this is not the beginning, but the reason we 
raise it is we are very, very concerned. I would expect you to 
ask for an increase if that is the biggest issue, but instead 
you are asking for a decrease.
    Ms. Sullivan. Well, I think if you look at the President's 
budget request over the years those, my understanding is, have 
been level at the level we are asking for this year. I think 
the Congress has supplemented that from year to year. But I 
would be happy to go back and look at that figure and look at 
the trends and get you the detailed information.
    Ms. Herrera Beutler. Well, I mean, we have put obviously 
more money into some of the salmon recovery activities. Even 
before I was on the subcommittee, just on the full committee, 
we worked really hard with the Pacific Coastal Salmon Recovery 
Fund and were able to restore funding there. But we need it to 
be your priority as well, I guess.
    Switching over, I wanted to show--this is what I got the 
Chairman in trouble for--I was trying to show him something 
that I would love to show everyone. We can pass it around, 
there is only a couple of us, but I wanted to make sure you saw 
it.
    Those are sea lions and seals. That is the mouth of the 
Columbia River on February 15th. This goes to my ports up and 
down the Columbia. Between just the mouth and the Port of 
Portland, so that obviously does not go all the way inland, 
there are an estimated 7,000 sea lions and seals, and they are 
gorging on our salmon that we spend a lot of money, time and 
heartache trying to protect because it is important to us. Any 
kind of dock they will sit on.
    A couple years ago there was about six or seven of them 
that had died and it was when--and I am going to lead into 
this--the immediate assumption in the paper was that someone 
had like, you know, passionate tribesmen or recreational 
fishers had killed them. What later we found out was they 
engorged themselves and they died.
    Mr. Culberson. Overate.
    Ms. Herrera Beutler. Yeah, on salmon. I do not know if you 
have ever fished in the Columbia River, but it is really 
discouraging to commercial, recreational fishers when you get 
one on the line and only the head comes up. Or you see 
prehistoric sturgeon lying along the banks with one bite taken 
out of the middle.
    I mean, it is a real problem, which is why I introduced the 
Endangered Salmon and Fisheries Predation Prevention Act. And 
it allows for an increased take, lethal removal of some of 
these animals. At most, it would be 92 a year. You are looking 
at about 7,000. So we are not in any way going to harm the 
population.
    But I guess I wanted to know if NOAA has a prediction on 
how big these populations have grown? Have you determined the 
size of the population on the Columbia River system and what it 
could support? And is there an adequate sea lion population 
size?
    Ms. Sullivan. I do not have those detailed figures at my 
fingertips, Mrs. Herrera Beutler. The broad trend is clear and 
your images show it very graphically of a tremendous recovery 
over the past three decades. I would be happy to go double 
check with our NMFS folks and get a briefing brought up to you, 
bring it myself, if you would like, on exactly what the 
population numbers are and if they have got an equilibrium 
population estimate based on what we see happening with the 
ocean conditions off the northwest coast.
    Ms. Herrera Beutler. I would be happy to have that. What I 
am most interested in, so part of the reason we had to 
introduce this bill, is right now the agencies do have the 
authority to lethally remove some of these animals and we do 
not feel like it is happening quickly enough. The tribes agree, 
the commercial and recreational fishers agree, the community 
agrees, and even a lot of conservationists agree that we are 
losing an endangered population because of what seems like an 
in-historic or un-historic population of sea lions, that we 
need your help.
    Mr. Culberson. So in people's memory, they have never seen 
this many sea lions before.
    Ms. Herrera Beutler. No. And we used to get amazing salmon 
runs. Our efforts, our recovery efforts are working. We are 
seeing record runs of all different types. That is why we want 
to continue the hatchery programs, it is all working. The spill 
we do over the dams, the mitigation, it is working. But now we 
have attracted these animals from California and they just sit 
there and gorge. It is a real problem.
    Mr. Culberson. Why are they washing up on beaches in 
California starving to death?
    Ms. Herrera Beutler. Well, I don't know. They are talking 
to each other, apparently, and they are saying, hey, the 
Pacific Northwest is an entree for endangered salmon, come have 
your fill. Yeah.
    So with that, I do look forward to your help on this. This 
is something that is not going to go away.
    Ms. Sullivan. I am glad to do that.
    Ms. Herrera Beutler. Thank you.
    Mr. Culberson. Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman. Thank you for being 
here today.
    As you know, all regions of our country, from blizzards in 
the Midwest to earthquakes on the west coast and hurricanes in 
the southern and eastern United States, our country has to be 
mindful and prepared for when weather-related disasters do 
unfortunately occur. And without forecasts and models and up-
to-date predictions on the timing and strength of these natural 
disasters, Americans would be completely caught off guard. So I 
want to thank you for all you do for our nation's citizens, for 
the safety and infrastructure and natural landscapes.
    Hurricanes and all that are packed along with them, high 
winds, possible flooding, the usual spinoff, tornadoes are one 
of the most severe weather-related disasters that my 
constituents in Alabama's Second Congressional District have to 
be mindful of during the summer and fall months. So if you can 
share with me the results and major findings of the first 
successful launch of the unmanned aircraft system directly into 
the eye of the hurricane last year, if you could talk about 
that a little bit.
    And then my follow-up question to that is, do you feel that 
this should be repeated? And, if so, does the budget--do you 
request money to do so in this year's budget?
    So if you could just talk about that a little bit and how 
it has had a positive impact.
    Ms. Sullivan. Thank you for that question, Mrs. Roby.
    Data from actual measurements of the conditions inside a 
hurricane are very critical to the accuracy of track 
forecasting. And on a research front, as you know very well, we 
have had much better success scientifically improving track 
forecasts over the last couple decades. The error cones are 
much narrower now than they were 20 years ago.
    Getting the intensity right and getting shifts in 
intensity, jumps in intensity, has been a much more challenging 
problem. The science has not cracked that nut yet. Data 
measurements inside active storms are key to both of those. 
That is why we operate the two P-3 aircraft that we do that 
have tail Doppler radar and other instruments that can fly at 
various levels right through the heart of the storm at 
different points in time to characterize it.
    The experiment we did with the--I have just lost the name 
of the little vehicle--anyway, the small unmanned aircraft that 
we deployed out of a sonobuoy tube. Its wings pop out and it 
navigated itself down through the storm. So a sonobuoy we 
dropped out before just plummets, basically, right straight 
down through. What we were interested in with this device is it 
has some capability to navigate and actually fly around, not 
just fall straight through, and how might that help us better 
characterize the lower couple of thousand feet of the storm.
    Our P-3s do not fly below, I think it is 3,000 feet, it 
might be 4, but for obvious safety reasons there is an altitude 
they stay at or above. And the lowest level of the storm, where 
you have got all the friction with the ocean and the picking up 
of the moisture, the transfer of energy from the ocean to the 
hurricane, that is clearly a pretty critical part of the storm 
and it is impossible to sample it.
    We have done two experiments in the last couple years. One 
is we took a self-propelled ocean glider, which we are also 
experimenting with, the kind of unmanned systems we are doing 
small-scale pilots with to see how they might help improve our 
mission. And two seasons ago we had one of them move in sort of 
a picket line underneath a storm, so we could get some 
measurements as the storm went over it. They move really slow, 
you have got to put them out or put enough of them out that the 
storm goes over some of them. So that is a bit of a logistics 
challenge. In this case, dropping this little device through 
and letting it fly around a bit, it survived down to the sea 
surface, it did get us some very low-level winds.
    And that is the snapshot summary that I have. I would be 
happy to get our research teams to come up and give you some 
more information on that, if you would like.
    First experiments can be intriguing. We of course need to 
do a couple more runs and then we could really understand how 
many of these would it take to make a meaningful data 
contribution. What do the prices and the operations really come 
up to all in cost? Does it prove to be cost efficient or not? 
So I would say right now both the ocean glider and the small 
UAV are in the tantalizing--not even yet in the promising 
stage, but in the tantalizing stage. And we will continue to 
work on a pilot scale through the next hurricane season or so.
    Mrs. Roby. Okay. And just real quick, I see the yellow 
light. Shifting gears to tornadoes, which also is something 
that we deal with quite frequently in Alabama every year and 
have unfortunately had some pretty devastating tornadoes in 
recent history that we have lost a lot of life. So it is a big 
deal. And in the last year's appropriation bill you were 
provided with funding to collaborate with the National Science 
Foundation and it said, quote, `` to initiate a project to 
understand how environmental factors that are characteristic of 
the southeastern United States affect the formation, intensity 
and storm path of tornadoes in the region.''
    In this year's budget request, my understanding is that you 
have asked to terminate this and it is Vortex Southeast 
Project. And I can take it for the record, but I just want to 
know more specifics about did that project ever really begin 
and why are you terminating it, and what assurances can you 
provide this committee that you guys are going to continue to 
really study tornadoes in the southeast part of our country.
    Ms. Sullivan. Let me commit to come back up and give you a 
full briefing on that and the whole array of things that we are 
doing centered on tornado forecasting. I assure you, it remains 
a front-and-center focus of ours given the hazards and the loss 
of life that you have reflected.
    Mrs. Roby. Okay. Thank you.
    Mr. Chairman, I am sorry, I went over. I yield back.
    Mr. Culberson. You only went over a little bit, thank you, 
that is fine. I want to ask a little bit about the Polar 
Satellite Follow-On because you have requested $380 million in 
new funding for this. And the out year budgets for this program 
are substantial, growing to nearly $600 million in two years. 
If you could describe for us what the funding would buy in 
terms of risk reduction, robustness for the Joint Polar 
Satellite System, and then the, earlier you mentioned 
efficiencies, I believe, in acquiring systems simultaneously. 
Talk to us a little bit more about that, if you could?
    Ms. Sullivan. Certainly. As you may recall we had an 
independent review team come by about a year and a half ago 
now, Tom Young and Tom Warman, real established experts in 
large satellite procurement, and do a very rigorous assessment 
of the Joint Polar Satellite System. They had been tracking it 
as it came out of the NPOESS era and they wire brushed us 
really properly, but also thoroughly, over the fact that we 
were buying these systems in about as dumb a way as you 
possibly could. You would buy one, you would do all the design 
and engineering, you would get all the supply chain spun up, 
produce one, and say thank you very much and let that all decay 
back. And then a few years later you go, oh, I meant I needed 
another one. And you would incur all of those expenses again. 
And it is exactly the wrong way to buy any large complex 
system, but certainly satellites.
    They also worked with us to better understand how we needed 
to wrap our head around not just the gap, but the robustness 
that is what gets you out of having a gap.
    Mr. Culberson. So NOAA is actually designing and building 
the spacecraft, overseeing the design and construction of the 
spacecraft?
    Ms. Sullivan. NOAA holds the observing requirements and the 
budget authority for the spacecraft and we work hand in glove 
with NASA to actually do the development and execution of the 
design. There is no need to duplicate the satellite acquisition 
expertise that NASA has. So we rely on them as the acquisition 
agent.
    Mr. Culberson. Okay. So NASA is actually the lead on this?
    Ms. Sullivan. NOAA is the lead; NASA is our acquisition 
partner.
    Mr. Culberson. Okay.
    Ms. Sullivan. So the Polar Follow-On, we looked at the 
JPSS-1 and -2 program, which is the current program of record 
as established. We looked at the timing that we had managed to 
set for that based on our gap mitigation efforts and scrubbing 
that all to the left. And then we looked at the existing 
spacecraft, the structure that you are going to bolt the 
instruments onto, and the instrument contracts and said how 
much, how quickly could we get to robustness? Robustness means 
the satellite system we depend upon for our weather forecasts 
can tolerate one failure and still support weather forecasting 
and you could restore its capacity within about a year. That is 
the typical space architecture definition of robustness. And 
your greatest risk of losing that is when you are launching a 
satellite because that is the highest risk moment in the life 
of a satellite. So a robust architecture has the next satellite 
in sequence ready right close to a launch date----
    Mr. Culberson. Sure.
    Ms. Sullivan [continuing]. To cover that big risk. You do 
not actually launch it right then, you launch it when you are 
getting towards the outer edge of the age. But you separate 
your production cadence from your launch cadence. And the PFO 
program is the best path we could craft to move to that kind of 
an approach. Number one, it establishes congressional 
authorization for satellites beyond the JPSS-2 satellite. And 
if you look at the lead time it takes to build our instruments, 
if we do not start right about now on those next two spacecraft 
we will be repeating the prospect of a big gap----
    Mr. Culberson. Right.
    Ms. Sullivan [continuing]. As we are looking at now.
    Mr. Culberson. I want to dive into this more with you in 
separate meetings----
    Ms. Sullivan. Okay.
    Mr. Culberson [continuing]. Because I understand you are 
working hand in glove with NASA but I want to understand more 
about how that process works. Because it seems to me logically 
you ought to just let NASA build the spacecraft for you and 
NOAA obviously be the customer and provide funding. But NASA--
--
    Ms. Sullivan. And that----
    Mr. Culberson [continuing]. Does a pretty good, NASA does a 
pretty good job.
    Ms. Sullivan. They do a very good job. In this particular 
mission, Mr. Chairman, where there is such tight integration 
from the satellite specifics to the actual model input and the 
model architecture, that vertical alignment of responsibility 
and the ability to look end to end, from engineering decisions 
you might make on the satellite to implications for a very 
large and complex national modeling architecture on which the 
weather forecast accuracy critically depends, that, that end to 
end mission alignment in this case makes very, very good sense.
    Mr. Culberson. What is the Earth Observing Nanosatellite-
Microwave instrument, and is that critical to weather 
forecasting? It, is obviously brand new, does that introduce 
any unnecessary risk? And what process did you go through to 
determine it was an appropriate investment?
    Ms. Sullivan. That EON-Microwave plays a couple of roles. 
It opens a pathway at fairly low expense towards what could be 
a smaller, lighter, less expensive microwave sounder. The two 
instruments that the weather forecast system depends on 
critically, both are called sounders. They make profiles of 
temperature and moisture in the atmosphere, they just work in 
different portions of the spectrum. The microwave one is the 
all weather workhorse. So this conceivably could take the 
microwave sounder of today and make it much smaller and more 
complex. It comes out of Lincoln Laboratories and our systems 
engineering folks consulting with NASA and other partners as we 
were scouting the horizon for what might be new architectures 
we should be thinking of for down the road, noted that, 
evaluated it highly. So it gets us two things. If it proves 
out, it could be an avenue towards less expensive, good, 
competent microwave sounders. And secondly, it is on a time 
path with Lincoln Labs that it could also play a significant 
role as a gap mitigating effort in its own right. We are 
talking with NASA about co-investing in that because it is an 
interesting observing technology from their point of view as 
well.
    Mr. Culberson. Thank you. Mr. Fattah.
    Mr. Fattah. To go closer to your own work, in part, earlier 
in your career, one of the budget items is something around 
$150 million for a new vessel. Can you talk to us about the 
import of this and what it would be used for?
    Ms. Sullivan. It is a very high priority for us this year. 
NOAA currently has a fleet of 16 ships. In oceanographic ships 
you can easily think of them as basically small, medium, and 
large based on how close to shore and how long offshore their 
mission requires them to stay. So if you are going out in the 
middle of the Pacific Ocean to work on those tsunami buoys, you 
need a fairly large vessel with a big deck and heavy winches, 
and the ability to stay out at sea a long time. If you are 
doing coastal nearshore fisheries work, you can work with a 
much smaller vessel. We spent a good amount of effort these 
last couple of years looking very critically at the age of our 
current fleet. Vessels at sea have to be certified to operate 
under various maritime rating authorities or they have to be 
retired. We have laid up seven, I think it is seven ships since 
about 2003. So we are losing ship capacity now.
    When we stack up the observations, the scientific observing 
requirements that all of our different missions drive, we 
already do not have a fleet anywhere near substantial enough to 
meet those which is why we rely so much on charter and other 
partners. But the important point is as we looked downstream 
and said where are we going to be down the road, given the time 
it takes to procure a ship? We, half of our current ships will 
have aged out and be offline, laid up, or tied up alongside, or 
turned into razor blades by 2028. That is not very far down the 
road. And the group that is going to age out first is our mid- 
to ocean-class vessels because they are the oldest in the line. 
So that is what drives the timing of this ask, is to prevent 
that erosion of the fleet in the 2028 time frame. This class of 
ship is driven and our request is driven by where we are going 
to have the gap first.
    And the other factor involved here is we propose to use an 
existing Navy design. And NAVSEA, the procurement arm for Navy 
ships, has a production line for this class of vessel still 
open. If we can seize this opportunity now we can save the 
taxpayers something on the order of $10 million, actually 
probably a higher number because if you delay and have to 
refresh the design and rehire the folks and restart the 
production line, that number probably goes higher than ten by 
the time you are all done. So again, as, you know, as with our 
space systems, we are not DARPA, we are not the cutting edge 
systems guys. We don't try to be the first movers on big 
cutting edge systems. We try to parlay into existing 
acquisitions and systems and programs in the interest of cost 
efficiency whenever we can.
    Mr. Fattah. One other question. The other budget item is a 
$3 million increase, this is a partnership in part with Brazil 
and the Air Force on a radio oscillation weather satellite.
    Ms. Sullivan. COSMIC, radio occultation, in Taiwan.
    Mr. Fattah. Yes, COSMIC-2, yes. Yes, I am sorry.
    Ms. Sullivan. That is all right. There is an existing U.S.-
Taiwan partnership that has a set of sensors in orbit now 
called COSMIC-1. And this is actually a very clever technique 
that was developed that observed that as GPS satellites send 
all their time signals back and forth to each other, the signal 
bends a little bit on its path from satellite to satellite 
based on the physical properties of the atmosphere. And you get 
some smarter scientists and clever mathematicians together and 
they figured out how to extract from that bending angle 
information about moisture and temperature in the atmosphere, 
essentially a sounding. This sounding method cannot penetrate 
all the levels of the atmosphere that our normal sounders do, 
it cannot fully replace true vertical soundings. But it does 
provide a helpful correction. It has improved the quality of 
the forecast by stripping out biases in the other data. It 
ranks very highly when you stack up all the different kinds of 
data that contribute to the accuracy of weather forecasts. It 
is in the, it is in the top, certainly in the top ten.
    So we are requesting $3 million to continue with COSMIC-2. 
The current system is beyond its design life. It has proven its 
value. We would like to replace that system with COSMIC-2 and 
continue to retrieve those sounders.
    Mr. Fattah. Mr. Chairman, let me just put on the record 
that you provide a lot of services but you do not, unlike some 
of our economic competitors we do not charge for these 
services, weather services, other information that's provided 
to the private sector, companies like AccuWeather, and to 
benefit you know all of our T.V. stations and others benefit 
from this service that is provided through the National Weather 
Service. And you also provide navigation information to, for 
navigation of the seas, and so on. Do you, in terms of the work 
that you do, there is a lot of benefit to the American, to 
American enterprise. If you could just spend a minute just 
talking about how NOAA has an impact on our economy? I guess is 
the way I would phrase it, generally.
    Ms. Sullivan. Thank you for that opportunity, Mr. Fattah. 
Yes, the model here is one that considers the, let me called it 
the foundational data, I mean, vertical profiles of the 
atmosphere, fundamental measurements of the ocean bottom, to 
treat those foundational data as public goods. And so anybody, 
a college student, a kid with a cool idea for an app, 
AccuWeather, The Weather Company, anybody can get at those data 
without any barrier to entry and capitalize on them as they see 
fit. So the data become a tremendously powerful open innovation 
platform. You are well aware of the scale of the private sector 
weather enterprise, because with this model by design NOAA 
stops at the foundational data. We do not try to be the spiffy 
guys that read the news, read the weather to you on T.V., or 
compete with the private sector for apps and advanced 
analytics. So, you know, The Weather Company when it was sold 
to GE went for about $4 billion, Climate Corporation, which is 
based on public good USDA and NOAA data, when it sold to 
Monsanto was sold for $1 billion. Our electronic chart data 
when I was at NOAA as the Chief Scientist, we printed the 
charts on gigantic printing presses in the basement of the main 
Commerce Building. Nowadays we just send the data raw from the 
ship, quality control, and then out to third party companies 
that do the, they package it into an electronic chart display, 
if you are going out to sea. They, all of your Garmin systems, 
if you are using offshore nav, they are using the NOAA data or 
they will publish you the chart book if you prefer to have the 
hard copy or want to have the backup. So the notion of, the 
notion of foundational data about the planet as public goods, 
that make sure that public safety never becomes a fee for 
service proposition but is always a fundamental assurance of 
government, and that serve as this really vibrant, open-ended--
--
    Mr. Fattah. Yes, Mr. Chairman, I am not arguing that we 
change it. I just wanted to make sure that we make the point, 
that it is different from, say, you know, Germany, or other 
countries, where this information is sold.
    Ms. Sullivan. Or where the government service takes roles 
that the private sector here takes.
    Mr. Fattah. Right. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Very quick question, Mr. Jolly.
    Mr. Jolly. No real additional questions, other than I 
recalled sitting here an invitation, a letter I sent to you 
last year extending an invitation for the research vessel Nancy 
Foster to at least temporarily port down at St. Petersburg Bay. 
We have a cluster there, a marine science research cluster 
there from USF Marine Sciences to NMFS, to Fish and Wildlife, 
to the U.S. Coast Guard Stanford Research Institute. It is a 
center of excellence in marine and weather science research and 
they would welcome with open arms at least a temporary port of 
call from the Nancy Foster if you were to find interest or an 
ability to do so.
    Ms. Sullivan. One of the joys of my life is how popular my 
ships are.
    Mr. Jolly. I bet. I bet.
    Ms. Sullivan. In communities around the shoreline. But I do 
know that welcome mat is out, and it is a very, very impressive 
cluster of expertise.
    Mr. Jolly. Very good. I appreciate it. Thank you.
    Mr. Culberson. Thank you. Why not contract out more of this 
work? I am not a big traveler. One of the few trips I have ever 
taken has been out to go see Dr. Ballard, on the Nautilus. They 
do extraordinary work.
    Ms. Sullivan. They do.
    Mr. Culberson. And the private sector is, I think the 
universities around the country would leap at the chance if 
NOAA was a customer and was offering to, I know Texas A&M, for 
example, has a wonderful oceanographic research vessel. Why not 
contract out more of this work, rather than invest in 
purchasing new ships which can be tremendously expensive and 
costly to maintain? When, I am just a big believer in the 
yellow pages test.
    Ms. Sullivan. Yes.
    Mr. Culberson. If you can find a service in the yellow 
pages that the government does, we should contract it out as 
much as we possibly can to provide better service at a better 
price for the taxpayers.
    Ms. Sullivan. We currently contract out 50 percent of our 
charting, and about 50 percent of our fisheries research. I can 
get you the precise figures. And even about a third of our 
Tower A Deep Sea, which is the, you know, the oddest one 
because there, I have looked at the yellow pages, not a whole 
lot of listings for guys that want to go out to 15,000 foot of 
water and haul up buoys. So we, those are the roughly current 
percentages in those sectors now, and as I am sure you know our 
ocean exploration program co-funds Dr. Ballard's vessel. When--
--
    Mr. Culberson. With great success, very----
    Ms. Sullivan. With great success. And when we put the 
evaluation together that led us to bring the ocean survey 
vessel request forward to you here, we did that side by side 
with the NSF folks who fund the ships and support the ships 
such as the ones at A&M and with the Coast Guard to make sure 
that we were not asking for an asset or a capacity that already 
is out there.
    The reality is if you look at, if you look at the National 
Science Foundation's proposal pressure, the scientific demands 
for ocean going research that they face as well as the 
scientific demands that we face, those combined far exceed 
their ships plus our ships plus everything else. So the demand 
remains much larger than either the federal civilian 
oceanographic fleet or the NOAA fleet or both of them 
combined----
    Mr. Culberson. Well, the existing fleet. I just wondered 
whether you have, because I had the same question of NSF. Years 
ago I remember the Bush administration tried to transfer the 
responsibility for building and maintaining the ships that go 
to the Antarctic to the National Science Foundation from the 
Coast Guard. NSF has got enough on their plate. So I fought 
hard to get that out of NSF. So I had the same question of the 
NSF.
    Ms. Sullivan. Yes.
    Mr. Culberson. If the money was out there and you were 
proposing to do this, have you ever looked at, looking forward, 
encouraging the private sector if there is a pot of money out 
there, we are willing to be a customer, there is X amount of 
money available. Have you seen any interest from the private 
sector or universities to----
    Ms. Sullivan. Well we have seen it in those areas where we 
have a good constant need, because that is a stable enough 
demand function----
    Mr. Culberson. Right.
    Ms. Sullivan [continuing]. That they can look at it. And 
that is why we are up to 50 percent, slightly north of 50 
percent, on both our mapping and charting and our, and our 
fisheries research vessels.
    Mr. Culberson. And the buoy, the maintenance of the tsunami 
detection system, you said you are up to about 80 percent, and 
that is with NOAA vessels?
    Ms. Sullivan. That is the in service, the data availability 
is at 80 percent. The TOGA TAO buoys that give us the El Nino 
seasonal outlooks, we do about a third of that maintenance work 
with private sector vessels. We do, I do not know the 
percentage but I could check into it for you, we have made 
international partnerships with other nations that benefit from 
the tsunami network to draw them into servicing buoys that are 
closer to their waters so that we are not bearing the cost of 
those long transits.
    Mr. Culberson. I will follow up with you on that. But I 
will also be following up on you, I am very concerned about the 
report that came out in November that hackers from Communist 
China had breached the computer systems at NOAA and essentially 
the report was in AP that four of your Web sites were 
compromised by an internet source, attacked. And my 
predecessor, Chairman Wolf, discovered that the attack 
originated in China and came only a couple of days after the 
Communist Chinese had also hacked into the U.S. Postal Service 
computers and, U.S. Postal Service's computers and compromised 
information from some of its customers and employees. How long 
was NOAA's system down? I understood they actually took over 
control of some of NOAA's weather satellites. And could you 
talk to us a little bit more about what happened?
    Ms. Sullivan. They certainly did not take over control of 
our weather satellites. I do not know where that misinformation 
may have come from.
    Mr. Culberson. Okay.
    Ms. Sullivan. They did compromise some of our Web sites and 
it took us several days, I would have to get you the details 
and we will bring you a full briefing on that.
    Mr. Culberson. Okay.
    Ms. Sullivan. Some of the information is sensitive because 
of threat information and things like that but----
    Mr. Culberson. We will sit down and visit about it. I know 
Mr. Fattah is concerned about this, we all are concerned about 
it as well.
    Ms. Sullivan. We will be happy to bring you a report on 
that.
    Mr. Culberson. And I also want to visit with you about the 
report that, let us see, when is this? This is Inspector 
General Report 1425A that talks about the risks posed by the 
inconsistent implementation of mobile device protections 
increases the likelihood of malware infection. I want to go 
through some of that with you as well.
    Ms. Sullivan. Sure.
    Mr. Culberson. Because cyber is so important, and it is of 
keen interest not just to NOAA but obviously throughout the 
federal government. And it continues to look like the Chinese 
have been particularly bad actors in this area and we want to 
make sure that we are doing all we can to help protect you.
    Ms. Sullivan. It is a dynamic and challenging threat 
environment and we would be happy to visit with you further on 
that. It is a priority of mine, as it is of the Secretary's and 
the President's.
    Mr. Culberson. I deeply appreciate your service to the 
country. I will also be following up with you on making sure 
that the data is accurate in terms of making sure--where, I 
still cannot find in your testimony where you said this is the 
warmest year on record. Warmest year on record where?
    Ms. Sullivan. It was in my oral statement and we can get 
you those statistics. The global----
    Mr. Culberson. I mean----
    Ms. Sullivan [continuing]. The global atmospheric average.
    Mr. Culberson. It was the warmest year on record throughout 
the entire planet, or in the United States, or where?
    Ms. Sullivan. Average across the globe----
    Mr. Culberson. Average across the globe.
    Ms. Sullivan [continuing]. Atmospheric temperature.
    Mr. Culberson. Okay. I am keenly interested in following up 
with that because as Mr. Jolly pointed out we just want to make 
sure we get accurate data. And I was alarmed to see that there 
was, there has been in a lot of documentation that estimates, 
that weather data has been estimated or extrapolated and 
averaged up. I just want to make sure we have got accurate data 
to make good decisions. I do appreciate your service to the 
country and we look forward to following up with you on these 
and other matters, and we will submit any additional questions 
for the record. Thank you very much.
    Ms. Sullivan. Thank you, Mr. Chairman.
    Mr. Culberson. And the hearing is adjourned. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                          Wednesday, March 4, 2015.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

CHARLES F. BOLDEN, ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION

                       Chairman's Opening Remarks

    Mr. Culberson. The Appropriations Subcommittee on Commerce, 
Justice, and Science will come to order.
    Before we begin, I wonder if I could take a moment, General 
Bolden, to recognize and thank Mike Ringler who has been our 
chief clerk on the committee for many, many years and a Rock of 
Gibraltar for all of us.
    It has been a real privilege, Mike, for us to work with 
you, for me to work with you. You have taught us all so much 
and we are going to miss you. And you have served the country 
and this committee so well. We are really genuinely going to 
miss you and I wish you all the best.
    Thank you for everything you have done for the country and 
the Congress and this committee. I really mean it. Thank you. 
Thank you. We are going to miss you.
    Mr. Fattah. And if the chairman would yield----
    Mr. Culberson. Yes.
    Mr. Fattah [continuing]. Let me also add that it has been 
an absolute pleasure to work with you and we have gotten a lot 
done together and helped a great many people. So thank you and 
we wish you well. I understand you found a perfect place in a 
perfect state to pursue further career activities. Thank you.
    Mr. Culberson. Back to Pennsylvania as soon as he could.
    Mr. Serrano. Mr. Chairman, I also want to add my words.
    Mike, you have been a real gentleman and fair, and to me, 
that word is very, very important, fair, balanced. Unlike a TV 
station, you have really been balanced. And I appreciate that 
and I wish you all the best. And, you know, we keep losing good 
people and other people keep gaining good people. And so good 
luck, and am I supposed to say go Yankees or that upsets you?
    Mr. Ringler. Go Pirates.
    Mr. Serrano. Okay. Congratulations.
    Mr. Ringler. Thanks very much.
    Mr. Culberson. Today is also significant because it is Bob 
Bonner's 20th, I believe, anniversary of helping with the 
minority staff.
    Mr. Fattah. Congratulations.
    Mr. Culberson. And it is a real tribute to both of you 
guys.
    Mr. Serrano. And I think it is important that you singled 
him out also because he is going to have a long suffering 
season with the Phillies, so, you know, it is going to be very 
painful for Bob.
    Mr. Culberson. Well, we have always had a bipartisan bill 
and tremendous cooperation and support on the committee. It is 
a tribute to both of you guys and the great work that you have 
done, but also it is a real privilege for us all to work 
together on such noble, good causes as NASA and law enforcement 
and scientific research and keeping the United States at the 
cutting edge. It is something all of us on this subcommittee 
share a passion for and you guys have been essential to its 
success and we really appreciate it.
    In fact, when I was asked to serve on the Appropriations 
Committee back in December of 2002 going into my second term, I 
was at a dinner with Tom DeLay who was my neighbor to the 
south. He was becoming majority leader. He said I will give up 
my seat on appropriations if you will take it.
    And I was reluctant. I do not like to spend money if I can 
avoid it. I said unless it is science or NASA or National 
Defense, the answer is probably no. And he said you are hired. 
It has been a great assignment. I asked to serve on this 
subcommittee so that I could be here to help the National 
Science Foundation and NASA.
    So it is a genuine privilege and something I want to, you 
know, thank the people in my district in Texas and the Members 
of this committee. It is just a privilege to be here to serve 
as chairman, to follow in Frank Wolf's footsteps who has done 
so much for so many years to help NASA and the scientific 
community.
    Frank was a real mentor to me and it is an extraordinary 
privilege for me to serve as chairman and to have you here 
today, General Bolden. You are a true American hero, great 
inspiration I know to a lot of young people all over the 
country. You are a role model for young people I know all over 
the country.
    We all admire you immensely. Just deeply appreciate your 
service to the country and the marine corps, as an astronaut 
and the administrator for NASA. We admire you immensely, sir, 
and it is just a real privilege for me to be here today, for 
all of us to be here to help you achieve your mission of making 
sure the United States maintains its leadership in the world as 
the best space program, manned and unmanned on the planet.
    The President's budget is asking for $18.5 billion for NASA 
which is an increase of $519 million above the current fiscal 
year. And we have a very difficult budget environment, as you 
know, sir, but there is strong support of this subcommittee for 
your mission.
    We want to make sure that you have the resources you need 
and the freedom that you need and support to do what is on your 
plate. You have got a lot on your plate and never seem to have 
enough resources. It is an ongoing problem.
    In this particularly difficult budget environment, we have 
also got to make sure we are fully funding the FBI, the other 
Federal law enforcement programs. We have got, of course, the 
Department of Commerce, the National Science Foundation, NIST, 
and adequately funding all of these programs and others within 
this budget environment is going to be very, very challenging.
    We do not yet know how the House budget is going to shape 
up, but we can feel pretty confident that the President's 
budget recommendation is one that we are simply not going to be 
able to achieve because it assumes a lot of tax increases which 
certainly are not going to happen.
    But I know from my work on this subcommittee that you are 
going to find all of us arm in arm in making sure that NASA 
gets the support that you need, sir, to do your job.
    We will be using the timer today to make sure, if we could, 
that everyone is recognized in a timely fashion. And I would be 
privileged at this time to recognize my good friend, Chaka 
Fattah, for any comments he would like to make.

                     Ranking Member Opening Remarks

    Mr. Fattah. Thank you, Mr. Chairman, and to the 
administrator.
    The chairman is absolutely correct about the inspiration 
you provide. I know you made a visit to Philadelphia to 
Overbrook High School which graduated one of your great 
astronauts, Guion Bluford, and you spoke with the students 
there and, you know, I am sure even to this day is an 
inspiration to all there in the Overbrook community.
    Now, I was just out at the Jet Propulsion Laboratory, my 
second visit. I was there a while back with you when the Mars 
rover landed after eight and a half months of travel. We were 
on the control room floor and there was such a celebration 
because it showed again that the premier entity in the world in 
terms of space exploration and flight is NASA and to land the 
rover there.
    And I got a chance to see in my last visit two weeks ago or 
so, you know, some of the work that is still being done on a 
daily basis at the Jet Propulsion Laboratory. And I know that 
NASA's most valuable control assets are in Texas, but you do 
have a little operation in Florida and in California.
    So I did get a chance to visit with your national 
headquarters staff here also and I have learned so much about 
what is going on. And there have been some miscues, I think, in 
some notion when we retired the shuttle fleet that somehow 
America was out of the business of leading in space. The truth 
is that we still lead in space.
    And you have some active missions that are going on right 
now and I would hope that as part of your testimony, you could 
just share a minute or two about what NASA is doing right now 
in space because as we deal with the numbers, sometimes we lose 
a sense of what this is really all about and our exploration of 
space, our development of space.
    And yesterday I got a chance to spend some time with the 
Commercial Spaceflight Federation for their board meeting and 
their dinner last night. So I know you had another celebration 
of very significant import into the work that you have been 
engaged in.
    So we welcome you to the committee. We want to hear about 
your proposed budget and we want to work with you. And the 
chairman, there could not be a more committed person, I think, 
in the Congress to the success of NASA. We have had many 
conversations and I think you have a true advocate. We are 
going to work together to create a bipartisan product that can 
help NASA continue to achieve.
    Thank you.
    Mr. Culberson. General Bolden, we welcome your testimony. 
Your entire statement, of course, will be entered into the 
record without objection and we welcome your testimony, sir. 
And, again, thank you for your service to the country.

                    Administrator's Opening Remarks

    General Bolden. Well, Mr. Chairman, thank you very much. I 
want to just take a quick moment to echo everyone's sentiments 
to Mike Ringler. I am glad you broke the ice because I did not 
want to say anything and spill the beans if nobody knew it. But 
it has been a great pleasure working with Mike and we are going 
to miss him.
    So, Mike, best of luck from all of us at NASA.
    I want to congratulate you, Mr. Chairman, also on becoming 
the chairman of this committee because I do know through the 
years of our conversations how much it means to you and how 
serious you are about the duties of this committee. So I think 
we are very fortunate to have you in that position. I also 
thank you, as I mentioned earlier, for your recent visits to 
several of our facilities out on the West Coast and look 
forward to hosting you out there some more.
    Mr. Chairman, to you and the Members of the subcommittee, 
the President is proposing, as you mentioned, a fiscal year 
2016 budget of $18.5 billion for NASA that builds on the 2015 
appropriation and the significant investments the 
Administration and the Congress have made in America's space 
program over the past six years.
    Thanks to the hard work of our NASA team and partners all 
across America, we have made a lot of progress on our journey 
to Mars. In fact, we have gotten farther on this path to 
sending humans to Mars than at any point in NASA's history. And 
this budget will keep us moving forward.
    The support of this subcommittee and the Congress are 
essential to this journey. The International Space Station 
(ISS) is the critical first step in this work. It is our 
springboard to the rest of the solar system and we are 
committed to extending space station operations to at least 
2024. Thanks to the grit, determination, and American 
ingenuity, we have returned ISS cargo resupply missions to the 
United States, insourcing these jobs and creating a new private 
market in low earth orbit.
    Under a plan outlined by the Administration early in its 
term, we have also awarded two American companies, SpaceX and 
Boeing, fixed price contracts to safely and cost effectively 
transport our astronauts to the International Space Station 
from U.S. soil. This will end our sole reliance on Russia. It 
is critical that we receive the funding requested for 2016 so 
that we can meet our 2017 target date and stop writing checks 
to the Russian Space Agency.
    Our newest, most powerful rocket ever developed, the Space 
Launch System (SLS) has moved from formulation to development, 
something no other exploration class vehicle has achieved since 
the agency built the space shuttle.
    The Orion spacecraft performed flawlessly on its first 
flight to space this past December. The SLS and Exploration 
Ground Systems (EGS) are on track for launch capability 
readiness by November of 2018 and the teams are hard at work on 
completing the technical and design reviews for Orion.
    Our budget also funds a robust science program with dozens 
of operating missions studying our solar system and universe. 
New Horizons is preparing for its arrival at Pluto in July and 
Dawn is now approaching the dwarf planet Ceres.
    Before we send humans to Mars, robots are paving the way. 
We are at work on a Mars rover for 2020 and have begun planning 
a mission to explore Jupiter's fascinating moon, Europa.
    NASA is a leader in Earth science and our constantly 
expanding view of our planet from space is helping us better 
understand and prepare for these changes. NASA has 21 research 
missions studying Earth. In the last year alone, we launched an 
unprecedented five more. We also are at work on humanity's 
first voyage to our home star, a mission that will repeatedly 
pass through the sun's outer atmosphere.
    NASA's Hubble, Chandra and Kepler space telescopes explore 
the universe beyond our solar system. Hubble's successor, the 
James Webb Space Telescope (JWST), is taking shape right now 
out in Maryland and a new mission is in development to extend 
Kepler's pioneering work in finding planets.
    Technology drives science, exploration, and our journey to 
Mars. With the President's request, NASA will continue to 
maintain a steady pipeline of technology to ensure that we 
continue to lead the world in space exploration and scientific 
discovery.
    NASA is also with you when you fly and we are committed to 
transforming aviation particularly as we just celebrated the 
100th anniversary of the NACA last night at the National Air 
and Space Museum. But we intend to dramatically reduce the 
environmental impact, maintain safety in more crowded skies, 
and pave the way toward a revolutionary aircraft shapes and 
propulsion systems.
    Mr. Chairman, America's space program is not just alive. It 
is thriving. The strong support we receive from this 
subcommittee is making that happen. I particularly appreciate 
the generous fiscal year 2015 appropriation.
    As the President said in his state of the union address, 
and I quote, ``We are pushing out into the solar system not 
just to visit but to stay, part of a re-energized space program 
that will send American astronauts to Mars,'' unquote.
    NASA looks forward to working with the Congress to make 
this vision a reality. I would be pleased to respond to your 
questions.

                INSPECTOR GENERAL OR GAO RECOMMENDATIONS

    Mr. Culberson. General Bolden, thank you.
    Before I go into some specific areas, we started our 
hearing schedule this year with the inspectors general because 
they always do a good job of identifying inefficiencies and 
ways to save money and particularly in light of the tough 
budget environment we are going to be facing this year and how 
everyone on this subcommittee, as I said earlier, are strong 
supporters of NASA.
    I miss having our friend, Adam Schiff, here. He is now the 
ranking member on the Intelligence Committee. And I know he is 
here in spirit and will certainly be working with us to help 
support the recommendations of this subcommittee for NASA.
    But if you could, talk to us a minute about any specific 
example where NASA has implemented Inspector General or GAO 
recommendations to save money or create efficiencies.
    General Bolden. Sir, I would be very glad to do so. Since 
the Inspector General's report and also thanks to this 
committee, I think everyone knows that we contracted for a 
study by NAPA which was done last year. They gave us 27 
recommendations with reference to Foreign National Access 
Management (FNAM). We took all of those recommendations to 
heart and are well on the way to complying with them.
    We have made structural changes in our governance at the 
Agency and we see through our construction of facilities 
program that our buildings are becoming leaner, and I mean that 
in terms of the acronym for energy efficient. We now have LEED 
buildings across the Nation that is showing that we are trying 
to save money through our facilities as we reduce our footprint 
and in the place of excessive infrastructure replace it with 
very efficient buildings.
    If you talk more about governance, the Chief Information 
Officer (CIO) and many of the other critical people in 
positions at NASA headquarters now report directly to me, so 
they are my direct reports. So in that manner, we are 
streamlining the way that we conduct project management.
    I would point out that over the past six years since I have 
been the NASA administrator, we are very proud to say that most 
programs have come in on cost and on schedule which in the past 
was somewhat rare. So I think that the results that we have 
seen in the last six years say that we have taken everything to 
heart from the IG and from this committee.

                       OTHER COST SAVING MEASURES

    Mr. Culberson. Other than reducing the property footprint 
and streamlining project management, what other steps have you 
taken to implement, for example, cost saving measures that were 
recommended either by GAO or the Inspector General?
    General Bolden. We have done a number of efforts and I 
would take it for the record to bring you a compilation----
    Mr. Culberson. Okay.
    General Bolden [continuing]. Of the things that we have 
done. But I just tried to give you a few of those----
    Mr. Culberson. Okay.
    General Bolden [continuing]. Top line efforts.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
                      ACCESS TO FOREIGN NATIONALS

    Mr. Culberson. Terrific. And also I want to be sure to 
follow up with you on limiting the access of foreign nationals, 
particularly the Chinese, to NASA flight centers. There is, I 
think, an ongoing problem with the ability of Chinese nationals 
that are working at universities on a research project gaining 
access to flight centers and we want to make sure that that 
does not continue to happen.
    Program management, project management is something 
Inspector General Paul Martin also talked to us about and has 
pointed out that there is a--excuse me. He talked specifically 
about better program management and four major challenges that 
he identified in his report.
    He identified that there was an underestimation of 
technical complexity and how that impacted cost and risk. 
Funding stability is, of course, a continuing problem, limited 
opportunity for program managers, development, and moving 
people around.
    Talk to us a little more, if you could, about the way that 
NASA has responded to his recommendations on project 
management.
    General Bolden. I think what Paul was talking about was 
past practices where when we estimated cost and we estimated 
schedule, we were optimistic. When I talked about the fact that 
over the last six years we have brought in programs and 
projects on time and on schedule, it speaks to that directly.
    We spend more time training our program and project 
managers with formal training. We now have a formal position 
that is called the Chief Knowledge Officer at NASA headquarters 
who takes lessons learned from past programs and projects and 
that is taught to incoming program and project managers so that 
they understand the mistakes and the errors of program and 
project management in the past.
    We now have a process that all of our programs go through 
which formalizes our estimation of cost and schedule. We have 
set a threshold of 70 percent certainty for cost and schedule 
as a threshold for us. Since we have done that, I think if you 
look at our science programs, that is what enabled us to bring 
things like MAVEN or some of the others in if not under cost, 
actually on cost. I think that is what Paul was addressing.

                             CYBERSECURITY

    Mr. Culberson. He also suggested giving your information 
technology administrator full responsibility, and I hope that 
you are following through on that recommendation.
    General Bolden. Yes, sir. The comment that I made earlier 
about making the CIO for the Agency a direct report to me, I 
think that is what Paul was talking about. So the CIO--is that 
what you are talking about?
    Mr. Culberson. On cyber because there is a lot of concern 
about the vulnerability of NASA applications.
    General Bolden. I understand.
    Mr. Culberson. You obviously have a very big public 
footprint, as you should, but all of those applications, all 
those apps that are out there for people's phones and all the 
public Web sites open you up to hacking. And he was concerned 
that your information and technology director does not have the 
authority that he needs as in other agencies. That is what I am 
talking about.
    General Bolden. And that was the reference that I made to, 
and you used the term information technology----
    Mr. Culberson. I may not be using the right----
    General Bolden [continuing]. That is my Chief Information 
Officer.
    Mr. Culberson. Okay.
    General Bolden. So the Chief Information Officer is a 
direct report to me, to the administrator, which means----
    Mr. Culberson. In terms of the scope of his authority, I 
hope you are taking his recommendation to heart to give that 
individual more authority.
    General Bolden. Yes. The fact that he reports to me means 
that he makes policy for the Agency since I make policy for the 
Agency. So he has direct responsibility and control over IT 
infrastructure across the enterprise. So all of the CIOs at the 
individual centers subsequently report to him.
    Mr. Culberson. Okay.
    General Bolden. The only area that we have not done what 
the IG recommended was incorporating program IT systems under 
the chief information officer and we are looking at that. But 
in my opinion right now given what we have and given the funds 
we have, that might be a bridge too far because what we are 
talking about would be he would have responsibility for 
maintaining the Information Technology programs on the 
International Space Station or on Mars Curiosity or MAVEN. And 
that is something that I am not sure that any agency of the 
government has done that yet. We are looking at it. I am not 
saying we will not do it, but we are not there yet. So we have 
got a long way to go before we incorporate all of the----
    Mr. Culberson. Okay.
    General Bolden [continuing]. Program and project IT 
infrastructure and assets under the Chief Information Officer.
    Mr. Culberson. I will follow up with you.
    General Bolden. But for everything else, he has the hammer.
    Mr. Culberson. I will follow up with you individually on 
that.
    General Bolden. Okay.

                       PLUTONIUM-238 AVAILABILITY

    Mr. Culberson. Let me ask about one other, getting into a 
specific area, and then I want to recognize my good friend, Mr. 
Fattah, about plutonium production because we want to make sure 
that you have got the plutonium necessary for future missions.
    The budget request is for $15 million for NASA to pay the 
Department of Energy to produce a supply of plutonium. And I 
understand that we are approaching the end of the life span for 
the machines that actually make the plutonium cakes, whatever 
they are called, that actually make the pellets, I assume.
    Talk to us about that and the availability of plutonium for 
future missions, in particular the Europa mission and outer 
planets missions.
    General Bolden. Mr. Chairman, I will say you make an 
assumption that I want to not let you make and that is that 
Europa will be a nuclear powered mission. We are looking at----
    Mr. Culberson. Still in the design phase?
    General Bolden. Yes, sir. I just want to make sure that no 
one in my organization had led you to believe that----
    Mr. Culberson. No.
    General Bolden [continuing]. We had made a decision yet----
    Mr. Culberson. Still in the design phase. It is good to 
have that option.
    General Bolden [continuing]. On the power system for 
Europa.
    Mr. Culberson. You are going to need that option for deep--
    General Bolden. Yes.
    Mr. Culberson [continuing]. Space outer planets?
    General Bolden. But in answer to your question for all NASA 
outer planets missions, for Mars 2020 and others that we 
currently have in our inventory in planning, we will have 
sufficient plutonium-238 to carry out those missions.
    We continue to work with the Department of Energy (DOE) as 
you mentioned, as you alluded. A problem there on the DOE side 
is just the facilities and the condition of the facilities. We 
continue to work at an intermediate management level with the 
Department of Energy to make sure that the funds that we 
provide to them will, in fact, partially be used to make sure 
that the facilities are there so that they can make the 
plutonium that we need.
    They are the producer of plutonium-238. Right now to my 
knowledge, NASA is the only user of plutonium-238, so it is 
very important to us that they get it right.
    Mr. Culberson. If you could, would your folks get us a 
recommendation on what is necessary to make sure that that 
machinery is----
    General Bolden. We will do that, Mr. Chairman.
    Mr. Culberson [continuing]. Brought up to speed so you have 
got it for----
    General Bolden. Yes.
    Mr. Culberson [continuing]. What I think we will ultimately 
need, a robust outer planets program?
    General Bolden. Yes, sir.
    Mr. Culberson. Let me recognize my good friend, Mr. Fattah.

                     OAK RIDGE NATIONAL LABORATORY

    Mr. Fattah. Thank you, Mr. Chairman.
    So this is follow-up on what the chairman was talking about 
in terms of plutonium. And this is at Oak Ridge National Lab, 
the plutonium, the 238 production, right?
    General Bolden. I will take it for the record----
    [The information follows:]
    
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Fattah. All right. Yeah.
    General Bolden [continuing]. To find out exactly where it 
is done.
    Mr. Fattah. So I think that----
    General Bolden. I should know, but I do not.
    Mr. Fattah. I have done some work in this space and I think 
that you are correct that NASA is the only consumer, but it is 
a commitment on DOE's part to make sure you have what you need.

                    EXPLORATION SYSTEMS DEVELOPMENT

    General Bolden. Yes.
    Mr. Fattah. But let me go to the big aspiration here which 
is flight into deep space, out of lower Earth orbit for humans. 
And you talked about the great work that is being done now on 
the launch system and where you are.
    There is some sense, and it is only because of your 
success, that perhaps we can move the timetable and maybe that 
is not the case, and these are probably people who are not as 
intimately familiar with the work that you are doing, but if 
you could comment for a minute on how you see the time line, 
that would be good.
    General Bolden. Congressman, I will do my best. The 
President has set a rough outline for us in demanding that we 
provide a way to put humans with an asteroid by 2025, but most 
importantly that we be on Mars or in the Martian system in the 
2030s.
    And with that direction in mind and bipartisan agreement by 
the Congress, we have a long-range program in existence today 
to which we are marching and that calls for several things.
    America is still the leader in space and I am glad to hear 
Members of the committee acknowledge that because it is 
important for all of us to understand that. There is no close 
competitor to be quite honest.
    But in order for us to stay the leader in space, there are 
a number of things we have to do and deep space exploration is 
one of them, but we have to make sure that we have a very 
robust low earth orbit infrastructure that will be run by 
American industry eventually or non-government entities so 
critical to that is the completion of the commercial crew 
program that we now have scheduled to actually fly in 2017. We 
have brought about commercial cargo and that has proven to be 
successful. I think by the end of this year, you will see how 
resilient it is when Orbital Sciences flies a Cygnus on a 
vehicle other than their own vehicle. So when you are buying a 
service and the service provider provides it, even when a part 
of their system goes away, that talks about resilience.
    Mr. Fattah. I was on the floor of SpaceX out in California 
looking as they put the Falcon 9 together, and it is amazing 
that this industry that NASA has spawned is so robust now.
    You have Boeing. You have SpaceX, low Earth orbit, the 
commercial crew. What is in the President's budget is $1.2, I 
think, 4, right----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. $1.24 billion?
    General Bolden. One digit farther I can go.

                        EXPLORATION BEYOND EARTH

    Mr. Fattah. Yeah. And is that sufficient to continue to--I 
know you have some other pieces of that. You have the advanced 
exploration system at about 231.4 and then you have the 
opportunity flight program which is another opportunity to seed 
this industry and I think 15 plus.
    So can you talk about whether that is sufficient to do the 
work that needs to be done in low Earth orbit so that you can 
focus on-- and the committee really likes to talk about going 
to Mars.
    General Bolden. Yes, sir.
    Mr. Fattah. Asteroids, you know, is not really, I think, 
the thing that grabs our attention----
    General Bolden. That is okay.
    Mr. Fattah [continuing]. In total.
    General Bolden. That is okay.
    Mr. Fattah. It hits you. Go ahead.
    General Bolden. That is okay.
    Mr. Fattah. Go ahead, Mr. Administrator, yeah.
    General Bolden. Congressman Fattah, again, I appreciate 
your reference to the total picture because that is what is 
really important. And I talked about commercial crew and cargo. 
$1.2 billion that we requested in the 2016 budget for 
commercial crew is essential if we are to bring in the two 
providers with their capability to carry crew to orbit by 2017.
    The second leg of the stool is actually the International 
Space Station and that is an area that I need to ensure that we 
do not shortchange, that we do not look at it as a bank and 
begin to pull money out of International Space Station 
operations because when we use it as a bank, usually the first 
place we go is cargo flights, fewer cargo flights which 
eventually could put the crew in jeopardy because we are not 
able to get stuff there.
    The third leg that you refer to is SLS and Orion and once 
we have a robust lower earth orbit environment, then we use SLS 
and Orion to take us, first of all, back to cislunar space. 
That is around the moon over the 10-year period of the 20s. So 
beginning in the earliest part that we can of the 20s, we will 
put Orion on the SLS and send it to cislunar space for multiple 
flights and then on to Mars.
    So it is the three-legged stool that is absolutely critical 
that you are talking about.
    Mr. Fattah. The red light is on. The red light is on, but 
if the chairman would----
    Mr. Culberson. Go ahead, please.

          INTERNATIONAL SPACE STATION--INTERNATIONAL PARTNERS

    Mr. Fattah [continuing]. Yield. I think you got the 
Russians' attention in some other respects. They took a 
decision this week to announce that they were joining a 
decision that you had already made a year or so ago about 
extending the life and their presence in cooperation relative 
to the International Space Station.
    Could you just share with the committee where we are with 
all of our international partners now that Russia has made this 
decision?
    General Bolden. And I would just caution what you hear 
coming out of Russia is not always what they intended to say. I 
am encouraged that they now have, in fact, in their 
reorganization, because they are going through reorganization 
just as we are, they now have what is called the Roscosmos 
Science and Technology Council. So that is a brand new entity 
that was put in place when they put Roscosmos under the 
umbrella of their whole space industry organization and it is 
much more complicated than I want to try to explain to people. 
We were encouraged when Yuri Koptchev who I consider to be, 
because he is a former colleague of mine, who I consider----
    Mr. Fattah. You did a mission with him, right?
    General Bolden. No. This is not the astronaut. This was the 
former head of the Russian Space Agency, of Roscosmos. It was 
Mr. Koptchev who actually could be considered the Russian 
father of the International Space Station because he and a 
predecessor of mine, Dan Goldin, were the two people who were 
most responsible for getting the station started, if you will. 
He is the head of the Roscosmos Science and Technology Council 
(STC) and it was that council that met and said that it was 
their position that Russia should remain committed to the 
International Space Station and that they should remain 
committed through 2024 before they go off and start talking 
about taking pieces off and establishing their own lower earth 
orbit infrastructure. So I think that is what you refer to.
    I would say one more thing because you commented about 
international partners. Everyone should take note of the three 
space walks that were completed this past week. You know, Butch 
Wilmore and Terry Virts did three absolutely amazing space 
walks which in themselves were great.
    Mr. Fattah. Five hours?
    General Bolden. They were long. Each of them was in the 
neighborhood of six to eight hours. But what was most important 
was that that completed the installation of the international 
docking adapter which it gives the International Space Station 
now the capability of accepting any vehicle from any partner 
that wants to bring crew to the International Space Station.
    So we are now ready to receive. There may be a few puts and 
takes we have got to do, but the station is now ready to 
receive Boeing, SpaceX, any American company that wants to fly 
a vehicle to the International Space Station.
    The international part I wanted to point out for everybody, 
the intra-vehicle crew member, and I have been one, that is the 
hardest thing on the whole thing. The intra-vehicle crew 
member, the person inside choreographing all three space walks 
was Samantha Cristoferetti who is an Italian astronaut.
    So if you do not think that our partners are doing their 
part and that they are excited about this, that was a true 
international effort to set up American industry to be able to 
service the International Space Station with crews, and that 
was incredible.
    Mr. Fattah. Thank you, Mr. Chairman, for yielding for those 
additional few seconds.
    Mr. Culberson. Let me recognize Mr. Jenkins at this time.

        INDEPENDENT VERIFICATION AND VALIDATION (IV&V) FACILITY

    Mr. Jenkins. Thank you, Mr. Chairman.
    Good morning, Mr. Administrator.
    General Bolden. Good morning.
    Mr. Jenkins. I am from down the home of the rocket boys and 
Homer Hickam, West Virginia. So I would like to spend just my 
brief minute or two bringing us back to earth a little bit 
about some of your work and what NASA does and obviously as 
participating in grant funding and projects in my State of West 
Virginia.
    The chairman brought up the IG's work. I would like to 
maybe get your take a little bit on the NASA Independent 
Verification and Validation (IV&V) Facility program up in 
Fairmont, West Virginia, critically important to our state, 
your feelings about that program and its value.
    General Bolden. Independent Verification and Validation 
(IV&V) Facility has been of critical value to us since its 
beginnings. It is an asset that we use to do safety assurance 
evaluations and the like. And there are a number of other 
things that go on there.
    I think the IG, if I remember his comments, you know, some 
people took it to mean that he was recommending that we get out 
of IV&V or out of the facility. And that is not something that 
is, you know, immediately on our plate. As we look at our 
assets and our capabilities, we are looking at what we should 
do with each, but IV&V is a critical facility.
    Mr. Jenkins. Would you mind sharing, to the extent you are 
able to or maybe a follow-up, some of the details behind the 
importance and, as you say, the value propositions that come 
out of that facility and what we do?
    General Bolden. IV&V or independent verification and 
validation is a process that NASA uses. I think most industries 
use it, but NASA uses the process to look at dominantly 
software to make sure that we can put faults and failures and 
all kinds of stuff into the program and make sure that it 
responds appropriately, that it does not trip the software such 
that it just loses its mind, if you will. So IV&V does not do 
the critical software evaluations for the International Space 
Station, but it does critical software evaluations for some of 
our other activities. So that is the kind of work you do. You 
cannot just say, we are going to close down the one in West 
Virginia and go do it somewhere else because it takes time. You 
have got the talent, the brain power, and you have got the 
facilities that are there.
    Mr. Jenkins. And when you make mention that some may have 
interpreted IG as suggesting, that leads me to believe that 
maybe--have you had a follow-up discussion with the IG and 
maybe the way it was written or interpreted, that maybe that is 
a conclusion that should not have been suggested?
    General Bolden. I do not change the IG's mind. What I do is 
I respond to the IG's report. What we do is we cooperate with 
them as they formulate the report and we give them as much as 
we can in hopes that the report will not reflect something that 
we think is inaccurate. But we do respond. If they give us 
recommendations or findings or the like, then we respond back 
to them. So I do not remember exactly what our responses were, 
but I think we told the IG that we appreciated very much the 
recommendation. However, these are the actions that we are 
taking right now.
    As the chairman mentioned, the IG, the IG's report to me is 
not a directive. That is a report of a finding by an Inspector 
General. The Office of the Inspector General does not direct 
the Agency to do anything. As the CEO of the agency, if I want 
to assume the risk, then I just tell the IG I really appreciate 
this point. I think you may be correct, but I am willing to 
assume that risk at this time.
    Mr. Jenkins. The second and final area of interest to me is 
again your financial support. I just spoke last night to the 
EPSCoR program and had the honor of introducing NASA's former 
chief scientist who is now head of the National Science 
Foundation. Your support for undergraduate research, STEM 
programs--today happens to be Undergraduate Research Day in 
West Virginia that a lot of bright-minded students make 
presentations.
    NASA's investment in education through the consortium, the 
space consortium and all, can you share with me and the 
committee some of the values of that effort and as part of your 
budget?
    General Bolden. I do not think we can put enough money into 
the work that NASA does towards STEM education. I say that not 
lightly to be quite honest. I think you can always use more.
    However, I do say all the time that NASA spends 16 and if 
we get the requested President's budget, we will devote $18.5 
billion to STEM education in this country because there is 
nothing that we do in the Agency, there is no office, no 
department, no anything that does not have some impact on STEM 
education, whether it is just employees acting as mentors or 
providing NASA content to a school or something of that nature 
that does not get counted in an education budget, but we have 
$16.8 billion that we apply towards STEM education. It is an 
incredible value.
    Mr. Jenkins. Major General, thank you.
    General Bolden. Thank you.
    Mr. Culberson. Thank you, Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.

         EDUCATION AND OUTREACH PROGRAMS--NASA EXPLORER SCHOOLS

    Mr. Culberson. And after we go through the Members, I want 
to be sure to recognize our colleague, Mr. Schiff, for a 
statement after the Members that were here first are 
recognized.
    So I want to go at this time to Mr. Serrano.
    Mr. Serrano. Thank you so much.
    I admire, respect, and love my ranking member, but he 
almost gave me a heart attack when he said asteroids were not 
important since one of my questions is going to be about the 
Arecibo Puerto Rican observatory.
    And let me first tell you, sir, that one of the best 
experiences I have had as a Member of this committee has been 
not only to have been twice the ranking member under Hal Rogers 
and Frank Wolf but also the work that we have done in our 
districts. And I wanted to speak to you about that.
    The last time we had an event that was a wonderful event, 
we had flown the Puerto Rican flag on one of the flights. Then 
we had flown the Dominican flag on one of the flights. And 
astronauts came down to the community college and presented 
both flags. And the room was full of kids and community people 
and it was just a wonderful, wonderful event.
    And then there have been many times when astronauts have 
come into the classroom to speak and it is one of those few 
times where you do not have to worry about the children paying 
attention because, you know, they are, oh, you went up in space 
and they are captured.
    So where is that program at? Those visits to schools, do 
you continue them? Has the budget hurt you, you know, in doing 
that kind of work because I think it is great and I support it 
totally?
    General Bolden. Congressman, I think during the period of 
more active pursuit of sequester, I think everybody knows, it 
is common knowledge that travel in Federal agencies was 
significantly curtailed. So during that period of time, we did 
have to cut back on school visits and the like from astronauts 
and NASA employees. However, over the last year or so, we have 
relatively restored our school visits and our other kinds of 
outreach activities to some normalcy.
    I was privileged to visit Puerto Rico earlier this year and 
actually had a chance to--you mentioned Arecibo, but had an 
opportunity to go out to the observatory there and walk on the 
telescope, on the disk and everything else and talk to students 
in Puerto Rico. There is nothing that promotes interest in STEM 
education, as you have said, like a hands-on experience for 
students.
    Mr. Serrano. Absolutely.
    General Bolden. Mr. Jenkins, well, somebody mentioned, 
although he is not from Huntsville, but down in Huntsville, it 
used to be called the moon buggy challenge and it is now called 
the NASA Human Exploration Rover Challenge, but we have 
students from all over the world----
    Mr. Serrano. Right.
    General Bolden [continued]. Who come to compete in that and 
build buggies from bicycle parts and other kinds of things. So 
we still continue our outreach programs.

                          ARECIBO OBSERVATORY

    Mr. Serrano. And I encourage you to do so. And I will be a 
Member of this committee that will push for that because I 
think those are wonderful programs and a wonderful way for 
NASA, and NASA is one of those agencies that does not hurt 
anybody. On the contrary, it just brings joy and solidifies our 
future.
    Let me move on to the observatory. The observatory is 
funded mostly by NSF, as you know, and NASA plays a major role. 
And a couple years ago, they were actually talking not only of 
backing off from helping the observatory but even getting rid 
of it.
    And not this committee, I wish I could say this committee, 
but it was scientists who wrote especially in a report that 
said that Arecibo played a major role in keeping an eye on 
things that have to be kept an eye on. So, of course, I am in 
support of keeping it open. I know the chairman is also and so 
is Mr. Honda and the ranking member and other people.
    What is the status right now at least from NASA's point of 
view and as to your knowledge, although that is a question for 
them? Is NSF still thinking about, although they have backed 
away from that, doing something?
    General Bolden. I cannot answer what Dr. Cordova and the 
NSF, what their position is right now, but I can say that NASA, 
currently, provides in the neighborhood of $3 million each year 
for support at Arecibo. But I will take it for the record and 
get that specific amount to you.
    So we continue to push for the telescope and its 
availability. In fact, one of the reasons that I went to Puerto 
Rico was because I had heard about it, but I had never seen it 
and I wanted to go meet the people there. And they are 
incredibly enthusiastic about what they do.
    So I think it is value. The unfortunate thing is it is not 
a NASA asset. It is a National Science Foundation asset. It is 
like McMurdo Bay in Antarctica. It is like many of the research 
facilities around the world the way that responsibility is 
divided up. NASA frequently is the dominant player at our 
international research facilities, but they do not belong to 
us.
    Mr. Serrano. Right.
    General Bolden. They belong to other agencies of the 
government and we do not have a say in whether or not they 
close them or open them.
    Mr. Serrano. Right.
    General Bolden. But we generally----
    Mr. Serrano. My time is up, but I hope that we can work 
together for the part that NASA plays in keeping Arecibo open. 
And it is a good thing to see that the chairman has always been 
a supporter. The man that has always been a supporter of 
Arecibo is now chairman of the committee and the ranking member 
has always been supportive. So we will continue to work on it.
    General Bolden. And, sir, I will try to get for the record, 
we will contact the NSF and see if they can provide us a 
comment since I do not----
    Mr. Serrano. Well, turn it over to you and then we will 
take good care of you.
    General Bolden. No, no, no, no, no. I am not asking for 
more on my plate. I do not need more.
    Mr. Culberson. What is the $3 million a year for?
    General Bolden. Let me find out specifically what it is 
for, but I think most of it is for programs and instruments 
and----
    [The information follows:]

                       Arecibo Radio Observatory

    NASA's Planetary Science Near Earth Object (NEO) Program uses the 
National Science Foundation's Arecibo Radio Observatory for its 
planetary radar capability, particularly for this asset's critical 
ability to characterize Earth approaching asteroids and precisely 
determine their orbits, size, shape and rotation dynamics. Radar 
studies of the Moon, other planets and their moons are conducted as 
well. Often the Arecibo facility is used in cooperation with NASA's own 
Goldstone Solar System Radar facility to provide even higher precision 
data on these objects.
    There are two components to NASA's current funding of Arecibo, 
contractually with the Universities Space Research Association, which 
has the cooperative agreement with NSF to manage and operate the 
Observatory. The first is a five-year grant (FY 2012-2016) of about $2M 
per year ($2.074M in FY 2015, but increasing slightly each year to 
maintain purchasing power) to operate and maintain the radar and 
perform a crucial baseline of observations on NEOs and the planets for 
NASA's planetary science programs. The second is a NEO Observations 
Program science grant for $1.5M per year for 4 years (2013 through 
2016) to obtain additional collection and analyses of radar 
observations on all accessible near Earth asteroids.

    Mr. Culberson. Instrument time?
    General Bolden. Instrument time or instrument 
modernization, because although the facility belongs to NSF, we 
frequently will have----
    Mr. Culberson. Your customer?
    General Bolden [continued]. Investigators who go in and 
actually build instruments that are used at the observatory.
    Mr. Culberson. I know they need an upgrade on----
    General Bolden. They do.
    Mr. Culberson [continued]. A lot of their equipment and----
    General Bolden. Right.
    Mr. Culberson [continued]. Some maintenance. I know that 
one of the cables had a problem. But, nevertheless, we are----
    General Bolden. It was working when I was there, but it is 
not in great shape.
    Mr. Serrano. I think it was the cable James Bond hung from 
when they made the movie there. [Laughter].
    Mr. Fattah. Mr. Chairman, I think the Member can be assured 
that we are interested. This is part of a series of 
observatories around the world that are critically important to 
NASA's success.
    Mr. Culberson. Absolutely.
    Mr. Fattah. Also to deal with asteroids that might be 
coming our way.
    Mr. Culberson. Absolutely. Thank you.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Culberson. Mr. Kilmer.

                        SMALL SATELLITE PROGRAMS

    Mr. Kilmer. Thank you, Mr. Chairman. And I will just echo 
Mr. Serrano's enthusiasm for the NASA Explorer Schools. We have 
got one in my district and it was certainly one of the 
highlights.
    I had a question regarding small satellites. That is one of 
the fastest growing segments of the space industry, high 
relevance for science and national security and commercial 
industry. And NASA has really helped advance development and 
demonstration of technologies in all sorts of arenas, whether 
it be communications, navigation, propulsion, power, science 
instrument capabilities. So how do we expand and accelerate 
those types of cost-effective investments and how do we ensure 
that NASA's program is taking full advantage of investments 
that are also being made by industry and by the Defense 
Department?
    General Bolden. We collaborate with the Defense Department, 
the NRO, industry, academia and everybody in trying to promote 
the use of small satellites and a specific type of small 
satellite called CubeSat. We work with our international 
partners. There is now a private entity, and I just drew a 
blank on what the name of the company is, that provides the 
program that gets CubeSats to the International Space Station 
for distribution or for deployment from the Japanese Experiment 
Module. We have the CubeSat deployment mechanism on the 
Japanese Experiment Module and it is the only one that has an 
airlock. So they can actually bring the deployer inside, load 
it up with CubeSats, put it back out and then deploy them. So 
it is a program that we really push.
    The Ames Research Center out in Mountain View, California 
tends to be the center of effort for CubeSat development in 
small sats for a number of reasons. They are in the heart of 
Silicon Valley and so they have a way of getting not just 
American students, but students all over the world interested 
in this. I just came back from a trip to South America and in 
the four countries I visited one of the things that we could 
talk about with them in trying to expand the number of 
international what we call non-traditional partners was the use 
of CubeSats, teaching students to use CubeSat to do very basic 
things, and it allows them to become partners.

                      INTERNATIONAL SPACE STATION

    Mr. Kilmer. Thank you. You mentioned the space station, I 
wanted to ask about that program. To some degree, it can be 
viewed as too big to fail. What recourse does NASA have if 
commercial crew contractors are unable to meet the 2017 
milestone of sending astronauts to the space station from 
American soil or if program funds are exhausted?
    General Bolden. Nothing is too big to fail, in my 
estimation. However, there are some things that are critical 
for the success of keeping America number one in space, the 
International Space Station is one of those. It is a very 
unique facility, it is a one-of-a-kind facility, it is a mini 
United Nations, and it is a place where we do technology 
development and human research. It is critical, I don't even 
want to think about what happens if the Russians decide that 
they want to change the way they operate with us. That is what 
makes it so critical that we receive full funding for 
Commercial Crew so that we can guarantee that it is not NASA, 
not the U.S. Government, not money that kept American industry 
from delivering. I have faith in American industry, I always 
have. I talked about, when we put a plan together, work it with 
them and say we can do something, we do it on time and on cost.
    I have no reason to believe that SpaceX and Boeing will not 
be able to bring in their programs in 2017 as they have 
planned. They have given us milestones, they get paid for 
milestones. Those are firm fixed-price contracts, so we know 
that it will not overrun, because any additional money over and 
above what they think it is going to cost the company has to 
fund. So you would have to find Boeing or SpaceX deciding that 
it is no longer fiscally viable for the company, the 
corporation, for them not to deliver.
    Mr. Kilmer. Thanks. I see I am near time up. So I will 
submit some other questions for the record and thank you, Mr. 
Chairman.
    Mr. Fattah. If the Chairman would yield for a minute. For 
instance, because I don't want there to be unnecessary concern, 
SpaceX has met the first milestone, right?
    General Bolden. Oh, SpaceX has met several milestones on 
the Commercial Crew milestone list.
    Mr. Fattah. Okay. And Boeing?
    General Bolden. And Boeing, they both have.
    Mr. Fattah. Right. So, I mean, there is not that I am aware 
of any concern that we will not be able to meet this time line 
as long as we can meet the budget number.
    Mr. Kilmer. That is the key, right?
    General Bolden. And that was the point I tried to make, 
Congressman Fattah, was industry is going to perform as long as 
the government does not renege on its promise to pay. We 
promised that we would pay them $6.2 billion combined and, 
unless we renege on that, then I think Boeing and SpaceX will 
deliver.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Kilmer.
    Mr. Honda.

        STRATOSPHERIC OBSERVATORY FOR INFRARED ASTRONOMY (SOFIA)

    Mr. Honda. Thank you, Mr. Chairman. And again, welcome, Mr. 
Administrator. It is great to see you here and it is great to 
have an administrator that has got a science background and 
knows what the hell you are talking about. [Laughter.]
    You know, sometimes we have leaders that are more of a 
bookkeeper than of looking at funding programs based upon its 
mission and we have gone through that period now. It is good to 
have you. And I understand that we already had a comment about 
the 100th year celebration, so I will not say anything about 
that. But I know that NASA Ames Center Director Pete Worden is 
retiring and it is going to be a great loss to us, but it is 
going to be good for the private industry. And I guess that is 
going to be tough to find someone that is going to replace him 
and fill his shoes, but I think that we are here to support 
that kind of a direction that we find someone that will enhance 
Ames and NASA and keep the A in NASA going.
    One of the questions I had was that the Administration's 
handling of the Stratospheric Observatory for Infrared 
Astronomy, better known as SOFIA, in the President's 2016 
budget notes that NASA plans to hold a senior review for SOFIA 
in the spring of 2016. And, as you know, SOFIA just became 
fully operational in February of 2014 and was in Germany for a 
good portion of last year undergoing a heavy maintenance visit. 
Now, this senior review is usually after four years of 
operation and I guess my question is, why is it so early? 
Because it gives the sense that NASA will be setting up SOFIA 
to fail when it only had approximately one year rather than the 
four years fully to, you know, open its wings and, you know, 
have its contribution better known. Can you address yourself to 
that?
    General Bolden. Congressman, when I approached the folks in 
our Science Mission Directorate I learned one of our assets 
with which I am very familiar, the Hubble Space Telescope 
actually underwent senior review much earlier than it was 
scheduled to because we wanted to make sure that we had good 
definition on the out-year programs for it, because that is 
basically what we are trying to do with SOFIA. We are trying to 
take a look at its performance to date. Had we flown SOFIA when 
we were originally scheduled to fly it, we would have been well 
beyond a normal senior review at this time. But because of 
issues with the development of SOFIA and getting it to 
operational condition, then we are somewhat behind in where we 
would have been. But the senior review is to make a 
determination of what its future missions should be, how we 
balance the schedule for its flights, to evaluate whether or 
not the science community thinks that we can fly fewer flights 
and get the same amount of data that we wanted before. So it is 
not a review that I look at as a reason or something trying to 
justify shutting down SOFIA. SOFIA is funded in our 2015 bill 
thanks to this committee and we requested funding for it in the 
2016 request.
    Mr. Honda. So the life and its expectation is to continue, 
it is just you are doing this review with the understanding 
that there may be a lot of stuff that has already been--could 
be done, but usually you would have waited a few more years, 
but you have some confidence in its performance.
    General Bolden. I have confidence in SOFIA's performance to 
date and I have confidence in--what I do not know, because it 
is out of my area of expertise, is what does the science 
community feel the relative value of SOFIA is for other assets 
that gather the same type of data. SOFIA is somewhat unique, to 
be quite honest, because it is an in-the-atmosphere observatory 
that I understand looks in different wavelengths than many 
other of the assets that we have, whether in space or on the 
ground. But the science community is always looking at how do 
they get the most efficient results from the experiments they 
have. This goes back to, how long do you fly anything?
    Mr. Honda. Okay.
    General Bolden. But I am not concerned about SOFIA's 
performance.

                     PROTECTING THE NASA WORKFORCE

    Mr. Honda. Okay. I appreciate that. And one of the concerns 
I have about NASA is that over the years we have lost staffing, 
civil servants, if you will, and it does not feel like we are 
setting up a system where we want to attract and retain our 
employees at NASA. And so I guess the question is, well, what 
are you doing to protect the NASA workforce and ensure that the 
NASA Centers have the ability to hire and retain the best and 
the brightest scientists? Because that is our human, you know, 
treasure that we have that we have built up over the years. And 
from looking at continuing programs like STEM and everything 
else like that, these are the folks that have the deepest 
experience to be able to talk to youngsters.
    General Bolden. Congressman, at the risk of offending the 
committee, I am going to take a chance.
    Mr. Honda. Go ahead.
    General Bolden. The reductions in force that you see are 
not things that we do voluntarily. This Congress believes that 
all of the nation's problems rest with civil servants. That is 
the workforce you are talking about. We are not talking about 
contractors. When the Congress says that the problem is 
government employees, that is the people sitting behind me, 
that is what you are talking about. That is the people at Ames 
and at Armstrong and all over this country. You do not get 
something for nothing. If you want us to cut the size of 
government, you are talking about cutting people.
    Mr. Honda. Okay.
    General Bolden. And I understand what you are saying, but 
that is a contributor to the problem that we are. When we 
looked at sequestration, you are talking about people.
    Mr. Honda. I agree with you and I think that this is a 
message that needs to resonate among members of Congress and 
those who are in positions to make sure that we do not go in 
that direction, and that we understand clearly that you get 
what you pay for. And based upon the comments I heard this 
morning about the value of centers and how it is run and who 
runs it, that we should take that position when we look at 
budget and planning in the future and making sure that we do 
not vilify civil servants, but we embrace them and make sure 
that we understand their full value. And that cuts across the 
entire gamut and I am sure that my colleagues on this 
subcommittee agrees with that point, is that we have to put up 
the fight to protect the assets that we have right now and 
especially the human assets.
    General Bolden. Thank you.
    Mr. Honda. Thank you.
    Mr. Culberson. Thank you, Mr. Honda. We have been joined by 
Chairman Aderholt, another strong advocate and supporter of 
NASA and our manned program as I am, and it is my pleasure to 
introduce at this time the gentleman from Alabama. Mr. 
Aderholt.
    Mr. Aderholt. Thank you. Mr. Administrator, good to have 
you here.
    General Bolden. Thank you.

                     EXPLORATION SYSTEM DEVELOPMENT

    Mr. Aderholt. First of all, let me apologize for my voice. 
I am overcoming a sore throat and I was in a hearing with 
Chairman Rogers this morning. I have been chairing the Ag 
Subcommittee Appropriations and we had the FDA Commissioner in 
this morning. And he said it reminded him of what Mark Twain 
said about Wagner's music, he said it is not as bad as it 
sounds. So that is sort of why--I am not as bad as it sounds. 
But anyway, I just have a couple of questions. Thank you for 
being here. And I appreciate Chairman Culberson for letting me 
slip in here and ask a few questions.
    I want to ask one question about the SLS program and then a 
second very short question, and then the remaining I will 
submit for the record. But I am glad to hear the integration 
plan for SLS, Orion and ground operations are underway at 
headquarters. Slipping beyond the 2018 for the EM-1 flight is a 
little more disconcerting. As you know, on the EM-1 flight, we 
use an upper stage known as ICPS. I do not know of a definite 
budget plan in NASA's out years for the flights beyond EM-1, 
but it seems to me that there must be a firm decision soon on 
whether to human rate the ICPS. And I am wondering if not human 
rating the ICPS and instead human rating the new upper stage 
for use on the EM-2 mission could save taxpayer dollars. 
Progress soon on the upper stage might allow for options as we 
plan large science missions such as the Europa Clipper. We 
could also use the power of the upper stage to cut the flight 
time by half or more and get the data back to our scientists 
faster. I just wanted to turn it over to you on what your 
thoughts are on this approach.
    General Bolden. Yes, sir. As I was commenting earlier 
before you came in, our approach to keep us as the leaders in 
space is to try to put together a program in its totality. When 
you talk about human exploration or about exploration of our 
solar system and let's just not even--human and robotic 
exploration, our program calls for being able to get humans 
first of all into cislunar space, but that is not the only 
thing we want to do. We want to be able to go on to Mars. So 
the reason that it has taken us to this point to be able to 
give you all the answers that you want on SLS and Orion is 
because we are looking at how we get the totality of the 
program in place. How do we get multiple flights out of SLS and 
Orion? If I focus on the very first flight, which happens to be 
unmanned, and that is where my focus is, then I could easily 
lose sight of what I need for the downstream flight. So we find 
that it is more economical and it is much more efficient if we 
plan for a block of flights, the program. Such that, if you 
gave me more money, as you are probably going to ask, what 
would I do? I would buy down risk. What do I mean when I say 
buy down risk for SLS and Orion? I would go and have Bill 
Gerstenmaier, I would approve his purchase of pieces and parts 
for EM-3, -4, -5, farther down the line. So that when you go to 
SpaceX and you look on their floor, there are engines all over 
the place. There are engines for flights they do not have yet. 
That is the way they buy down risk, that is the way industry 
does it. You put assets in place so that you can carry out a 
program years in advance. So that is what I would do. I would 
not focus on trying to get EM-1 earlier, EM-2 earlier. We have 
a program in place that calls for them to fly at a particular 
date and we are not going to change that appreciably with more 
money.
    So I think an Exploration Upper Stage is what you are 
talking about, the EUS. The interim upper stage is something 
because we do not have the one that we really want to fly for 
all of our exploration missions, it is an interim upper stage 
that will allow us to fly the first mission, but that is not 
what we would ideally like to live with. But that again is, we 
will come back to the Congress and tell you what we need in a 
budget that will sustain us through multiple administrations 
and multiple congresses, as opposed to one flight.

                           ROCKET PROPULSION

    Mr. Aderholt. I see my time is slipping away, but let me 
ask this one last question before I have to go back to the 
subcommittee that I have been chairing now. The Marshall Space 
Flight Center, which you know is on the edge of my district, 
has a tremendous rocket propulsion skill base there. It has a 
rich history in propulsion projects going back to the days of 
Von Braun. The National Institute for Rocket Propulsion Systems 
or the NIRPS, as the acronym goes, is located at Marshall and I 
hear it is doing great things for the nation. Would you agree 
that it is doing good things?
    General Bolden. We affectionately call it NIRPS and NIRPS 
is doing great things. In fact if you all will allow me to use 
the acronym, just because it is easier. But the important thing 
about NIRPS was--and it was the brainchild of some of the 
engine folk at Marshall, because they saw how NASA was working 
on engine technology, DOD was working on engine technology, 
industry was working on engine technology. So what the 
institute attempts to do is to bring all the disparate bodies 
together to talk about national needs and so that is what is 
done there. We have buy-in from the Air Force, we have buy-in 
from industry. So everyone is represented when you go--if you 
were to go to Marshall and ask somebody, when was the last time 
the Air Force was in here or when was the last time industry 
was in here, they would probably tell you, well, we had a 
meeting yesterday and everybody was here. So that was its 
intent and I think it is vital for the future of propulsion for 
this nation.
    Mr. Aderholt. Good to hear. Well, thank you. Thank you, Mr. 
Administrator, for being here and thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Chairman Aderholt.
    Let me recognize the young lady from Alabama, Mrs. Roby.

                    EXPLORATION SYSTEMS DEVELOPMENT

    Mrs. Roby. Well, you get two in a row. So I want to 
continue with what my colleague from Alabama was talking about 
as it relates to Marshall Space Flight Center's activities. And 
across Alabama the impact is nearly 20,000 jobs, their total 
economic impact in the State of Alabama is $3.3 billion. In 
terms of procurement, almost 60 percent of Marshall dollars are 
spent in Alabama. The Space Launch System or SLS results in 
almost half the jobs related to Marshall. And in addition to 
that, the International Space Station is managed by folks at 
Marshall through the Payload Operations Center. Personnel 
manage experiments on the Station around the clock and they 
integrate the various components and manage the logistics 
involved in getting these payloads to the station. They develop 
systems at Marshall used for experiments in life support and 
the Oxygen and Water Recycling Unit is just one example of the 
ingenuity from the people at Marshall.
    So back to SLS and thank you for being here today. I know 
NASA intends to launch the first full-scale test flight by late 
2017 and I wanted you to take some time to comment about the 
needed steps and proper funding in this year's budget request 
and future requests that are needed to keep that launch date on 
time.
    General Bolden. Congresswoman----
    Mr. Culberson. Great question.
    General Bolden. Okay. I thought I answered it, but I will 
try it again. Before you came in, not since you came in.
    Mrs. Roby. Okay. Sorry. There are four hearings going on at 
the same time.
    General Bolden. No, no, no, because I obviously did not 
answer it as well as I thought I did. In response to your 
question, the one thing that all of us agree is that we have to 
maintain America's leadership in space. And what I attempted to 
do or what my team attempted to do when we gave this budget 
recommendation to the President and he sent it over here was 
there are three things that we want to do. We want to continue 
to fund our capability to launch American astronauts from 
American soil, so that's Commercial Crew, Commercial Cargo for 
cargo and the like. We want to be able to get the three legs of 
the stool in place for deep space exploration, that's 
Commercial Crew & Cargo, a low Earth orbit infrastructure, the 
International Space Station, and SLS and Orion. And the final 
thing we want to do is we want to make sure that we maintain 
our preeminence in science, technology and engineering. In 
order to do all those, my job is to try to parse the funds up 
that we request to you such that it supports a well planned 
program to get us to Point A, if you will, which is what you 
are talking about.
    First flight for us has already occurred, that was Orion on 
the 5th of December, 2014. So that was the first flight in our 
exploration program, very successful. It was not in its 
configuration for sending humans to deep space, but that was 
the first flight, very successful. The second flight for us 
will come some time after 2018, to be precise. The reason that 
I say some time after 2018 and we will tell this Congress much 
more precisely some time this summer when we finish with the 
next milestone on Orion itself.
    You may say, I asked you about SLS, why are you telling me 
about Orion? Because they are a pair. We are not talking about 
flying SLS without Orion for deep space exploration just yet. 
So when we know when Orion will be ready to fly, then we will 
know when we can fly an SLS-Orion pair. SLS ground systems are 
ready now for a launch-readiness date of late 2018, so that is 
in place. We do not have a launch-readiness date yet for Orion, 
so we will give you that.
    Mrs. Roby. What would be the most negative or detrimental 
thing that could contribute to not allowing you to reach these 
goals?
    General Bolden. Not to fund Commercial Crew and find that 
we have got to go back to the Russians and pay more money for 
Soyuz seats over and over and over again, because it would mean 
that the U.S. has given up on having its own capability to get 
its crews to low Earth orbit. If we do not have the low Earth 
orbit infrastructure that I talked about very early on in my 
testimony, there is no exploration program. It is a program, it 
is an integrated program, and it is really important for this 
committee to understand that. We found, Mr. Chairman, that 
there was a piece of the program we never even considered 
before we started looking at Europa and how do we speed that 
mission up. So potentially, and I have to be very careful 
because the Chairman wants me to say we are going to fly an 
SLS, we are not ready there yet. But if we do not have SLS and 
Orion supported by Commercial Crew & Cargo and a viable low 
Earth orbit infrastructure, there is no SLS Europa mission. I 
would not bring this committee a proposal that I build an SLS 
so that we can go to Europa, but I would bring this committee a 
proposal that says we have a program for a journey to Mars and 
here is the way that integrated program works. Here are the 
three legs that I have got to have in place, Commercial Crew & 
Cargo, I have got to have the International Space Station for 
some period of time now to buy down the risk there, and then I 
have got to have SLS and Orion. They are all necessary, but I 
do not need to spend all the money on all of them right now to 
get there.
    Mrs. Roby. Thank you very much. I yield back.
    Mr. Culberson. Thank you. I recognize the new ranking 
member of the Intelligence Committee, and a valued member of 
this subcommittee who has reserved his seniority, my good 
friend Mr. Schiff from California for any statement he would 
like to make.

                           PLANETARY SCIENCE

    Mr. Schiff. Thank you very much, Mr. Chairman, for 
recognizing me and allowing me to attend this important 
hearing. I look forward to working with you, as well as the 
Administrator, to ensure NASA receives the necessary funding to 
fulfill its core missions. I may be on leave technically, but 
my heart is still very much with NASA and my commitment as 
well.
    In particular, I am hopeful that Congress can work with 
NASA to provide the funding for NASA's Planetary Science 
Division, so that we can continue to learn more about our solar 
system from Mars 2020 to a mission to Jupiter's exciting moon 
Europa. These missions must be fully funded and made a priority 
for both NASA and the Congress. I share the conviction that our 
Chairman has that we need to make every effort to fund the 
priorities of the Decadal Survey. These are the nation's top 
most scientific priorities and the potential for really 
revelatory discoveries is just so exciting. And so I stand 
shoulder-to-shoulder with our Chairman.
    And I wonder, Mr. Chairman, if I could submit questions for 
the record, if I am permitted to do so.
    Mr. Culberson. We would be happy to do so.
    Mr. Schiff. But I thank the gentleman for allowing me to 
attend and for all of his great advocacy for planetary science 
and for all of NASA. I am happy to yield back.
    Mr. Culberson. We are going to continue to rely on your 
advice and guidance. Thank you very much.
    Mr. Schiff. Thank you, Mr. Chairman.

                     NAME BRAND RECOGNITION SURVEY

    Mr. Culberson. It was a privilege to work with you and the 
California delegation and my good friend Mr. Fattah. This whole 
committee is devoted to ensuring that NASA has the resources 
and the support that you need, sir, to do your mission. And I 
think as Mr. Honda said, or Mr. Serrano, that everything NASA 
does is just pure good. That is actually a nice way to look at 
it. And I would frankly love to see if you could, or somebody 
in your shop, find that survey that Sean O'Keefe did. Remember 
he retained a firm in Baltimore to do a name brand recognition 
goodwill survey of NASA and discovered that after the United 
States Marine Corps, General Bolden, that NASA had the highest 
positive name ID of any entity of the Federal Government. Am I 
remembering that correctly? That is just extraordinary. And we 
are here to help you and support you.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
             CONTINGENCY PLAN FOR THE MANNED SPACE PROGRAM

    Mr. Culberson. And I would like to follow up on Ms. Roby's 
question and one that Mr. Aderholt asked, but first let me ask 
you a really important question that I have been meaning to 
ask, it deals with the manned space program. What is NASA's 
contingency plan in the event the Russians just say no more 
flights? Because obviously Vladimir Putin is reminiscent of Joe 
Stalin, he is very aggressive. We are going to continue to see 
the Russians attempt to expand their sphere of influence very 
aggressively and I do not see relations improving any time 
soon. If the Russians decide to just cancel our ability to use 
Russian vehicles to get to the International Space Station, 
what is your contingency plan?
    General Bolden. Mr. Chairman, it is important for me to 
state very clearly that while we are always looking at things 
that could go wrong, when you look at the realities on the 
ground, the relationship between NASA and Roscosmos remains 
very strong. Indications are that while our two governments and 
our political and diplomatic relations are not very good, 
indications when you look at fiscal dealings, availability of 
rocket engines, support for the International Space Station, 
continued support for launching crews and commitment to the 
International Space Station through 2024. In Russia that comes 
from the top. So the indications are that the rhetoric on the 
political side is not the same when you talk about space 
exploration.
    Mr. Culberson. Right. And that----
    General Bolden. However----
    Mr. Culberson. Right.
    General Bolden [continuing]. We are always making plans for 
contingencies should something go wrong.
    Mr. Culberson. That is my question.
    General Bolden. There are always--Mrs. Roby mentioned on a 
bad day, on your worst day, what happens? On the worst day, the 
Russians decide that they are no longer interested in space 
exploration and that----
    Mr. Culberson. Or carrying us to the space station.
    General Bolden. Mr. Chairman, I know this is going to sound 
like I have some crystal ball or something. We are an 
incredibly valuable partner for them, we are an indispensable 
partner for them in space exploration. If they made a decision 
that they no longer wanted to carry us to the International 
Space Station, they have subsequently made a decision that they 
no longer want to operate the International Space Station. That 
is just simple. It is because we operate, we are responsible 
for the day-to-day operations control of the International 
Space Station. They provide propulsion, but we are planning 
right now for them to, at some point take away the propulsion 
module that is there right now and we have other means to do 
that----
    Mr. Culberson. But of course one of NASA's great strengths 
has always been that you plan for the unexpected.
    General Bolden. Yes, sir.
    Mr. Culberson. You always have redundant systems on your 
spacecraft, on the ground, you have the ability to fall back on 
another system if one fails.
    General Bolden. Yes.
    Mr. Culberson. And we need to know, the Congress needs to 
know----

                NASA'S BACKUP PLAN FOR HUMAN EXPLORATION

    General Bolden. Mr. Chairman----
    Mr. Culberson [continuing]. What is your plan in the event 
the Russians say we are not flying Americans to the space 
station anymore? Please answer that directly. You have got to 
be planning. I know that Mike Griffin, for example, did not 
want to fly the mission to the Hubble because the high 
inclination of the orbit was very different from the space 
station----
    General Bolden. That was Sean O'Keefe.
    Mr. Culberson. Sean O'Keefe.
    General Bolden. I apologize for interrupting----
    Mr. Culberson. No, no, make sure I got it right.
    General Bolden [continuing]. But I do not want my friend 
Mike Griffin to get----
    Mr. Culberson. I vividly remember the Hubble needed to be 
serviced, but the concern was that if there was a problem we 
could not rescue those astronauts. And the agency always has a 
backup plan. So if you could, please, sir, tell us specifically 
what is your contingency plan? What is NASA's backup plan in 
the event the Russians say we are not flying Americans to the 
space station? Tell us you have one.
    General Bolden. Mr. Chairman, because this is a partnership 
and because Russian crew members would be equally at risk, our 
backup plan, if you want to talk about that, would be to 
mutually agree that the space station and space exploration is 
going to come to an end.
    Mr. Culberson. So you have no backup?
    General Bolden. We would make an orderly evacuation of the 
International Space Station. We have six seats, six crew 
members, all six guys. If you wanted to say, what happens on a 
really, really, really bad day? That the nations of the world 
decide that we are done with human space flight. You are 
forcing me into this answer, and I like to give you real 
answers and I do not want to try to BS anybody. If the nations 
of the world decided that human exploration is done, we have 
the capability to bring all six crew members home, because we 
have two vehicles, six seats, six crew members. That day----
    Mr. Fattah. That are on the space station now.
    General Bolden. That are on the space station.
    Mr. Fattah. Right. So we could evacuate the station if we 
need to.
    General Bolden. I do not anticipate that that day is going 
to come. I am not worried about getting people to the 
International Space Station as long as the Congress funds the 
President's budget at $1.2 billion in 2016, because we will 
have an American capability to get crews to the International 
Space Station. Getting them there is not the issue right now, 
or getting them back is not the issue.
    Mr. Culberson. I know we have got the ability to get them 
back, but----
    General Bolden. Getting them there. But that is the only 
issue, Mr. Chairman.
    Mr. Culberson. I urge you, it is vitally important that 
NASA have the--are you making contingency plans? Have you got 
people working on what if?
    General Bolden. Mr. Chairman, may I make sure I understand 
your question?
    Mr. Culberson. Yes. So how do we continue--in the event the 
Russians say we are not carrying anybody else to the space 
station, your only plan is to evacuate it?
    General Bolden. No, sir. And I thought I might confuse 
people. Let's take two things. Is the question what is the 
contingency plan to get people to the International Space 
Station, to get crews there?
    Mr. Culberson. I understand we can evacuate folks, that is 
always essential. We want to make sure we can rescue people, 
you have got a lifeboat capability to get them home. But if the 
Russians said they are not carrying Americans anymore to the 
space station before commercial reaches full capability, you 
have no backup plan to continue to fly Americans to the space 
station until the commercial folks get up and running?
    General Bolden. Mr. Chairman, that is the plan.
    Mr. Culberson. But you do not----
    General Bolden. Mr. Chairman, there is no capability to get 
anyone to the International Space Station today--well, there 
are two ways, but I do not use one--and that is Soyuz. That is 
the capability, that is the only capability any nation in the 
world has. So, to talk about what is the backup plan, what is 
the contingency plan, the backup plan, the very serious backup 
plan is to get moving and get Boeing and SpaceX certified, so 
that we can fly in 2017. That is the backup plan. Had we gotten 
the funding that was requested when I first became the NASA 
Administrator, we would have been all joyously going down to 
the Kennedy Space Center later this year to watch the first 
launch of some commercial spacecraft with our crew members on 
it. That day passed. I came to this committee and I said over 
and over, if we do not fund Commercial Crew----
    Mr. Culberson. Had NASA not cancelled the Constellation 
Program, we would be ready to fly within 12 months.
    General Bolden. Mr. Chairman, that is not correct.
    Mr. Culberson. If we----
    General Bolden. And, Mr. Chairman, whoever told you that, 
that is not correct.
    Mr. Culberson. It set us back.
    General Bolden. Mr. Chairman, any time you interrupt a 
program, it sets the nation back. So that is very true.
    Mr. Culberson. Regardless of who is the President and 
regardless of who planned it, it was just a setback. I just 
wanted to establish it for the record and turn it over to my 
good friend Mr. Fattah. But it is a deep concern that we do not 
have a contingency plan to get our folks up in the event that 
the Russians----
    Mr. Honda. Would the Chair yield just for a real quick 
second?
    Mr. Culberson. I am going to go to Mr. Fattah, it will be 
his time.
    Mr. Fattah. Thank you, Mr. Chairman. I will yield for a 
second.

                     FUNDING FOR THE SPACE PROGRAM

    Mr. Honda. Just real quick. I think we have to own the 
question that you are asking that if we want those kinds of 
things to happen we have to fund it. We have not funded it. I 
have been here 15 years, we have been cutting every year 
research and development, the kinds of program we had at NASA.

                       RUSSIA AND THE ISS PROGRAM

    Mr. Fattah. Right. So first and foremost, just to put this 
in context and not to belabor it, in terms of the space station 
for a large period of time, even when we had the shuttle, the 
Russians took astronauts to the space station, we used the 
shuttle to take cargo; is that correct as a general matter?
    General Bolden. After we lost Columbia in 2003, the 
conscious decision was made because the Columbia Accident 
Investigation Board said, get space station completed. We 
worked with the international partners and decided the most----
    Mr. Fattah. What I am saying is that----
    General Bolden. But we did carry crews, but we carried the 
construction crews.
    Mr. Fattah. Right.
    General Bolden. And we said we would use----
    Mr. Fattah. But the main way to get individual astronauts 
was through the Russians.
    General Bolden. Yes.
    Mr. Fattah. And when we had the problem with the Russians 
and Georgia's independence and the military in Chechnya, was 
there any interruption in our interactions with Russia at that 
time?
    General Bolden. No, sir.
    Mr. Fattah. Right. And now we have this new dustup around 
Ukraine, which is more than a dustup, you know, but it is a 
similar kind of issue. Has there been any interruption in 
Russia's cooperation with their part of this partnership?
    General Bolden. No, sir.
    Mr. Fattah. Right. So now they have also taken a decision 
this week that they want to extend the life of the 
International Space Station. They are late to that decision, 
but they have said something that is useful in that regard. But 
in the meantime the Administration took some action, right? 
Because this dismantlement of the shuttle was always going to--
putting the shuttle to rest was always going to create this 
break in our ability, this was known before this Administration 
came into being. Well, it is being resolved through the 
ingenuity of American enterprise, because the Administration 
with the Congress has made a package of decisions about deep 
space human flight, Commercial Crew and low Earth orbit, and 
the investment in space technology, so that we can keep our 
preeminence in space, right? So that is where we are headed.
    I wanted to get back to this 238 plutonium. So when we 
close the Savannah plant--and I am shifting gears now, I went 
back to where we started at, right?
    General Bolden. Yes, sir.

                             PLUTONIUM-238

    Mr. Fattah. When we closed the Savannah plant in '88, we 
got out of the plutonium business, we got to somewhere around--
when you were in charge we had 35 kilograms of plutonium, the 
DOE says we are going to get something done at Oak Ridge. I 
went out to visit the plant at Oak Ridge and they have a $50 
million contract with NASA to do this. In the meantime, we also 
have a problem on the medical side of this with isotopes, which 
we do not have any domestic capability in this regard either, 
and the Department of Energy has launched an effort in that 
regard. But this is very important, because if we are going to 
power spaceships, we need this plutonium, right? So I just 
wanted to clear up the record, it is Oak Ridge. And we need to 
keep mindful of these connections between the subcommittees, 
because you can speak to your colleague to make sure that that 
program is robust. Right. But I thank you, we do not have to 
get into it.
    The bottom line is, we are in the lead now. Our lead is not 
absolute, it is relative. And if we want to stay in the lead, 
we have got to make these investments or, as some of my 
colleagues would say, we have to spend--because they get 
concerned if we use this word investment--spend money, because 
we cannot lead the world on the cheap. But thank you very much.
    General Bolden. Thank you.

                      CONTINGENCY PLAN AND FUNDING

    Mr. Fattah. And I yield back to the Chairman.
    Mr. Culberson. You know how committed our committee has 
always been, we have always made sure to plus up and protect 
NASA's funding levels. And my mention of the cancellation of 
the Constellation, it is not political, it is a setback, no 
matter who is in the White House. And it is a real concern, the 
gap is a real concern. And I wish we did have a contingency, I 
wish there was some way for us to get there more quickly, and 
we will certainly do our best to help you do that.
    I recognize Mr. Honda.
    Mr. Honda. Thank you. And I share your concern, but I just 
think that, you know, part of the problem is that we have to 
fund these kinds of activities because the investment that we 
make comes back in many ways in terms of the return on the 
investment. And I think the subcommittee, we may have to be 
more adamant with the process of the authorization part, you 
know, I am just saying. On the International----
    Mr. Fattah. This is the way we are going to work this. I am 
going to work hand-in-hand with my Chairman and we are going to 
walk this mile together. And I think at the end of the day, 
there is one thing I am sure of, NASA is going to be in a 
better position than it otherwise would be.
    Mr. Honda. All right. And on that, I love the Europa 
mission and I think that----
    Mr. Culberson. That is music to his ears.

                         EUROPA CLIPPER MISSION

    Mr. Honda. And, you know, with that kind of probe that we 
want to be sending up there, we will have new insights on how 
our solar system has been formed and the environment on this 
icy world, and possibly even a probe for the potential for 
alien life down there. Perhaps not the way we know it, but 
there may be another form of alien life there. So the secondary 
payloads offer relatively--is relatively cheap, a low-risk 
opportunity for dramatically increased scientific capabilities 
of that mission. The secondary payload on the Europa mission 
could be used to fly through its geysers and water plumes to 
directly search for life in the plumes and under the surface.
    So what are NASA's plans to use secondary payloads on the 
Europa Clipper mission to hunt for that alien life?
    General Bolden. Congressman, I am going to take it for the 
record to get you a formal response. However, what really 
excites me is the mission to Europa has excited people all over 
the scientific community, because the geysers of which you 
speak, if I am correct, I think were first sighted by Hubble. 
But they are not repeated, so they are not consistent. So we 
are not sure that, we can--if you are going to send a secondary 
payload in to fly through a geyser, then you need to know when 
it is going to geyse. That is a word I just made up. 
[Laughter].
    We do not know how to figure that out just yet, so we are 
studying. The planetary scientists are really trying to help us 
understand, is there another instrument that gives us a better 
idea of their frequency because what you would like to do, and 
a college student could do this, was take a CubeSat. They call 
them swarms. So with a mission that you sent to Europa, whether 
it is the Clipper or anything else, you drop swarms off, and 
they just go down near the surface. Where you would not send a 
spacecraft there because the harsh radiation environment, it 
would not survive, you send these little CubeSats through, and 
they take all kinds of samples.
    [The information follows:]

                         Europa Clipper Mission

    At this time, nine instruments for NASA's Europa mission have been 
selected. The instrument suite seeks to investigate whether Jupiter's 
moon, Europa, could harbor conditions suitable for life and includes 
instruments that could examine particles ejected from Europa, such as 
plumes. Conceptual designs for a potential secondary payload will be 
considered during the mission's early formulation.
    Detailed information on the selected instruments can be found at: 
http://www.nasa.gov/press-release/nasa-s-europa-mission-begins-with-
selection-of-science-instruments.

    Mr. Fattah. And I hope return one to Earth.
    General Bolden. So I think that is what you are talking 
about. And that is really exciting when you think about it. But 
that, again, is like everything, it comes from science and 
technology funds, and those are the funds that we continue to 
cut.

                EVOLVING ISS INTO LEO COMMERCIAL MARKET

    Mr. Honda. And so we need to bolster it and to be able to 
move forward in areas that we want to move forward on. 
Determine through the Chair, and that is the start of the 
dialog with industry about how it may transition the 
International Space Station from a pure government operation to 
partial commercial ownership in this operation. Can you tell us 
today about what your plans are? And I understand that Russia's 
obligation is to 2024, so can you just give us some sort of 
explanation of what the plans might be?
    General Bolden. I will make it very quick. We were 
disappointed. We went out with a request for information from 
the industry, academia, everybody, that said we would like to 
use the International Space Station. I mean, it is only going 
to be there for a certain amount of time.
    Mr. Honda. Yeah.
    General Bolden. We would like for you to look at it and 
tell us how this gives you confidence that you can go off and 
position modules or other independent entities in low Earth 
orbit. This is the infrastructure that I talked about. 
Everybody said for the most part, ``Yeah, nice idea, but we 
like going for free. We like having NASA do it, and so we're 
not quite ready yet.'' We continue to pursue that however, 
because we think that with the discoveries that are being made 
now through CASIS, (a non-profit entity that we have put in 
place to help us go out and recruit people to fly on the 
International Space Station), that industry, academia, 
international partners will begin to see the value of not 
flying on the International Space Station, but what being in a 
micro-gravity environment provides. So we just have to be 
patient, but it was disappointing the first time we tried to do 
it.

                    RUSSIA'S LAUNCH SITE RELOCATION

    Mr. Honda. Very quickly, in the line of the Chairman's 
question, I understand Russia is sort of winding up their 
activities in Kazakhstan as a launch area, and they are going 
to move back to Russia. How does that impact our programs, and 
do we have a plan around that?
    General Bolden. It is like everything else, where we 
purchase a service. The service is getting our crews to orbit, 
and it makes no difference whether they launch from Siberia or 
whether they launch from Kazakhstan. It's a trip that the crew 
has to take, and that will not change. The crew lives and 
trains in Star City for long periods of time, and they have to 
get on an airplane and fly down to Kazakhstan three days prior 
to the launch. But it is the same thing we do in America. The 
crew trains and lives in Houston, and they get on an airplane 
three days ahead of time, and they fly down to the Kennedy 
Space Center.

                            LOW EARTH ORBIT

    But can I go back to the--because I don't want to leave 
anyone mistaken--when we talk about science and technology, the 
point that you made, it is critical, and we have to find better 
ways to encourage industry and other entities to want to be in 
low Earth orbit.
    We are going to fly what is called a Bigelow Expandable 
Activity Module (BEAM). It is a Bigelow. It is not inflatable. 
Mr. Bigelow would get really upset if I say that. It is an 
expandable module. This is an American entrepreneur who has had 
dreams of putting stuff in space for probably 30 years, and has 
the hardware in place if we can just find a way to get it 
there. So he has two modules that have been on orbit for more 
than five years now that were flown up on Russian spacecraft 
with no instrumentation. So we can look at it. We can see that 
they are still existing. We have no idea what is in it, whether 
the air is clean or whatever. We are going to take one of his 
smaller expandable modules and put it on the International 
Space Station later this year, and the crews are going to be 
able to go in and put logistics in there, play with it, do 
whatever. What we are hoping is that there will be other 
companies like some of these that are sitting on the back row 
over here--I will put them on the spot--who will say, ``That is 
a good idea. We want to do that also,'' and either buy a module 
from Mr. Bigelow or go build their own module and put it in 
another orbit. It does not have to be in the same orbit as the 
International Space Station.
    Mr. Honda. I think they should buy one from him. I mean, if 
he has put out 30 years of effort in it, he should get a pay 
off, you know.
    Mr. Bolden. I don't know whether----
    Mr. Honda. Anybody who builds their own, do not come see 
me. You know?
    General Bolden. He has built his own, and it has been a 
while. But that is what, Mr. Honda, that is what we have to do, 
and so we are taking the risk. We are saying we will fly you to 
the International Space Station, and we are going to put you 
there and then we are going to work with it and see what 
happens. Our hope is that other companies will see that this is 
a potential moneymaker, and they will take it and move off 
somewhere else. So I did not want to go without making a note 
that we were doing things.
    Mr. Culberson. Thank you. General Bolden, I want to go back 
to the SLS.
    General Bolden. Yes, sir.

            LAUNCH ABORT SYSTEM AND THE SPACE LAUNCH SYSTEM

    Mr. Culberson. Because I am concerned about the 
announcement that there has been slip in the launch date. There 
has been a delay. NASA has announced a delay in the second 
round of testing, a launch abort system. And the second round 
of testing looks like it is going to be held in 2018. I know 
that the budget request that the President submitted to the 
Congress asks for a 12 percent reduction in Orion and SLS 
funding, which concerns me because we have obviously got a 
serious deficiency in the ability to reach low Earth orbit. We 
certainly do not want to see any slippage in our ability to go 
beyond low Earth orbit, and I want to make sure the SLS program 
is robust, and that it achieves all of its milestones. We would 
like to get it in ahead of time.
    Could you talk to us about what is necessary, what does 
this subcommittee and the Congress need to do, to help the SLS 
prevent any more slippages? What can we do to help make sure 
there are no more slippages? Why was the first launch slipped 
by a year?
    General Bolden. Mr. Chairman, if I can address the launch 
abort system first. That is not a part of SLS. That's a part of 
Orion, and your statement is a surprise to me. I will take it, 
for the record, I will have to go back and find out. My 
impression, my information, was we were getting ready to do the 
test of a part of the launch abort system, at least the motors, 
right over in a facility in Maryland sometime this year. But I 
will go back and verify where we are there. So that had no 
impact on anything about SLS.
    What got us to where we are with SLS today when we say 2018 
is its readiness to fly, was we went through the very formal 
process of milestone evaluations and everything, and when that 
was presented to Robert Lightfoot at a formal session that we 
have on programmatic decision making, then it came out that we, 
on our funding profile, SLS would be ready in 2018 at a certain 
price. And so that was the first time that we really knew for 
certain what its earliest launch date could be. But that is 
only SLS in the ground system.
    [The information follows:]
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Culberson. Okay.
    General Bolden. That is what we are saying.
    Mr. Culberson. And earlier I thought I heard you say at one 
point that an initial launch capability would be late 2018, and 
then I thought I also heard you say after 2018.
    General Bolden. Mr. Chairman, what I may have said, I may 
have confused things by referring to the system. I do not talk 
about launch of SLS. I talk about the launch of the integrated 
SLS and Orion to cislunar space. That means it is going to be 
EM-2. So that is what, when I talk about important, really 
important dates, because that is the way we are planning Orion. 
We are planning a launch availability of Orion for EM-2. Then 
we back away from that to say when EM-1 can be launched. You 
know, we are trying to figure out what is the earliest possible 
date that we can fly a human-rated mission on SLS and Orion. 
Once we determine that--and that is what will come to you all 
this summer.
    Mr. Culberson. Okay. This summer you will get that to us?
    General Bolden. The technical term for it is ``key decision 
point two.''
    Mr. Culberson. That's----
    General Bolden. Key decision point C.
    Mr. Culberson. Okay.
    General Bolden. So KDP-C. And that will not be until this 
Spring or Summer. And once that occurs, we will come back in to 
you and say, ``Here is the decision from KDP-C.''
    Mr. Culberson. And NASA has told the subcommittee that 
increasing the fiscal year 2016 budget for SLS would not result 
in an advanced schedule or reduced life cycle cost for the 
program, and yet you have requested a 12 percent reduction in 
funding for Orion and SLS. That seems a little inconsistent. It 
seems to me we are not adequately funding SLS and Orion. How 
are you going to manage to stay on track if you are asking for 
a 12 percent reduction?
    General Bolden. Mr. Chairman, we think we are asking for 
adequate funds. We have a schedule that is built around what 
comes out of the key decision point milestones. The budget that 
we have in place today supports having the SLS, the launch 
vehicle, and the ground systems available in 2018, the present 
budget that we have in place today. We will have a budget 
request, that will be refined next year once we get the KDP-C 
for Orion, and I hope I am not confusing things here, but I 
will get clarification back to you.
    Mr. Culberson. So you anticipate you will be able to give 
us an estimate of your first crewed mission by this summer?
    General Bolden. Yes, sir.

                       DECADAL SURVEY PRIORITIES

    Mr. Culberson. Okay. Let me talk a minute about the Decadal 
survey priorities and see if my friend, Mr. Fattah has any 
follow up, we will probably submit the bulk of these for the 
record. The reason the Europa mission is so important is that 
it was the top priority of the Decadal survey last decade and 
the second priority this decade. And it, as you know, holds two 
to three times more liquid water than all the water on Earth 
and is the most likely place beyond Earth that if we are going 
to find life, it is most likely right there in our own 
backyard. That is why the planetary science community is so 
excited about it and why this committee has supported it so 
strongly.
    The mission is still in its early planning phases, but I 
would like to know, if you could, talk to us about the Decadal 
survey in general. Are you satisfied that NASA is following the 
direction of Congress in funding and flying the top priority of 
the planetary Decadal survey? And talk to us about some of the 
other Decadals. To me, that is the gold standard. That is what 
NASA should be flying, the best recommendations of the best 
minds in the scientific community, whether it be planetary, 
heliophysics, earth science, or astrophysics.
    General Bolden. Congressman, or Chairman, the best thing 
out of Decadal surveys is the fact that it does represent the 
thinking of the best minds in science, if you will, out of the 
National Research Council in a specific discipline. What we 
endeavor to do is follow the guidance of the Decadal survey, 
and we generally try to focus on the number one and number two 
areas there. We do not go down deep into the list, because the 
Decadal surveys give us multiple projects that can be flown.
    As the way the planetary said this past time when Steve 
Squyres chaired it was, in fact, he made it very specific. The 
Decadal survey was very clear. If NASA is going to fly a 
subsequent Mars Rover after Curiosity and it is not going to 
cache, then don't do it. I mean, they were very specific. Go to 
Europa. It did not say to go to Europa and do this. But we have 
decided that we can put enough funds in the budget to mount 
another charge on Mars with Mars 2020, which we intend will be 
a caching mission.
    Mr. Culberson. Yeah. The first step on that----
    General Bolden. We will put samples in place----
    Mr. Culberson. Right.
    General Bolden [continuing]. For a subsequent return to 
Earth and begin the formulation of a Europa mission. That is 
what we are doing. I hate the term robust, but in general 
terms, if you look at our planetary science program, Dawn is 
closing in on Ceres. We are still learning from the abundance 
of data that Dawn gathered in its year orbiting Vesta. New 
Horizons is closing in on Pluto and is already imaging Pluto. 
Juno will arrive at Saturn soon, and so--Jupiter, not Saturn, 
thank you very much.
    Mr. Culberson. Yeah, I thought that----
    General Bolden. No, no, no, that is, yeah. You are right.
    Mr. Culberston. It is Jupiter.
    General Bolden. But every planet and major dwarf planet in 
our solar system is either being investigated presently or 
going to be investigated in the next two years. I know there 
are people who believe we can do better than that, but I am not 
sure we will make the planetary science community happy if 
visiting every planet in the solar system is not good enough. 
We are now talking about understanding planets in other solar 
systems and other galaxies thanks to the work of Kepler. So we 
are expanding the areas of investigation for planetary 
scientists even beyond our own solar system. I think that is 
good. I think it is great. Whether it satisfies everybody or 
not, no it does not, and we never will. But it is like how much 
money do you need? It does not make any difference how much 
money you give me, I am going to tell you I need more.
    Mr. Culberson. Well, this was the first Decadal survey I 
think they had ever done where they used independent outside 
cost estimates. Steve Squyres was very adamant and quite 
correct in making sure that we had realistic outside 
independent cost estimates on each one of those missions so 
that Congress would have a good idea of what they would 
actually cost.
    Mr. Fattah, any follow up?

                     RANKING MEMBER CLOSING REMARKS

    Mr. Fattah. Just a closing comment, not a follow-up 
question. One is, I want to thank the Chairman, and I think the 
time clock thing is working. Except for me and you, it has been 
working great. And I want to thank the Administrator, not for 
all that you have done in terms of space exploration, but what 
you are doing in terms of preparing future generations.
    The Space Act Agreement with the Boys and Girls Clubs of 
America, four million young people, four thousand clubs all 
across the country, in getting these young people excited about 
STEM education in general, but doing that through having them 
learn about the exciting work of NASA, because that is how we 
get people who want to be mathematicians and engineers and 
everything that we need by getting them excited about this.
    And I said this to the Chairman in private one day that all 
of us do not have the benefit of having, you know, Cape 
Canaverals or NASA Mission Controls in our district, but all of 
us have these young people who want to live up to their God-
given potential, and NASA is the best opportunity to get these 
young people excited about learning. So I want to thank you for 
all you have done.
    General Bolden. Absolutely.
    Mr. Fattah. Thank you, Chairman, I yield back.
    Mr. Culberson. Mr. Honda, any follow up?

                      PUBLIC/PRIVATE PARTNERSHIPS

    Mr. Honda. Thank you. And in the words of Leonard Nimoy, 
live long and prosper. And if I may just ask one quick 
question, I was really----
    Mr. Fattah. That is more of a comment.
    Mr. Honda. I know, but I could not resist. I just wanted to 
share that, you know. I was really pleased to see NASA moving 
forward with the competition-based cargo and commercial crew. 
And I think that we are really concerned about that as a group. 
Now that contracts with the Boeing and SpaceX are in place and 
there is a clear path forward to restoring domestic crew space 
transportation by 2017, under-funding this program will delay 
crew flights and lead to continued reliance on Russia for 
access to the International Space Station. So as a commercial 
crew provider's focus on low Earth orbit, NASA would be able to 
shift its focus into deeper exploration of space.
    Can you just briefly discuss how the success of this 
public/private partnership is shaping how NASA would be using 
future missions to explore the solar system, and how do you 
envision more cooperation with the private companies to explore 
resources on the moon and near-Earth asteroids?
    General Bolden. Congressman, we have always felt that 
collaboration with private industry and entrepreneurs was the 
right way to go. Commercial crew and cargo, commercial cargo 
particularly, has demonstrated that that was in fact a good 
plan, a good thing to do. We are now looking at collaboration 
with industry and academia and entrepreneurial interest in 
putting things on the surface of the moon. I tell people all 
the time that we never left the moon. We have always been 
there. We have orbiting vehicles right now, but in the near 
future, and near is a relative term, my hope is that we will 
enable humans to go back to the surface of the moon. NASA does 
not have to be the organization doing it if we are implementing 
it and supporting it.
    We are going to be operating in cislunar space for ten 
years at least when we go to the proving ground. With multiple 
term trips back and forth to cislunar space, I think it is 
inconceivable to me that we would not partner with some 
entrepreneurial interest, or some industry, or some other 
international partner who wants to build a Rover and, lower it 
to the surface of the moon from the cislunar orbit in which we 
happen to be. It is inconceivable to me that that will not 
happen.
    Mr. Honda. It could be like expanding internet, you know, 
going to space and be that kind of thing. So, again, Mr. 
Chairman, live long and prosper.
    Mr. Culberson. Okay. Thank you, Mr. Honda. There is no 
prohibition in current law against private companies mining----
    General Bolden. Oh, I do not, Mr.--I get asked that all the 
time, and I need to find an answer. I do not----
    Mr. Culberson. I do not believe there is. I think, of 
course, no nation----
    General Bolden. I do not think there is, and that is the 
problem. Everyone is concerned, and so one of the fastest 
growing areas in the field of law today is space law.
    Mr. Culberson. Well, no nation can claim sovereignty over a 
asteroid or the moon.
    General Bolden. I think you are right.
    Mr. Culberson. I think that we treat it just like 
Antarctica, however, though----
    Mr. Fattah. Well, no nation except if we claim it, right?

                       Chairman's Closing Remarks

    Mr. Culberston. I do think Mr. Honda raises a really 
interesting, good question that I think maybe in the future we 
need to think about NASA providing infrastructure and support 
to the private sector to reach out, and whether it be mine 
resources, make those resources as fuel stations for missions 
out to deep space in the same way the highway department 
provides infrastructure for commercial activity on Earth in the 
future.
    But we will certainly do everything we can to support you, 
and it is a real privilege for me to be in this position to 
help make some of those dreams of the future, of young people 
come true, Mr. Fattah and Mr. Honda, and something we have 
always worked together arm in arm in a bipartisan way.
    I have got a lot of questions I will follow up with you 
personally on as well as for the record. But it is a real 
privilege for me to be chairman of this subcommittee. And I 
hope as part of my legacy that I will, working with Mr. Fattah, 
find a way to make sure that NASA's budget request comes 
directly to us, you know, to bypass Office Management and 
Budget. We ought to hear directly from you as to what you need. 
We ought to give you the stability and support you need to do 
multi-year procurement so that you can build spacecraft and 
rockets the way the Navy builds aircraft carriers and 
submarines. Mr. Fattah?
    Mr. Fattah. I like the way you think, Mr. Chairman.
    Mr. Culberson. We----
    Mr. Fattah. Directly to us. That is----
    Mr. Culberson. We really do. We want to hear directly from 
you, and I hope also as a part of my legacy, our legacy 
together on this, I really want to see NASA focusing on those 
Decadal surveys. I really think that is the proper map, 
guideline, for future missions, relying on the best minds in 
the industry.
    It is the law today that NASA follow the planetary Decadal 
survey. I would like to work with you, Mr. Fattah, in trying to 
expand that to help make sure that NASA is following the 
recommendations of the Decadal surveys in heliophysics and 
earth sciences and astrophysics as well.
    And when it comes to the manned program, that is a bigger 
challenge, is how do you do a Decadal survey?
    Mr. Fattah. I will say this publicly, Mr. Chairman, I love 
the fact that there could be, one, a leadership role, someone 
on the other team, that says you want to focus on science as 
the guidepost. So it works for me. All right?
    Mr. Culberson. That is it. That is my North Star, is to 
make sure that we are following the recommendations of the best 
minds in the scientific community in each one of these areas of 
specialty.
    And then also I hope to not only to make sure that we get 
the SLS up and running, and get commercial up to low Earth 
orbit, but for the long term, I just want to leave you with 
this. I actually really think the asteroid redirect mission--I 
would encourage you to focus on the development of the next 
generation of rocket propulsion. That, to me, is the great 
value of that mission. The fact that we are still flying a 
rocket engine that has fundamentally been designed by Robert 
Goddard in the 1920s is just inexcusable.
    And the asteroid redirect mission, the great value there is 
that for these young people that NASA touches and inspires, I 
really hope it is part of my legacy in the time that my 
district continues to rehire me, that I am privileged to chair 
this subcommittee, that not only will we leave NASA with a 
robust low Earth and deep space, manned space flight 
capability, and a robotic planetary astrophysics/heliophysics 
and earth science program designed and recommended by the best 
minds in the industry, but also to leave for future generations 
development of the first interstellar rocket propulsion system 
that would carry us to Alpha Centauri and beyond.
    That can be done. It is within the realm of our ability, 
within the realm of the capability of the brilliant men and 
women that work for you, General Bolden. And I, with the 
support of my colleagues in the subcommittee, really would like 
you to be thinking about, when it comes to the asteroid 
redirect mission, focusing on development of the rocket 
propulsion system that will take us to Alpha Centauri. To go 
explore those exo-planets that are most like Earth, which 
appear to be far more common than we ever realized.
    I deeply appreciate it. Thank you for your indulgence and 
the extra time, and I look forward to following up with you 
individually and personally, as you can imagine. It will be in 
great detail and very specific. I am looking forward to coming 
to see you, sir, and thank you for your leadership and your 
service to the country, and the hearing is adjourned. Thank 
you.


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 17, 2015.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

HON. FRANCE A. CORDOVA, DIRECTOR, NATIONAL SCIENCE FOUNDATION
    Mr. Culberson. The subcommittee will come to order. Thank 
you for your service to the country and to the scientific 
community. We have, all of us on this committee over the years 
have been strong supporters of the sciences and space 
exploration. It is one of the great joys that I have had in 
Congress to get to help, serve on this committee to help the 
National Science Foundation and to ensure that the United 
States stays at the cutting edge of scientific discovery in the 
world. The impact that has I think on our quality of life for 
this generation and generations to come is self-evident. It is 
a real privilege for me to be here as the chairman and to work 
with my Ranking Member Mr. Fattah and other members of the 
subcommittee to do everything we can to help you achieve that 
mission. Recognizing of course that we are in a very difficult 
budget year with very tough constraints on the Congress to 
fulfill all that is asked of us.
    We are entrusted with the task of allocating very scarce 
and precious, hard-earned tax dollars and it is vitally 
important, of course, that we be very careful to ensure that 
those hard-earned tax dollars are spent wisely and targeted 
very carefully. I can certainly think of few endeavors that are 
more noble or worthwhile than investing in the National Science 
Foundation. We do want to make sure, though, however, the money 
is well spent and not wasted. So I will probably spend some of 
my time in my questions talking about the Inspector General's 
report. I know you are still fairly new on the job. But I do 
have a lot of concerns about some of the things that the 
Inspector General pointed out and I want to go over some of 
those with you.
    Your request for this year, for 2016 is $7.7 billion, about 
a five percent increase of $379 million over the current fiscal 
year. And I know that my colleague Mr. Fattah and other members 
of the subcommittee feel as I do, that we certainly want to 
make sure that we help you. But again, it is really going to be 
a difficult, a difficult budget year.
    I am delighted to have you here, look forward to your 
testimony, and am happy to recognize my good friend Mr. Fattah 
for any opening statement he would like to make.
    Mr. Fattah. Well first of all let me thank the chairman for 
hosting this hearing. I think it is very, very important that 
the premier basic science and research entity in the world, we 
have an appropriate understanding of your budget and we can do 
that through this hearing. The work that is being done is 
critically important. And I want to put in some, and if you 
would as you talk today, in context what our friends around the 
world are doing. Right? So I was with Judith Rodin at the 
Rockefeller Foundation and she was saying that in China they 
just opened up 100 science only universities, and 200 math and 
science focused institutions. They have invested a great deal 
in basic scientific research. Now that is a big and plus 
populated country. But Singapore, which is a much smaller 
country, less people there than in the Philadelphia region, 
their National Science Foundation, which was built off of, you 
were the benchmark for it, they have invested over $7 billion. 
And this is a small, small, I mean, you know how big Texas is, 
right? I mean, 4.5 million people in Singapore. I mean, the 
fact that they could make such a huge investment.
    And then our friends in the European Union with Horizon 
2020, which is a seven-year effort, well over $80 billion 
euros, focused just in six areas. You know, marine science, 
neuroscience, which of course is my favorite, but agricultural 
science. So I am wondering when we think about America and we 
think about our leadership in the world, which was at one point 
absolute and now is relative. That is, that we still lead but 
there are people who are chomping at the bit and they want a 
piece of the action. In fact, Singapore has been hiring away 
some of our best scientists. So the head of the National Cancer 
Center, and his spouse, and on, and on, and on. I mean, they 
have been picking up pieces because they intend to be 
indispensable in the world. So I am wondering when you talk to 
us today about the work of the Science Foundation you could put 
it in context so that it is not just a matter, I do not see it 
as just a budget for an agency. I really see it as the 
indispensable lynchpin to this innovation ecosystem in our 
country. That if we do not invest in basic science research, 
none of the other things that we want to do as a country are 
going to be possible, including our national defense which is 
so very important. A lot of the breakthroughs in our ability to 
defend ourselves against the world's threats start at their 
core from work at the, that has been funded by the National 
Science Foundation.
    So welcome, I thank the chairman, and look forward to your 
testimony.
    Mr. Culberson. Thank you very much. I certainly share Mr. 
Fattah's feelings. And I hope as a part of your testimony today 
you will talk to us about the other nations in the world and 
their investment. I think Mr. Fattah is exactly right, to focus 
our attention on that. Where are other nations in their 
investment in the sciences? In the pure sciences and 
engineering and where we are in relation to them.
    Of course your statement will be entered into the record in 
its entirety, without objection. And we welcome your testimony. 
And we want to encourage you, if you could, to keep it within 
about five minutes as a summary. So thank you very much and we 
look forward to hearing from you today. Thank you, ma'am.
    Dr. Cordova. Thank you, Chairman Culberson, Ranking Member 
Fattah, and members of the subcommittee. I see Congressman 
Jenkins, good to see you again. I am pleased to testify today 
on behalf of the National Science Foundation's fiscal year 2016 
budget submission.
    In my written testimony I have addressed specific aspects 
of our budget request, including funding for our four cross-
directorate programs, ``Understanding the Brain,'' ``Risk and 
Preparedness for Disasters,'' ``The Interrelatedness of Food, 
Water, and Energy Science,'' and ``Expanding Efforts to Broaden 
Participation in STEM.'' NSF believes that this budget 
comprises a strong request that is responsive to the national 
interest in science as well as science in the national 
interest.
    In this, my oral testimony, I will address three more 
general questions. First, why do we fund what we fund? Namely, 
all fields of science and engineering, including the 
sociobehavioral and economic sciences. Secondly, how does our 
agency set priorities for funding? And third, what is NSF's 
long range plan, our vision for science? And Ranking Member 
Fattah, I will try to answer in one sentence your question 
about international and then perhaps we can follow that up in 
the rest of the testimony.
    On the first question, why do we fund what we fund? Let me 
quote President Harry Truman, ``I have just signed the National 
Science Foundation Act of 1950. This Act is of tremendous 
importance because it will add to our knowledge in every branch 
of science. I am confident that it will help to develop the 
best scientific brains in the nation. It will enable the United 
States to maintain its leadership in scientific matters and to 
exert a more vital force for peace.'' So he was addressing just 
what you were talking about, Congressman.
    NSF has long prided itself on adding to the knowledge base 
for all science and engineering. That is by statute not a 
narrow focus. Many of our important challenges require the 
perspectives and knowledge of both physical scientists and 
social and behavioral scientists. It is interesting to note 
that the last 51 Nobel Prize Winners in Economics have been 
supported by our Social, Behavioral and Economics Directorate. 
We believe that good research, often interdisciplinary in 
character, can inform us in the face of big scientific 
questions.
    On the second question of setting priorities, we start with 
input from the large community of scholars, scientists, 
engineers, and educators. This can come in the form of decadal 
surveys, which set priorities for a discipline. NSF sets its 
priorities in part through these surveys. Examples include the 
Decadal Survey in Astronomy, and the recent Ocean Science 
Decadal Survey. We also support studies by the National 
Academies and carefully weigh the advice of scientific 
societies, NSF sponsored workshops, and universities and 
research centers. We balance all this external input with the 
input of our talented staff at NSF and then carefully put our 
budgets together.
    Lastly on the third question, what is the ten-year plan for 
the National Science Foundation? I am reminded of a question 
posed to Condoleezza Rice, long before she became Secretary of 
State. She was asked what her strategic plan was for her 
future. She said that if she had made a strategic plan when she 
was young she would have been playing the piano at Nordstrom's. 
She was a gifted child pianist. The point is that some people, 
and for some agencies like the National Science Foundation 
which pursues the most fundamental research, planning needs to 
be highly flexible and adaptive to discoveries, insights, and 
advances that are unpredictable. It is limiting to plan for a 
future that cannot be envisioned. It is the opposite of what we 
were funded to do, which is to pursue great ideas of creative 
people.
    I am an astrophysicist. When I was in graduate school, 
there were no known planets orbiting other suns. There was no 
detection of the Higgs boson. We had not discovered yet dark 
energy, which we now know to comprise 75 percent of the matter 
energy content of the universe. How could we not have known? 
Because the basic science had not yet been done, and we could 
not have predicted where it would lead us. Can we make a ten-
year plan for where our research in these wondrous new areas 
will lead us? We can, and do, plan very carefully in as much 
detail as our current knowledge permits.
    Our plan, which we update every four years, has been 
approved by the National Science Board. Additional details are 
filled in by those scientists and engineers who pursue 
fundamental research, wherever it leads. And exciting, new, and 
unexpected directions can be pursued precisely because of our 
flexibility.
    And now let me just take--is the red light on there? Does 
that say five? Just one second to open the door to discussing 
international collaborations. As the recent report from the 
American Academy of Arts and Sciences said, and they addressed 
this in ``Restoring the Foundation,'' that the U.S.' place has 
slipped to number ten in the world as far as the expenditure of 
R&D divided by GDP. And we used to be number one or two a 
decade or so ago. So there is a lot of good hard evidence for 
our concern, in spite of the fact that we do spend substantial 
monies in R&D, as you point out Congressman Fattah: the rest of 
the world is relatively spending more, their first derivative 
is just simply higher than ours. And they are bringing back 
students and professors that we have had at our universities 
and giving them good packages there.
    And everywhere we go around the world, and especially in 
Asia, we see the growth of universities and the growth of the 
investment. Just yesterday I was with the Prime Minister of 
Ireland, where we were celebrating St. Patrick's Day. And he 
was pointing out, as was his Minister of Science who leads 
their equivalent of the National Science Foundation, the 
substantial investment that Ireland has been making and that 
they have an enormous innovation product as a result of that 
and they are very, very proud of that. Much credit was given to 
the National Science Foundation for originally providing the 
model for that investment. So I look forward to your further 
questions in this and all areas. Thank you, Mr. Chairman, for 
the opportunity to address you.

       INSPECTOR GENERAL REPORTS ON FACILITY CONSTRUCTION FUNDING

    Mr. Culberson. Thank you very much, Dr. Cordova. And I 
want, if I could, to talk about the Inspector General's report 
from last September in particular. Because we are all of us in 
the subcommittee enthusiastic and very supportive of the work 
that you do, and the awarding of grants, and the work that you 
do in ensuring that the United States maintains its leadership 
role in the world in scientific research. Particularly in the 
pure sciences, which obviously include the earth sciences as 
well. But the budget environment in which we operate is so 
constrained that I am compelled to in the weeks ahead, follow 
up with a visit out to headquarters to talk to you about this. 
I am so concerned about what the Inspector General tells us 
about some of the deficiencies and the ability of the National 
Science Foundation to independently verify the cost of, for 
example the Daniel Inouye Solar Telescope, the Large Synoptic 
Survey Telescope.
    The Inspector General points out that after over four years 
of attempting to audit the proposed cost for construction of 
the telescopes there continues to be a lack of adequate 
documentation to determine if the costs are fair and 
reasonable. And the Inspector General also points out that the 
NSF's internal review, for example of the cost of the Large 
Synoptic Survey Telescope, it was not possible for you all to 
independently verify costs for any of the 136 proposal 
expenditures sampled, including approximately $145 million in 
direct materials. And after this critical report was issued the 
Inspector General points out the independent proposal and 
accounting system audits were clearly warranted to ensure the 
adequacy and proper accounting of the proposed costs, but 
instead of obtaining those audits NSF had a contractor perform 
a sufficiency review which is a less rigorous assessment than 
an audit. And in September, 2014 the Inspector General issued 
an alert memo expressing strong concern that NSF did not have 
sufficient information to establish a reasonable basis for the 
cost of the LSST project. They have been urging NSF for the 
last four years to strengthen accountability of your high 
dollar, high risk cooperative agreements for large 
construction, large facility construction projects. They point 
out, quite correctly, that you do indeed apply your highest 
level of attention and scrutiny to determine the scientific 
merits of the projects that you attempt to fund. But it is this 
independent assessment of the actual cost, to be able to verify 
that and strong audit procedures that the Inspector General has 
recommended apparently repeatedly. I understand you are still 
fairly new on the job but I would like to, in light of the 
difficult budget environment in which we operate, in light of 
this committee's strong support for the work that you do and 
our passion to help you do what you do, to assure our 
constituents that their money is being wisely spent, what have 
you done to comply with the Inspector General's 
recommendations?
    Dr. Cordova. I appreciate the question. And even though as 
you said I am relatively new, I have been on this from the 
first moment I stepped in the door, I can assure you. And from 
my previous positions heading up a couple of our nation's great 
universities, I take the responsibility of excellence in 
management as seriously as I do our mission to further the 
progress of science.
    I will just say a couple of general things and then address 
your specific questions. The Foundation is committed to working 
closely with the Inspector General and her office. I meet 
regularly with the Inspector General and we go over all the 
issues that are outstanding. I truly do believe, as you do, 
that it is only with the strong support of the Inspector 
General and Congress that oversight of taxpayers' resources can 
ultimately be achieved. And we are very appreciative of those 
efforts.
    I will also say in a general sense, and I will be happy to 
send the particulars, that many of the Inspector General's, in 
fact I would say most of their observations and recommendations 
we have followed. We have saved the taxpayer monies in our 
travel costs in the last couple of years, the way we are doing 
virtual panels. We have saved in a number of other areas and I 
can detail them.
    Dr. Cordova. Now on your specific issues. Sometimes as you 
know there is I.G. information that is given to Congress, and 
that information perhaps is not reviewed for a period after 
that even though NSF has responded to all the actions. So I 
will say, again in a general context, that it is important that 
we know exactly what you know from the I.G., when you know it, 
so that we can respond to you in a timely manner that yes, just 
two months ago we did such and such in response, or yesterday. 
In the case of one recent memo we did, we have issued our 
response, or we are going to in a couple of weeks. So there is 
kind of a timing issue here because we have been on all of the 
issues you have described and we have responded to each in 
turn.
    For example, with respect to the Large Synoptic Survey 
Telescope, NSF did apply a formal response to the alert memo on 
January 23rd of this year. With respect to two significant 
deficiencies, prior year's significant deficiency related to 
NSF's monitoring of construction type agreements, and NSF's 
practices, I can assure you we properly follow the OMB's newly 
clarified guidance pertaining to contingency funding and 
awards. This notwithstanding, NSF is going to continue to 
strengthen our controls for awarding and managing construction 
type cooperative agreements, exercise an enhanced surveillance 
in response to OIG concerns, and perhaps most importantly, we 
have with the great help and blessing of the National Science 
Board, represented today by its Chairman Dr. Dan Arvizu, who is 
sitting behind me. We have co-asked an external entity to 
provide us with a very thorough investigation, I would say 
``study'', of our cooperative management vehicle. And we hope 
within a few months time to get the first phase of the study 
done. But it is a careful statement of work that addresses all 
of these concerns and really looks at the details. And we think 
that by putting it out in a very well recognized external 
entity they can address it properly.

             IMPLEMENTING INSPECTOR GENERAL RECOMMENDATIONS

    Mr. Culberson. How about implementing the Inspector 
General's specific recommendations that you strengthen the 
accountability of your high dollar, high risk cooperative 
agreements and have essentially an independent proposal and 
accounting system audit in place? Have you begun to implement 
their recommendations that they have been recommending now for 
the last four years when it comes to your high dollar, high 
risk cooperative agreements for large construction projects?
    Dr. Cordova. Yes, we are. And I would be able to follow it 
up with more detail. But we have it in our policy manual for 
our large facilities. That office has a new leader and we have 
really strengthened the policies and procedures in that manual, 
Mr. Chairman. We are moving in that direction. Now that is not 
to say we do not have areas where we disagree with the IG's 
office about following exact guidance of the OMB. And that is 
why we are asking an external entity to study this. But we have 
really tightened up our procedures and policies. And very 
recently we gave 292 documents to demonstrate this to the 
Senate in response to their questions on these issues.
    Mr. Culberson. Okay, thanks. I will follow up on this with 
you. And I would love to come out and visit the headquarters 
and I want to learn more about what is going on with the moving 
of the headquarters. I want to recognize my good friend Mr. 
Fattah, thank you.
    Mr. Fattah. Thank you. I am in agreement with the chairman 
on almost everything but when he said that he was concerned 
about the telescope and he was going to come over to 
headquarters, he really lost me there. I thought he was saying 
that we would go to Hawaii and look at the telescope. So, see, 
so you know, maybe as he follows up, you know, there will be an 
opportunity for the subcommittee and we can go inspect this.
    But no, on a serious note, you know, I want to get to my 
point in a minute. But obviously we have a department in the 
federal government that has not been able to be audited. It is 
the largest recipient of discretionary money, the Department of 
Defense. It has never been able to sustain an audit. We have a 
bill I think now where we are saying they have to be audit 
ready by 2025. But today's budget that will be released will 
put another $90 billion into Defense. So it is, yes, Mr. 
Chairman?
    Mr. Culberson. I want to be sure to point out that the 
United States Marine Corps----
    Mr. Fattah. Yes, absolutely.
    Mr. Culberson [continuing]. Was the first to accept 
generally accepted accounting procedures.
    Mr. Fattah. Yes.
    Mr. Culberson. So they can be audited independently, and 
then the Navy followed suit. So the Marines are once again 
first on the beach.

                        UNDERSTANDING THE BRAIN

    Mr. Fattah. So they, in our lifetime we may get to a point 
where the $600 billion or so we spend in Defense will be 
auditable in any reasonable way. They lost $9 billion that they 
cannot account for in Afghanistan. Now in, it is gone. Right. 
So, I just want to make it clear, right? That these issues are 
important but everything is relative within the context of the 
world that we live in. And I appreciate the fact that we have 
IGs. I, with Chris Shays, was one of the early cosponsors of 
the bill that created the IG Act. But I think it is very 
important that they focus, that we need to make the main thing 
the main thing. Right? So and not get too, that sometimes I 
think some of their work is not as helpful to focusing on what 
is the driving impulse here, right? So I want to focus on what 
I think, and I think everybody in this room knows, that I 
believe is the main thing which is understanding the human 
brain. And the chairman is going to, we are going to have a 
hearing next week. But I see you list this as one of the cross-
foundation investments. And I want to make a point.
    I was out at a university and saw a young lady who is 51, 
she has lost complete control of any part of her body. But she 
was able to move an artificial arm, give me a high five, give 
me a fist pump, using her thoughts. And this is out of some 
National Science Foundation research. Thirty years ago there 
was a scientist, who was the same one I met 30 years later. He 
got a grant from you because he said he wanted to see what 
happened in the brains of a chimpanzee when the chimp moved his 
arm. You know, what neurons fired off? And anyway, this 
research has been funded, and funded, and funded. And now it 
has interceded in the lives of people who are suffering from 
debilitating diseases, where their brains are completely there 
but their ability to control their body is not. So I want to 
say that the work of the Foundation is very important. And I 
want to, the point that I wanted to ask you about is it says in 
the, this ``Understanding the Human Brain'' that the 
administration's brain research, that sentence right there. 
Because the members of this committee, we think that the 
administration's brain research effort is really, has a 
paternity that is shared in with the Congress. That we created 
some language in 2011, I sent a member of the staff of this 
committee, Darek Newby, over to the National Science 
Foundation. He met unit by unit with the directorate around 
what was being done about the human brain. Out of that we 
passed some bipartisan language that created this brain 
initiative. And I just want, when the administration comes 
over, and I love the administration, is to make sure that they 
are aware that this is a, this is an effort that is joined in 
with the Congress. This is not something that the 
administration just decided to go do.
    And it is important because this administration, in 20 
months or so we will have a new administration. So it is 
important that you understand and the Foundation understands 
that the Congress, Chairman Rogers has been very interested in 
addiction issues. And the chairman and I, we have met numerous 
times on this issue. That is one of the reasons why we are 
holding a hearing on this. So I just want to make the point 
that this is not an executive branch activity solely. This is 
an activity that the United States Congress and the 
administration share in, understanding how important this is. 
So if you would like to respond, please.
    Dr. Cordova. Thank you. Yes, the administration's brain 
initiative that focuses on developing new neurotechnologies is 
part of, but only a part of, NSF's efforts going forward, and 
just a part of our Understanding the Brain cross-directorate 
initiative, which includes cognitive science and neuroscience, 
and always has. We have always funded brain research at the NSF 
at the basic level
    This time we are hoping with the new expanded initiative to 
involve engineering. I have the Head of Engineering here, 
Pramod Khargonekar, with me, and they are interested in a more 
systems approach to Understanding the Brain. And also 
physicists, and chemists, and getting more people involved, 
because we think that new discoveries will come from that.
    Mr. Fattah. I just want the record to be clear. So we have 
created language in the report that required the creation of 
the interagency working group.
    Dr. Cordova. Right.
    Mr. Fattah. It was co-chaired by NSF and NIH.
    Dr. Cordova. Mm-hmm.
    Mr. Fattah. And that the brain initiative is an outgrowth 
thereof. So that I just think it as important so we can be as 
supportive as we want to be, that you include an understanding 
that the Congress shares totally in this effort.
    Dr. Cordova. Thank you.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Mr. Jenkins.

                          GREEN BANK TELESCOPE

    Mr. Jenkins. Thank you, Mr. Chairman. I was taking a quick 
look. The temperature in Honolulu is 64 degrees right now. At 
Green Bank, West Virginia, where there is another telescope, we 
are going to get up to 64. So it is not driven by the weather 
that you are wanting to go to Hawaii. And I am excited to know 
of your interest in visiting a telescope, because we proudly 
have the Green Bank Telescope in my district. And it is only 
four and a half hours away, so we will be happy to do a field 
visit.
    Good morning, and welcome. I am glad to have you. And for 
the members of the subcommittee I had the honor of having 
dinner with the EPSCoR folks and having an opportunity to sit 
with and talk with the Director at that time. So thank you very 
much.
    I would like to delve in a little bit. I visited Green Bank 
yesterday and had the opportunity to speak with the Director 
there, Director Dr. Karen O'Neil. Give me if you would not 
mind, Madam Director, the current NSF funding vis a vis that 
project? Obviously I am most interested in the Astronomy 
Portfolio Review Committee's recommendation from two years ago 
and where this project sits vis a vis this particular budget.
    Dr. Cordova. Mm-hmm. So Congressman Jenkins, we do, as I 
said in my opening remarks, really listen to decadal surveys. 
And there is an astronomy, the most recent decadal survey, and 
then followed up by as you pointed out the Astronomy Portfolio 
Review, in which they, within the context of a projected 
budget, set priorities. And because our budget is limited, we, 
in an effort to do new things and expand our horizons, also 
need to look with an eye to divest things that have been going 
on for a long time and afford us, with a careful divestment, of 
the opportunity of doing new things with limited dollars. And 
so the Astronomy Portfolio Review did identify Green Bank, 
among several other telescopes as you know, as being one to be 
divested. But the astronomy group does not do that lightly. So 
we have had an ongoing study, and we should have a report by 
the middle of this calendar year, on what the environmental 
landscape looks like, what potential partners could be. And we 
would like to proceed in a very careful orderly fashion.
    I personally have talked with the President of West 
Virginia University about this and his deep passion for this 
telescope, and also previously with Senator Rockefeller, of 
course, who shared that passion. And we are, we are committed 
to doing the right thing. And a lot of these telescopes, of 
course, once they have been operating a long time are great for 
raising new students and giving them an awareness of the 
universe and an opportunity. And so we are looking at outreach 
opportunities, we are looking at training opportunities. And we 
will let you know just as soon as that study is done of what 
divestment options are possible.
    Mr. Jenkins. Is there a basic philosophy? What I am hearing 
you say, and there is no direct correlation I assume between 
the budget request as the chair indicated, the proposed budget 
is actually higher than what you are currently funded at, is 
that correct?
    Dr. Cordova. That is right.
    Mr. Jenkins. So while you are seeking more money, what you 
are saying philosophically is that through this process you go 
in and evaluate projects and through this review structure you 
then may divest yourself. So out with the old, in with the new? 
Is this a process you go through? So regardless of where we 
stand budgetarily, there is no direct correlation necessarily 
between the funding you receive and the projects you are going 
to fund over the course of the year?

                     ASTRONOMY FACILITY PRIORITIES

    Dr. Cordova. Well Congressman, there is a great indirect 
correlation. Because if we were, I mean, astronomy is a very 
expensive field. And these telescopes we were talking about 
earlier, LSST and DKIST among them, are big costly facilities 
which are deemed appropriate by the scientists and really the 
whole astronomy world comes together in this priority setting 
exercise. And so the budget, as you pointed out the budget 
request is 5.2 percent higher. That is not enough. It is over 
all fields of science and engineering, as you know. So there 
are budget numbers that are given, both constant and just a 
little bit of increase, to these review committees when they 
get together. And it is in that context that they make these 
decisions.
    Mr. Jenkins. What is your power and authority in the 
funding mechanism? You know, after Congress, you know, passes a 
budget, or through whatever mechanisms you are funded, it seems 
to me the ball is then in your court and you are in the, 
theoretically the bully pulpit. You are the holder of the purse 
strings. People come to you through their application process. 
You are the decider. What leverage, because I think you would 
have a significant amount of leverage. Because I know Green 
Bank, for example, works with NASA, they work with EPSCoR, they 
work with the STEM emphasis in education, higher ed 
institutions like WVU. I politely want to challenge the NSF to 
take what I believe is an asset like Green Bank Telescope, the 
only fully directional telescope in the world, and all of those 
players around, and challenge them to step up to the plate and 
engage in a collaborative way. Because I would think you would 
want one plus one to equal three. Let us figure out how to use 
your dollars, taxpayer dollars that are appropriated through 
this process, to their maximum extent possible. Could I 
challenge you to get the NASA folks, and the higher ed 
institutions, and others to try to work collaboratively? And as 
you, through this process, these coming months, let us see if 
we cannot take a critically important asset and make it as 
useful as possible so the next time we have a review committee 
they say we cannot afford to lose this.
    Dr. Cordova. Right. Well, I accept your challenge, 
Congressman Jenkins, and look forward to working with you.
    Mr. Jenkins. Thank you, Madam Director. Thank you, Mr. 
Chairman.
    Mr. Culberson. I know that Mr. Serrano would feel the same 
way about the Arecibo Telescope as well. And it is vitally 
important that we protect these assets, and at the very least 
that we are working to make sure that if indeed, they are shut 
down that we have replaced them. But it is a vitally important 
facility----
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Culberson [continuing]. At Green Bank as well as 
Arecibo.
    Dr. Cordova. Yes. And I have talked as early as just one 
week ago with Administrator Bolden about the Arecibo Telescope. 
As you know, he has visited it recently. And so NASA is one of 
the potential partners. And divesting does not mean that it 
will not continue, it simply means that our share in it will be 
different at the end of it. And that is, that is not an 
unwelcome outcome if we have good partners and it can be 
sustained to do good science.
    Mr. Culberson. And my concern is the same as Mr. Jenkins, 
and I know everyone on the committee, when I ask about the 
Inspector General and the independent cost verification and the 
audits. It is because it is so important to protect your 
sterling reputation, and we do everything we can to make sure 
that the public understands that you are spending their hard 
earned money wisely and carefully and that you have done 
everything you can to ensure that, as Mr. Fattah said, it would 
certainly help with the Pentagon, you have got the ability to 
have independent outside cost verification and audits. So let 
me at this time recognize Mr. Kilmer.

          SCIENTIFIC COLLABORATION BETWEEN THE U.S. AND ISRAEL

    Mr. Kilmer. Thank you, Mr. Chairman. And thanks for being 
with us. Last year Congress established a national policy under 
the U.S.-Israel Strategic Partnership Act to pursue 
opportunities to deepen the relationship between the U.S. and 
Israel. And I understand the NSF is currently pursuing some 
collaborative research between researchers and engineers in our 
two countries. I am supportive of that and I would like to see 
that level of activity expanded. Does the NSF plan to continue 
supporting collaborative research between, within academic 
research between the U.S. and Israel and plan on expanding the 
breadth and depth of support for additional research between 
our two nations?
    Dr. Cordova. Good morning, Congressman Kilmer.
    Mr. Kilmer. Thanks.
    Dr. Cordova. NSF does support significant collaborations 
between U.S. and Israeli researchers as you pointed out. In 
fact, I went through the tables and counted 57 such 
collaborations. These are typically as you know bottom up or 
researcher driven. However, in some areas there are specific 
opportunities that encourage U.S.-Israeli collaborations and 
these are built upon clusters of excellence that exist in both 
the U.S. and Israel.
    I have made three trips to Israel myself, in fact I have an 
honorary degree from Ben-Gurion University of the Negev. And I 
have seen the great technology prowess of many, many 
universities in areas where mutual collaboration is definitely 
warranted. So we look forward to, we do not set aside, as you 
know, particular money to collaborate with particular countries 
in general. But we are increasingly collaborating with 
international partners at the forefront of science.
    And let me add something of interest also in response to 
your question, and to Ranking Member Fattah's question. Today 
we are putting out a public press release that announces the 
new head of our International Science and Engineering Office. 
And this is an office which you approved in our spending plan 
that to give it the proper attention I would separate it out as 
directly reporting to me, and now we have a new Head. And I 
think you will be pleased. I do not know if the notice has come 
out now, or in an hour from now, but I think you will be 
pleased to see who is going to be leading that and her 
background.

                      SUPPORT FOR ARCTIC RESEARCH

    Mr. Kilmer. I want to go to a different part of the world. 
As the Arctic is becoming more and more navigable its 
importance to our national security also rises in importance. 
You know, I understand that NSF is making some investments to 
study the Arctic, such as Sikuliaq, the Arctic Observing 
Network. What are the NSF's plans for enhancing funding to the 
Geosciences Directorate to utilize that infrastructure 
investment and how does NSF plan to respond to the need for 
enhanced arctic research and effective infrastructure 
utilization within Geo?
    Dr. Cordova. The NSF recognizes of course the importance of 
arctic research and I am the Chair of a subcommittee of the 
National Science and Technology Council, which is an 
interagency committee devoted to research in the arctic. We 
spend at NSF about $150 million per year on arctic research, 
with about $100 million by the arctic section of Polar Programs 
and the remainder distributed throughout other programs in the 
agency.

                  OCEAN OBSERVATIONS INITIATIVE UPDATE

    Mr. Kilmer. One final question. Can you give me an update 
on the status of how the cables and sensors of the Ocean 
Observation Initiative are operating, and what the long term 
operation and maintenance plans are for the Ocean Observing 
Initiative within the NSF?
    Dr. Cordova. My understanding is that the cables are 
working very well, especially in the Pacific Northwest region. 
And they are a model for the investment. I personally am very 
much looking forward to our OOI getting fully implemented, 
which as you know will be very soon.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Culberson. Thank you very much. Mr. Jolly?

            THE ROLE OF COMMUNITY COLLEGES IN STEM EDUCATION

    Mr. Jolly. Thank you, Mr. Chairman. Thank you for being 
here. I do not think I have ever had the opportunity to have a 
conversation with an astrophysicist, so thank you for being 
here.
    I had an opportunity to visit with your team earlier this 
year on the broadening contribution of community colleges when 
it comes to STEM. And I would like to talk to you just briefly, 
get your thoughts, your vision, in terms of the Foundation's 
mission when it comes to STEM, and the evolution of community 
colleges from the fifties, when you know the original mission 
of NSF was stood up. The community colleges today have become a 
first choice institution for many students. The offerings, the 
portfolio are now four-year degrees, many of them focusing on 
STEM, many of them competitive with research universities in 
terms of the education in the sciences, the ability to 
contribute to the work force of the sciences, of engineering. 
And you know, clearly they are not research universities, I 
recognize that. But how has the mission evolved at NSF to begin 
to recognize and include contributions from community colleges? 
Particularly in the broader mission of having a population and 
a work force that is trained in the sciences, but perhaps in a 
way that does not reach the level of basic research, extensive 
basic research I should say, but still contributes to how our 
national STEM needs as well as our work force STEM needs, where 
is NSF in that process? And what is your vision of it coming 
from a research university background?
    Dr. Cordova. Thank you, Congressman Jolly. Yes, I also have 
a background in a system, the University of California system 
that you might know has many, many community colleges. And I 
spent a lot of my time as Vice Chancellor at U.C. Santa Barbara 
and then Chancellor of the U.C. Riverside campuses being 
concerned with students migrating from community colleges to 
the University of California and the Cal State campuses.
    I was also very much struck by a report that the California 
Council on Science and Technology did which showed that fully 
half of the science and engineers baccalaureates in the 
University of California system had their start at the 
community colleges. So that is a huge impetus. So that is one 
thing.
    Another is in our Broadening Participation initiative, and 
as you know we have a big cross-directorate initiative for 
fiscal year 2016 called INCLUDES, and one of its purposes, its 
main purpose, is to broaden participation. As Congressman 
Fattah said, many of the international folks are being called 
back home. We have to further develop our own STEM national 
workforce. And the community colleges are a great place for 
this. They also represent, as you know from Florida, a 
significant change in the demography and we want to capture the 
hearts and minds. And from an astrophysicist, there is nothing 
like talking about the universe to do that for our students.
    So how have we actualized that? We do have programs. And I 
have with me our Head of Education and Human Resources' Joan 
Ferrini-Mundy, who can describe more in follow up information 
on specific programs from community colleges. I know of a 
recent one since I have come on board, which is two dear 
colleague letters to these universities, especially the 
Hispanic-serving ones, to have them make proposals to fund more 
research experiences for undergraduate students at the 
community colleges. There is nothing like an undergraduate 
research experience. And I had such an experience and it 
changed my life.
    Mr. Jolly. Sure.
    Dr. Cordova. And Dr. Varmus at the National Cancer 
institute will tell you the same thing, that we both changed 
from being English majors to becoming scientists because of our 
research experience.
    Mr. Jolly. And now you are here. I do not know if you have 
done something right or wrong----
    Dr. Cordova. Oh, I am here.
    Mr. Jolly [continuing]. And we had a great visit with Ms. 
Mundy, and I want to compliment your leadership team. And we 
have talked about this. And the reason I bring it up on the 
record is really, I represent a community that does have major 
research universities nearby but the fact is it is a community 
where because of the cost of higher education these days, and 
because of the quality of four-year degrees now offered at what 
traditionally had been two-year colleges in the fifties and 
sixties when NSF was first founded, it is a different landscape 
in higher education now and it is an opportunity to capture a 
very different student base that perhaps we had not had the 
opportunity before. I think it is a great opportunity for NSF 
and for us as a country.
    Dr. Cordova. Yes. And I completely agree with that. I have 
been informed that we are investing $66 million in Advanced 
Technology Education for community colleges----
    Mr. Jolly. Sure.
    Dr. Cordova [continuing]. In addition.

                          THE BRAIN INITIATIVE

    Mr. Jolly. Thank you. And if I, is my time up? Do I have 
another--I just wanted very briefly on the brain initiative, 
and I concur with Mr. Fattah's comments. What is your 
assessment of where we are? What is the maturation in terms of 
current resources, results to be expected? I mean, is this an 
area that we are expecting breakthroughs? And if so, are the 
current resources sufficient? Is it an area for dramatic 
discoveries if we were to increase that investment?
    Dr. Cordova. I think it is absolutely the area for the most 
dramatic advances. You know, it is interesting that we spend a 
lot to explore the first moments of our universe. We spend a 
lot to explore the nature of matter and particle accelerators. 
And the most complex organ that we know of in the universe is 
ourselves, our brains. And we know the least about that. There 
is a huge horizon for understanding it better. And I compare it 
to the days, my early days, when astronomy changed to 
astrophysics. The astronomers of yore collected photographic 
plates of the heavens and they made a lot of advances. In my 
own field, which is high energy astrophysics, so you have to 
get above the atmosphere, the real advances came when the 
physicists and engineers stepped into the picture. And they 
said we can launch rockets and satellites and new kinds of 
detectors, new sensors that we are developing through our young 
brains. And they made incredible advances. The field I ended up 
in, x-ray astronomy: we did not know there were x-rays given 
off by other astrophysical sources. And we do now because of 
technology. And so it is technology, I think in part, that will 
give us a better understanding. And that is why the emphasis on 
neurotechnologies, on how to image the brain in real time. And 
in addition through our social and behavioral sciences we will 
understand more about how people react and understand more 
about the behavior of the brain. But both are necessary. We 
need the technologies in order to really investigate the brain.
    Mr. Jolly. Thank you very much. Mr. Chairman, thank you. I 
yield back my second round.
    Mr. Culberson. Thank you. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And welcome, Dr. 
Cordova. Thank you for joining us today. I would like to 
commend you for your efforts to advance America's scientific 
leadership. And for decades the U.S. has been seen as a beacon 
for encouraging free thought, which you were just talking 
about, and supporting fundamental scientific research. Students 
and innovators from around the world have flocked to the U.S. 
to study and do research. And the research they perform not 
only pushes the bounds of our understanding of the universe but 
also directly fosters U.S. prosperity and global leadership and 
awards for the social sciences.
    Much of this fundamental research, scientific discovery, 
and promotion of STEM education supporting tech innovation is 
supported directly by the NSF and the programs your agency 
supports play a major role in keeping the U.S. on the cutting 
edge of science and engineering and truly makes the U.S. the 
innovation capital of the world. And so I look forward to 
working with my colleagues on this committee to make sure that 
NSF has adequate resources to continue to support scientific 
research, from anthropology to zoology, through scientific 
advances that will push the bounds of human understanding and 
inspire future generations of innovators and power the present 
and future U.S. economy.
    Having said that, one of my staffers is an astrophysicist 
from the University of Santa Cruz. So he was very excited about 
your background.
    Dr. Cordova. Wonderful. I have a t-shirt with Santa Cruz 
and my own field on it, cataclysmic variable star with U.C. 
Santa Cruz on it.
    Mr. Honda. With that----
    Dr. Cordova. I just want to connect.

                       HIGH PERFORMANCE COMPUTING

    Mr. Honda [continuing]. Reclaiming my time, in the area of 
high performance computing, I commend NSF for its important and 
historic role in advancing our nation's competitiveness through 
the support of a vast computing infrastructure and the science 
and engineering applications it enables because that is 
critical. The NSF should plan and commit its vision for 
maintaining and modernizing this world class big data and high 
performance computing that supports all areas of scientific 
research and education, including the most demanding and 
challenging science problems. And in view of the NSF's 
considerable expertise in high performance computing for open 
science, what is NSF's plan to maintain and modernize its high 
performance computing infrastructure, software, and 
applications?
    Dr. Cordova. We have, as you know, a whole division that is 
focused on computing infrastructure information for science and 
engineering. And we have a lot of assets around the United 
States in high performance computing. In previous testimony I 
have talked about results from the Blue Waters computer, and 
from the Texas Stampede computers. But those are only two of 
the many facilities that we have. So I would be very happy, 
Congressman Honda, to provide you with backup materials that 
describe all of those assets and exactly what the plan is for 
advanced computing infrastructure going forward.
    [The information follows:]
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
     IMPORTANCE OF FUNDING A WIDE VARIETY OF SCIENTIFIC DISCIPLINES

    Mr. Honda. Thank you. In the last Congress we saw an 
unprecedented expansion of congressional interaction with NSF's 
scientific grant award process. And the NSF was required to 
share a large number of documents and correspondence relating 
to projects that were funded by the Foundation. The intended 
goal of gaining access to the information seemed to be to 
demonstrate how some research programs, particular those in the 
social and behavioral sciences, were not in the ``national 
interest,'' and that it was wasteful and irresponsible of NSF 
to fund them. This targeting and the mischaracterization of 
social and behavioral science through a 15-second inflammatory 
sound byte rather than being thoughtful discussions and in an 
informed debate, was very troubling to me. And the funding and 
publishing of scientific research needs to remain in the hands 
of scientists and the peer review process and not subject to a 
lot of the political pressures that we impose. Could you speak, 
and you mentioned earlier, speak briefly to this point, and 
perhaps give some examples to highlight the important of 
funding a wide variety of sciences, including social and 
behavioral sciences? And how is the funding of social science 
in America's national interest, since you mentioned briefly 
about neuroscience also? So I would be very interested in 
hearing your response to that.
    Dr. Cordova. Right. Well, thank you. Well, clearly we 
believe that the social and behavioral and economic sciences is 
a vital part of our whole portfolio. In fact, so vital that if 
one looks in detail at our cross-directorate initiatives for 
fiscal year 2016, one can see that the social and behavioral 
sciences are very much involved in all of those.
    The social and behavioral and economic sciences study with 
scientific tools the behavior of institutions and individuals 
and response to change. SBE is NSF's smallest research 
directorate, representing less than five percent--
    Mr. Honda. Mm-hmm.
    Dr. Cordova [continuing]. Of the total of NSF's research 
and related activities account, and around three percent of its 
total portfolio. The impact of the social and behavioral 
sciences has been enormous. You asked for a couple of examples. 
I will just give you a very few. We contributed mightily in the 
social sciences to the FCC's notion of spectrum auctions, which 
have netted over $60 billion in revenue for the federal 
government. That is the apportioning of the airwaves via a 
practical application of game theory and experimental 
economics. Almost 20,000 kidney transplants take place in the 
U.S. each year and the waiting list continues to grow. A Nobel 
Prize Winner funded by NSF led a team of researchers that 
developed a computational technique that greatly expanded the 
pool of safe exchanges in the chain of cooperating pairs of 
donors and recipients. A third example would be in SBE-funded 
research that studied nonverbal communication cues that has 
been picked up by the Army, specifically the Army Research 
Institute, which now incorporates nonverbal communication 
education into soldier training. And you can imagine where that 
would be very important. And then in the mid-1980s that 
directorate, SBE, made a commitment to fund the National Center 
for Geographic Information and Analysis at three universities. 
I had the opportunity to visit one of those and see close 
hand----
    Mr. Honda. Mm-hmm.
    Dr. Cordova [continuing]. The tremendous things they are 
doing. And it has really changed the whole development of the 
multibillion dollar geographic information industry. So those 
are just a few select examples.
    Mr. Honda. Thank you very much. Thank you, Mr. Chairman.

                 SAFEGUARDING THE TAXPAYERS INVESTMENT

    Mr. Culberson. Thank you. I completely agree that the work 
that you do and the grants that you award, the scientific 
research that is conducted by universities and researchers 
across the country, should be driven by the facts and the 
sciences and all of us should do everything we can to eliminate 
political considerations from those decisions. But as each one 
of us are responsible to our constituents to ensure that we are 
doing our best to ensure our constituents have faith that we 
are spending their money wisely. We are sort of, in a sense we 
are trustees of the public treasury. I do think it is important 
that the NSF do everything you can to be careful when the 
awards that you give out. Do not do anything to damage your 
sterling reputation. Always think about how would a taxpayer 
see this research? If a taxpayer reads about this on the front 
page of the New York Times, or reads about it, what would be 
the reaction of the average taxpayers to how you are spending 
their money? I think the reputation of the NSF is the greatest 
in the world and we will do everything on this committee to 
help protect you from political influence, whether it be from 
the right or the left. But do be keenly aware--you have a 
marvelous reputation to protect and be conscious that dollars 
we spend are hard earned and very precious and very scarce. 
From my perspective the most important thing is to ensure that 
none of the grants that you give are going to do anything to 
damage or diminish that sterling reputation, that you are 
following the facts and letting science lead the National 
Science Foundation----
    Dr. Cordova. Mm-hmm.
    Mr. Culberson [continuing]. To discover the true nature of 
the universe. The cutting edge research that you have, we can 
continue to fund it and have the faith and trust of the 
taxpayers.
    Dr. Cordova. Great. Well, I am hoping, Mr. Chairman, that 
our recent instructions, our guidance as of the beginning of 
this year--it came out at the same time as the new OMB guidance 
at the end of December--our guidance to investigators to now 
have a non-technical part of their abstract that will directly 
address how the science that they are proposing serves the 
national interest will really serve to have that moment of 
focus in which we all take cognizance of what you just said, 
how important it is to do just that.
    Mr. Fattah. Mr. Chairman, if you would yield for just one 
second, because I think that the Congress--and as President 
Truman signed the National Science Foundation into existence--
the Congress set it up so that it would be a merit-based 
process with the National Science Board and so on. I do not 
think that is divorced from political guidance. So, when 
President Kennedy went to Rice University in 1961 and said, you 
know, we are going to put a man on the moon, given that is our 
policy direction from an elected official about direction and 
where we are going and what we are going to do; that is not 
trying to be an engineer, though.
    So, I think there is a happy mix. There are issues that are 
important to the country and to the country's, you know, 
challenges that the Congress needs to set appropriate 
direction, but I do not think that we should ever get in the 
middle of discerning, you know, from a merit-based process, you 
know, what science might be. I mentioned this point earlier 
about a scientist funded 30 years ago to look at what neurons 
might fire in the brain of a monkey, that would have been 
laughed at on the floor of the Congress, but nobody is laughing 
now because it is helping people to be able to control movement 
through their thoughts. But this is the same absolute same 
researcher, research staff and focus from three decades ago, 
so, you know, we have to find a happy marriage, and I trust my 
Chairman, as we go forward.
    Mr. Culberson. And we will do it together, arm in arm. That 
is why I have also been such a big believer in the decadal 
surveys as the gold standard----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. As the North star by which we 
should guide our strategic plan for the decade ahead, whether 
it be in heliophysics, astrophysics, the earth sciences, the 
planetary sciences. I would love to--I really and sincerely ask 
the subcommittee's help and anybody out there to help us figure 
out how do you do a decadal survey for the manned space 
program? I do not know how you conquer--untie that knot. The 
decadal survey is designed to identify strategic goals for the 
decade ahead that are apolitical, based on the merits, in a 
peer-review process. That is what I know all of us on this 
subcommittee want to see the National Science Foundation do in 
the precious, scarce, hard-earned tax dollars that you are 
responsible for spending. We want to make sure that you are 
investing them carefully, following a strategic plan like that, 
that is apolitical and I think that is the intent.
    Mr. Honda is correct to point out, we do not want to insert 
politics into your work. But, with President Kennedy's guidance 
to the nation, that it was in the national interest to go to 
the moon and do it first--we are delighted that you are leading 
the agency.
    And I have taken too much time. I want to recognize my good 
friend from Alabama, Ms. Roby.

                        IMPROVING STEM EDUCATION

    Mrs. Roby. Thank you, Mr. Chairman, and thank you, Dr. 
Cordova, for being here today.
    I do want to quickly point out I have some family members 
with me, some cousins of mine from Alabama that are here 
visiting, and we were walking over--I am dragging them to all 
my hearings. I want them to see Congress at work, and I have 
explained this is sometimes the only exercise we get, running 
up and down these concrete halls in high heels.
    But, we were talking on the way over, as I was explaining 
what this hearing was about, they are the beneficiaries of STEM 
education, which is what I wanted to talk about today, and I 
understand my colleague, Mr. Jolly already touched on this a 
little bit, but, you know, efforts to improve and advance 
science and technology, engineering and mathematics is a top 
priority for me.
    And in my home state of Alabama, I have witnessed how STEM 
education can be used as an effective and innovative tool in 
the modern classroom. I was at a school in Huntsville, Alabama, 
where the partner with the school, at a STEM elementary school, 
and they were learning how to make a mechanical finger. It was 
very impressive stuff. And I understand that in this year's 
National Science Foundation's budget, you provide a total of 
$1.2 billion for STEM education.
    I am interested in learning more about your new initiative 
to improve STEM and mainly, as it relates to traditionally 
underserved students. So, I know Mr. Jolly touched on this, but 
if you do not mind?
    Dr. Cordova. Yes, he did.
    No, I would be very happy to do it, and let me also welcome 
your family members here.
    Mrs. Roby. Thank you.
    Dr. Cordova. It is good to see you.
    And I would like to point out to them that the leader of 
our STEM initiatives, Joan Ferrini-Mundy--Joan, if you would 
raise your hand--is here. Yes, is great that you brought them 
here.
    So, yes, we do--so, let me say to all that we--the NSF 
spends considerable monies across all the directorates--it is 
not just in Dr. Ferrini-Mundy's division--on what we call 
broadening participation. And that is to encourage students at 
all age levels, young and older, to get involved in STEM--
science, technology, engineering, and math--and perhaps just be 
happy to be inspired by it, like I was inspired by looking at 
the night sky when I was a young woman. And that encouraged me 
to become an astrophysicist, where I could ask questions and do 
studies of the stars and galaxies, or even become a scientist 
or engineer.
    And so we have many, many programs, and in the new budget 
that we are proposing,--one of our four major initiatives is 
called INCLUDES; it is an acronym, but it also just stands on 
its own. It is to include more people in the whole science and 
engineering enterprise. And what we are trying to do is the 
following, we have a lot of great efforts going on everywhere I 
go across the country, and I do make many visits to 
universities and colleges and schools. I see wonderful outreach 
efforts, everything from science fairs to very sophisticated 
involvement of undergraduates and graduate students in science.
    And what we do not see, what we realized is lacking, is 
that other places do not know of these great efforts, and so we 
are trying to build, as I know the Chairman has asked us to do 
so, an online resource, for one thing, so that teachers--I have 
a daughter who is a teacher of young students in elementary 
school--so that they will have the tools that they need in 
order to help students do more experimentation, enjoy science, 
and really understand better, the scientific method that leads 
to discovery and innovation.
    So INCLUDES is an effort to network all the good stuff that 
we are already doing across the country in a much more profound 
way in order to raise the next generation to be more involved 
and knowledgeable about science and engineering.

                  CYBERCORPS: SCHOLARSHIPS FOR SERVICE

    Mrs. Roby. That is great, and I appreciate you taking the 
time to go through that with me.
    My time is going to expire, but very quickly, the 
cybersecurity has become you know, very important, a major 
career in this century and many of our youth are fully engaged 
with cybertechnologies at a young age. Can you give us an 
example of how, examples of how NSF's CyberCorps: Scholarships 
for Service programs have allowed students to advance--and my 
time is expired--to advance into careers of cybers?
    Dr. Cordova. Yes, and we will be happy to give you the 
details on that. We have made a big investment in that at the 
urging of Congress, that our students who are getting more 
cybersecurity education are then getting the opportunities to 
work for those agencies that are really very involved in it, 
and we think this is a great contribution to the nation. And 
when I talk with university presidents, it has actually 
encouraged them to have new curriculum in their universities 
for students who want to learn more about cybersecurity. It is 
obviously something that is incredibly important to us on a 
very personal level, if you buy something online, and a much 
bigger level, when it comes to agencies and companies and all 
the assets that they have. We want to protect them, so, yes, we 
have a big commitment there.
    [The information follows:]
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mrs. Roby. To international security, as well.
    Mr. Fattah. If the Gentlelady would yield for one second?
    Mrs. Roby. Yes, sir.

                      WOMEN IN THE STEM WORKFORCE

    Mr. Fattah. One of your questions about STEM education, one 
of the areas is how to get more young women. And as one of the 
leading scientists in the world, you, obviously, are in a 
unique position, but the Foundation has set up some additional 
policies to make it more likely that researchers can stay and 
do the work they do, notwithstanding some of life's 
circumstances as they develop.
    I was in Israel last week and I met with the head of the 
Weizmann Institute and they have a very interesting program 
where because sometimes when they are trying to track women 
scientist, they have challenges with the family making a 
decision, and so they just decided, Mr. Chairman, to do it the 
old-fashioned way, and they increased the offer by fifty 
percent and they have been very successful. I met some great 
scientists there.
    But if you would talk a little bit about some of the 
policies that have been implemented and how that has helped the 
Foundation in this regard, that might be useful.
    Dr. Cordova. We do have a program called ADVANCE, which is 
a program at universities to help women go through the whole 
university pipeline. I was actually the principal investigator 
for that program at Purdue University, and this has been 
extremely successful in ensuring that women are given every 
consideration in advancing along from being post-docs to 
beginning professors and then eventually full professors.
    We also have a lot of family-friendly policies that we have 
adopted in our Career-Life Balance program, and that is 
available to our young scientists called career scientists and 
our post-docs. And I, again, in going around to universities, I 
always meet separately with groups of young women or young 
career scientists and minority scientists, as well, to listen 
to their particular struggles and how well is NSF doing in 
providing them with lifelines. They are very, very pleased at 
the Career-Life Balance. This means if they are going to have a 
child, we do some special things to give them extra 
consideration for timing and extra money for technical support. 
So we actually do give financial resources to help with their 
balance of life and career.
    Mrs. Roby. I guess I will yield back.
    Thank you, Mr. Chairman.
    Mr. Culberson. Of course.

                     DR. CORDOVA'S EXAMPLE IN STEM

    To follow up on those worthwhile questions, I would just 
like to ask you an open-ended question. Tell us a little bit 
about your own story, for the young ladies that came in with 
Ms. Roby and other young people watching you here today. Tell 
us a little bit about your early life and what led you to make 
the decision to become a scientist and what led you to Stanford 
and then what led you on to Caltech, two great universities.
    Dr. Cordova. Let's see, so how much time?
    Mr. Culberson. No, in thinking in terms of who is listening 
to you----
    Dr. Cordova. Yes, of course.
    Mr. Culberson [continuing]. These young ladies out here--
what inspiration, guidance, advice can you give them and other 
young people?
    Dr. Cordova. Thank you.
    Well, first of all, I think inspiration can come from 
almost any source, and it has been very interesting to me in my 
own career. My first inspiration was--this was before we had 
Google--was in something called the World Book Encyclopedia. 
Anybody remember that? Yes. And so I was doing a science fair 
project and I opened it up to the atom and I saw the Bohr model 
of the atom, which any scientist will tell you is not a very 
good model anymore, but it was the questions. When I saw that 
the questions you ask are ``How do we know that?'' That is such 
an important question. When you hear about discoveries that are 
made and if you say that is amazing, how do scientists know 
that that is true? Well, the whole pursuit of science is about 
finding out the truth, and the truth is beautiful. I mean, that 
is the other thing that you learn, is that when you discover 
something for the first time.
    And so to rapid, fast-forward my own career, in graduate 
school, when I was getting all null results on a class of star 
that I was looking at with telescopes on satellites, I was 
notified by an amateur astronomer that one of my star systems--
they are binary systems--went into outburst. And I had enough 
chutzpah to confront my advisor and say, Let's use the last 
remaining gas on this telescope--it was managed by NASA Goddard 
Space Flight Center--to point at this object because I think 
you are going to see something extraordinary from it.
    And he said, How do you know that? Well, fortunately, I had 
done the reading of the theorists about what could happen, so I 
crossed my fingers behind my back and I said, Trust me, I am 
your graduate student, I know this. And they pointed the 
satellite there and it was amazing--it was the first discovery 
of soft x-ray pulsations from a close binary star, and the 
signal-to-noise was something like 200, so it was not just a 
little minuscule signal in the spectrum; it was an enormous 
thing.
    Mr. Culberson. You could detect it visually?
    Dr. Cordova. Yes, visually by amateurs dating back to 1855 
that would go into these optical outbursts. Nobody knew they 
were binary stars originally, but then they surmised that, and 
nobody knew that they would produce these copious x-rays 
because you have a degenerate star accreting mass from another 
star. So the degenerate star would, say, be a white dwarf that 
would accrete mass from a red star that was very close by, as 
close as the earth-moon connection. And all the physics that 
you learn in that process is just extraordinary.
    So like anything else, one thing leads to another. But the 
process of discovery--so let me just share with you one more 
detail. So I was at Caltech at the time as a graduate student, 
and as I said, my thesis was all null results until that point, 
and I was over the top. So I went home--my parents lived close 
by in Pasadena--and my mother was in the kitchen. We have 12 
children in our family; I have to set that stage. I came in and 
I said, you know, Mom, guess what happened? And I told her 
about these stars and the whole thing and she came up to me, 
put her hands on me and said, France, I do not understand a 
word of what you are talking about, but I understand that it is 
terribly exciting and I am just thrilled for you, and gave me a 
hug. So, you know, discovery is a beautiful thing and it leads 
many other scientists on different pathways and that is what it 
is really about.
    Mr. Fattah. Well, it is fascinating, Mr. Chairman, it is so 
fascinating that you asked this question. I am so happy, and I 
am going to capture that and put that up on my Web site so that 
school kids in my district can hear your explanation. But it is 
really this intersection between observational and theoretical 
astrophysics that really is your hallmark, so I think that for 
us, it is, you know, we are in the same space, we are in a 
different game, but it is somewhere between the observation and 
theoretical that we are going to work through your budget 
requests, and thank you.
    Mr. Culberson. And you often do not know where the research 
is going to lead, it may look like it is a dead end or a rabbit 
trail, but it could lead to revolutionary new discoveries. And 
particularly in this era of interconnectedness with the 
extraordinary advances in communication using--I mean these 
devices are now everywhere. I know that the work you have done 
in high-energy astrophysics----
    Dr. Cordova. Uh-huh.
    Mr. Culberson. They have only recently, because of the 
Internet, be able to tie gamma ray bursts when an amateur 
astronomer spots a visual----
    Dr. Cordova. Right.
    Mr. Culberson [continuing]. Outburst, because of the speed 
of the Internet. Telescopes all over the world and satellites 
are able to do today what you did intuitively as a graduate 
student, and shift the satellite or the ground-based telescope 
over----
    Dr. Cordova. Automatically.

                THE BEAUTY OF INNOVATION AND TECHNOLOGY

    Mr. Culberson. To see what a gamma ray burst is. Talk to us 
a little bit about and the value of the Internet and bringing-- 
tying together young people who you are talking to over the 
Internet and these young folks, that their work that they are 
doing as amateurs, can have a dramatic impact on----
    Dr. Cordova. Could you hold that up once more so while I 
talk?
    Mr. Culberson. Yes.
    Dr. Cordova. So this device [cellphone] that the Chairman 
is holding has many technologies that make it successful--not 
just one--everything from the plasma screens to the electronics 
to the batteries and so on. And on every one of those, I 
believe, the National Science Foundation has funded the initial 
basic research that went into that.
    What Steve Jobs did when he put together these devices 
originally was to bring him and his team, bring all those 
technologies together. And that is another amazing thing about 
innovation, is it takes many different discoveries, and it is 
this, what if I put this with this, And what could I create? 
And also, I might say he was also an artist--he took 
calligraphy in school--and so he developed this beautiful 
optional choice of font systems and all that we have.
    Mr. Culberson. Beauty is an important part of the design.
    Dr. Cordova. Beauty is what makes it possible for a woman 
to have that in her purse and you to have that in your pocket 
and it does not take up, you know, as much space as a desk.
    Mr. Culberson. Soon on our wrists.
    Dr. Cordova. Yes, and soon on our wrists or on our glasses.
    So this is very important to put together all of these 
technologies to develop these products.
    Mr. Fattah. Chairman, if you would just yield if just one 
last second?
    Mr. Culberson. Oh, no, please, continue.
    Mr. Fattah. This is just because in the Chairman's state, 
they have this event, South by Southwest.
    Mr. Culberson. South by Southwest.
    Mr. Fattah. Yeah, so we do not have that in Pennsylvania. 
We have to work on that.
    But to make your point, right, you know, there was a 
company that rolled it just 48 hours ago, a flying car deal, 
right, that puts together the Google self-driving car 
technology with aviation's well-known automatic pilot take-off 
and landing, and they have a concept that would have this car 
in 800 yards take off and land somewhere, and you do not have 
to have human interaction; that is, that the car self-drives, 
and the aviation side is autopilot, and it is the combination 
of technologies that heretofore, were separated, being united, 
which makes your point, which is why we have--even though I am 
interested in neuroscience, we have to invest in science 
broadly in order to make real achievements, because we really 
do not know in every instance what is going to come of it.
    Dr. Cordova. Absolutely.
    Mr. Culberson. Absolutely.
    Mr. Honda. And you guys are talking about my district, you 
know that. (Laughter)
    You got to remember that GPS has a part of this, so we have 
the aeronautics portion of being able to move cars around.
    Mr. Fattah. Well, you started this with the T-shirt deal, 
so this love-fest has been going.
    Mr. Culberson. Mr. Jolly, any follow-up?
    Mr. Jolly. No questions.

                          NEW NSF HEADQUARTERS

    Mr. Culberson. We have a couple questions about NSF 
headquarters. I can certainly submit those for the record. I am 
concerned about the slippage in about six months and $60 
million, according to the Inspector General. Does your budget 
request--I would ask very briefly--include that those costs 
that you are expected to incur as a result of the move and 
the----
    Dr. Cordova. No, this budget request is for this [FY16] 
year. Just a couple of sentences about the background. The 
whole shell of the building will be built out by this fall, and 
our current budget request is for information technology and 
furniture and those sorts of things to get those all ready for 
the move-in. Any costs incurred by delays, which actually, we 
are now through a lot of work and a great head of that office 
that I hired recently, has made a lot of progress in moving 
back from the worst-case scenario. You were quoting kind of 
worst-possibility numbers, so I am looking forward to this. 
Those will come in the fiscal year 2017 request, those kind of 
delays.
    But this year's request has to do with the things that GSA 
requires us to do in order to be ready for the building, which 
will be all shelled out by this fall.
    Mr. Culberson. Your 2016 request does not include any of 
those increased costs that came about----
    Dr. Cordova. No.
    Mr. Culberson [continuing]. As a result of the union 
negotiations?
    Dr. Cordova. No, and as I said, we are really trying--
working very hard to mitigate those, and as you can imagine, 
GSA is a great partner in that.
    Mr. Culberson. Do any of the--do you need all of the IT and 
furniture funds requested in 2016?
    Dr. Cordova. In 2016, yes; that is my understanding, 
because they are long-term procurements.

                   DESIGNATING FUNDING BY DIRECTORATE

    Mr. Culberson. There has been some discussion, some other 
members of Congress have suggested that we recommend specific 
science research directorate funding levels in your 
appropriations. We typically have not done so in the past, and 
would like you, if you could, to address that. Should Congress 
designate funds by science research directorate and how would 
that impact a peer-review process?
    Dr. Cordova. Okay. This is a really big deal.
    When we last did this, I believe it was in fiscal year--
when Congress last did that, it was in fiscal year 1999. Our 
budget for NSF was half of what it is now; it was $3.69 
billion.
    Mr. Culberson. However, grant requests were far smaller.
    Dr. Cordova. Far smaller. It was around half, around 30,000 
proposals, as compared to over 50,000 now.
    So that is one thing to really keep in mind, the whole 
business of the merit-review process, the recognizing as we 
have all alluded to: the decadal reports, and the workshops and 
all the community input; that is a many-months long process. We 
start thinking about our fiscal year 2017 requests and how to 
do that starting in April, and that is at my level. The 
directorates have already been thinking about how to put 
together the budget, sweeping together all of these kinds of 
inputs.
    And so the other thing--it is a very time-consuming process 
and I cannot imagine that if we had directorate-funded levels, 
then, do you really want all of those scientists and engineers 
in your office asking about--we will not use the lobbying 
word--but asking about setting priorities? We have these 
decadal types and other review processes, you know, in ocean 
science and planetary science and astronomy and astrophysics 
and so on. I have been tremendously impressed since I have come 
to NSF at how cross-disciplinary and working together all of 
the assistant directors who head the different directorates 
are, and they make these decisions about what to do and how to 
work together in order to leverage resources and make progress 
in certain areas that are deemed of great importance by the 
scientific communities, in a very rational, reasonable way.
    And we have retreats on this. I went away for a couple 
days, twice last spring/summer with the ADs to really mull in 
detail how to put together a very good budget. We have spent 
much of this hearing talking about the nature of discovery and 
how one thing can lead to the other and you have to be very 
responsive. And we are able to do that because we have the 
flexibility in the directorates by working together to be 
flexible to be cross-directorate, and also to put the budget 
together through the wisdom of the program officers and 
directors on staff, together with all this other input.
    And I think it would really be a different situation for 
Congress to have everybody in their door asking. I mean how do 
you choose, Mr. Chairman, between one telescope and another 
telescope? We have already had some telescopes discussed, at 
least four of them, at this hearing; how do we choose the 
priority in Congress without some, you know, decision-making 
process of NSF between a telescope and a ship? And there are 
just so many decisions going down to very small level in STEM 
education to, you know, the biggest facilities.
    Mr. Culberson. Those are all very valid concerns and we do 
want to do everything we can do prevent politics from being 
inserted into your decision-making process. And I think it is 
also vital that we recognize that NSF, NASA, the scientific 
experts that space--the space exploration and scientific 
research that the nation does is a strategic asset to the 
entire country, and I think it is important for none of us--
none of us should think that the work that you do or NASA does 
as either a jobs program or a parochial or a local issue; it is 
in the national interest. And by investing wisely and 
sufficiently in both the National Science Foundation and NASA, 
you are going to help all of those districts all over the 
country. So I think those are very valid concerns.

                   DEVELOPING THE NSF BUDGET REQUEST

    I would also like to ask about the--when you begin to put 
your budget together, for example, for next year in April--you 
are already beginning to kick that around right now--I assume 
at some point during the year, you have got to submit what you 
believe NSF will need next year to the Office of Management and 
Budget and then the final recommendation that we receive in 
Congress comes from OMB.
    One thing that has always aggravated me is we do not get a 
recommendation directly from the scientific community when it 
comes to NASA or NSF; we are hearing from OMB, and we ought to 
be hearing from you. Legal Services submits their budget 
recommendation directly to the Congress.
    Dr. Cordova. Uh-huh.
    Mr. Culberson. What would be your thoughts on having NSF--I 
would like to see NASA submit their recommendation directly to 
us and bypass OMB, so we are hearing the best recommendation of 
the minds in this space community, as to what this committee 
should fund. What do you think about having NSF just submit 
your budget recommendation based on the best recommendations of 
your team and following the decadal survey, directly to the 
Congress and bypass OMB?
    Dr. Cordova. Mr. Chairman, I listened carefully to your----
    Mr. Culberson. Speaking as a scientist. [Laughter.]
    Dr. Cordova [continuing]. Remarks as I----
    Mr. Fattah. If the gentlelady would yield for a second?
    Dr. Cordova. I always will.
    Mr. Fattah. I think it was a social scientist named 
Banfield who wrote a paper a long time ago called Metaphysical 
Madness, right? And it was really the choice between what 
political people would come up with and what empirical science 
would, you know. And he figured out that we would probably end 
up at about the same place, notwithstanding, you know, 
whichever way you get to it, Mr. Chairman.
    But, you know, I think that for administrative witnesses 
and administration witnesses, it is difficult for them.
    Mr. Culberson. It is difficult.
    Mr. Fattah. Step outside of their role and speak, because 
they are here representing the Administration.
    So I just yield back.
    Mr. Culberson. That is true. But speaking as a scientist--
    Dr. Cordova. Thank you. Thank you. [Laughter]
    Speaking as the head of the National Science Foundation, I 
agree.
    Mr. Culberson. I would sure like, as a matter of policy--
    Mr. Fattah. It is a great paper; it is called Metaphysical 
Madness. The scientist's name is Banfield.
    Mr. Culberson. As a believer in letting the scientists lead 
this work without political interference and then following and 
funding the best recommendations of the best minds in the 
business, I think it would be a wonderful thing for the future 
for us to find a way to have the National Science Foundation 
and NASA submit your recommendations on what you think your 
funding level needs to be directly to the Congress and bypass 
the green eye shades over at OMB, so we know what you need.
    Dr. Cordova. For the record, I do not have any comment on 
that. [Laughter.]
    Mr. Culberson. Mr. Honda.

                      DEVELOPING DIVERSITY IN STEM

    Mr. Honda. Or, you know, just jumping in this thing now. I 
think Congress probably has a fiduciary responsibility to 
produce a balanced budget that would reflect the entire values 
and aspirations of this country first so that the different 
departments and activities of this government will have 
resources from which to operate. And I think that since 2009--I 
may be wrong--but 2009, we have not had a, what you call a real 
budget, and we have not had a balanced budget for the longest 
time.
    So I think operate on the CR, but we move forward based 
upon past decisions. There is really a reduction in funding, 
and if we want to see increased funding and a broadening of our 
vistas to go beyond the moon and go towards Mars and Europa and 
places like that, we are going to have to put up or shut up. 
And I think that, you know, that is where the primary 
responsibility lies; it is with us.
    And I really appreciate the difficult position that all of 
you folks find yourselves in wanting to do--to reach for the 
stars without being tethered, and I think that the Chairman and 
the ranking member also agrees that this is what we--this is a 
dream that we would like to see because it really turns us on.
    And you mentioned different programs and several were 
touched on teaching and learning programs, and I think that one 
of the areas that NSF is helpful is creating opportunities 
through programs like LSAMP and Noyce that encourages STEM 
majors to become K12 teachers, STEM teachers. Having said that, 
and from your own background experience, I assume Latina, and 
also the aspiration of this country when we say that we want to 
have more underrepresented folks in the area of STEM, what are 
some of the things that we need to look at as congressional 
members to allow NSF to have that flexibility to move forward 
and encourage, recruit, put yourself out in front of 
populations that are underrepresented in the STEM field?
    I don't know if this question is clear, but, you know, I am 
just trying to meld, again, our understanding of society, which 
is social sciences, and the need for more representation in the 
STEM field.
    Dr. Cordova. To be a competitive vibrant nation, we do need 
to have all citizens engaged and certainly to have the access 
to science and technology and learn about those wonderful 
careers. So that is really what our initiative called INCLUDES 
for the fiscal year 2016 budget is all about, taking the 
different pieces, and you mentioned a few programs. We have a 
number that either focus on minorities, women, the disabled, or 
emphasize them more indirectly--taking all of those programs 
and maximizing their efficacy by tying them together and 
linking what we have learned in best practices so that 
knowledge base becomes something that everybody can use.
    So it is really about scaling up our efforts. That is the 
biggest challenge that we have in the United States. It is not 
that we do not have wonderful universities and high schools in 
our various districts doing great things, but we have so many 
that have no idea and could really benefit from what we are 
learning.
    So I have actually challenged our engineering directorate 
to help us think about a more systems-approach to expanding 
that knowledge base and those best practices. First, define 
what we know through evaluation and assessment, what we have 
learned, and then ensure that there is a network so that it 
connects with others so they can learn about how to do 
programs. Especially to marry programs to whatever their asset 
base is in their communities.
    This is also going to be a community-action approach where 
we call upon local groups and mayors and even governors to work 
with our science and education from kindergarten through 
university to work on this.
    Mr. Honda. Yeah. In the counts of equity, a lot of our STEM 
programs start from fifth and sixth grade and I think that we 
ought to look at neighborhoods and populations pre-K to third 
and fourth grade where we lose a lot of the youngsters that we 
say that we want to target. And in terms of equity, also, we 
seem to go towards districts and schools where there are 
programs already operating in, and with equity in mind, equity 
and resources, having NSF target their resources, both 
financial and human resources, towards school districts that 
are underperforming, but we know that there is potential there 
if you apply that resources that you have to schools like in 
impacted neighborhoods.
    And I think that is how we can bring NSF and Silicon Valley 
to Philadelphia and other places that we need to put our 
efforts in so that we can prove that there are youngsters there 
that can be successful in the STEM area, but we just haven't 
put the resources in there. And I think equity is one of those 
things that may be a principle that NSF may want to look at in 
terms of the distribution of the resources.
    Dr. Cordova. That is a point very much on the mark and we 
have been doing that, and actually, from the initial conception 
of this, we have expanded it to include the whole socioeconomic 
equation and equity, and I couldn't have more passion around 
this having my own children involved as teachers in these kinds 
of challenging school districts. So I have the vision of them 
in front of me as----
    Mr. Honda. Great. Thank you.
    Mr. Culberson. Mr. Fattah.
    Mr. Fattah. I will submit some questions for the record, 
but thank you very much.
    Mr. Culberson. I just want to thank you again for your 
service to the country. The National Science Foundation is a 
national treasure and we will do everything we can to help 
protect you, to fund you at a level that you need to continue 
to do the great work that you have been doing.
    OMB could certainly submit their own recommendation, but I 
am certainly going to do everything I can to change the law so 
that we get the best recommendations and the best minds at 
NASA, the space exploration community, and the scientific 
community when it comes to NSF, so Mr. Fattah and I and our 
colleagues know you think you need for the future, not what 
necessarily--does not matter who is in the White House--what 
the bureaucracy thinks that you need, with as little political 
interference as humanly possible. I deeply appreciate your 
service.
    Dr. Cordova. Thank you very much.
    Mr. Fattah. Mr. Chairman, this idea is growing on me. It is 
growing on me.
    Mr. Culberson. No matter who is in the White House. 
[Laughter.]
    Dr. Cordova. Thank you for your leadership.
    Mr. Culberson. Thank you, ma'am. I appreciate your service.
    And the hearing is adjourned. Thank you.
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                                          Thursday, March 26, 2015.

      OVERSIGHT HEARING--FEDERAL INVESTMENTS IN NEUROSCIENCE AND 
                            NEUROTECHNOLOGY

                               WITNESSES

JO HANDELSMAN, PH.D., ASSOCIATE DIRECTOR FOR SCIENCE, OFFICE OF SCIENCE 
    AND TECHNOLOGY POLICY
JAMES OLDS, PH.D., ASSISTANT DIRECTOR FOR BIOLOGICAL SCIENCES, NATIONAL 
    SCIENCE FOUNDATION
STEVEN HYMAN, M.D., DIRECTOR, STANLEY CENTER FOR PSYCHOLOGICAL RESEARCH 
    BROAD INSTITUTE OF MIT AND HARVARD
ZACK LYNCH, EXECUTIVE DIRECTOR, NEUROTECHNOLOGY INDUSTRY ORGANIZATION
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order.
    I want to welcome everyone to this morning's hearing to 
discuss Federal investments in neuroscience and 
neurotechnology. Our ranking member, Mr. Fattah, has been a 
champion in Congress on this very important issue for many 
years. It has been my privilege to work with Mr. Fattah, my 
predecessor Frank Wolf on this very important topic, and I 
thank him for encouraging us to have this hearing today.
    I would like to welcome our witnesses this morning, Dr. Jo 
Handelsman, associate director for science at the Office of 
Science and Technology Policy. We are delighted to have you 
with us here this morning, Dr. Handelsman, thank you. And Dr. 
James Olds, the assistant director for biological sciences at 
the National Science Foundation; and Zack Lynch, executive 
director of the Neurotechnology Industry Organization; and Dr. 
Steven Hyman, director of the Stanley Center for Psychiatric 
Research at the Broad Institute of MIT and Harvard.
    I look forward to your testimony on this vitally important 
and emerging field with exiting new developments taking place 
all the I time, and I thank you sincerely, Mr. Fattah, for 
helping put this together and making this possible and keeping 
the focus of this committee on this cutting-edge and 
extraordinarily important research, and I am looking forward 
to----
    Mr. Fattah. Thank you.
    Mr. Culberson [continuing]. Your remarks, sir.
    Mr. Fattah. Well, thank you, Mr. Chairman.
    Let me just note that in this discussion about the 
operations of the Congress and bipartisanship, that this entire 
effort has been bipartisan from the beginning. And this hearing 
is further evidence of it because the chairman has, in a very 
tight window, you know, allowed us to go forward from where we 
were last year where we had our first ever hearing in the 
appropriations process on neuroscience.
    We are to continue that this year, and I want to thank you, 
but it is not surprising because the chairman and I worked 
together on another subcommittee where we did some very, very 
important work on brain health in terms of veterans. When he 
previously chaired the Veterans and Military Construction 
Subcommittee, you know, we worked together and made major 
investments through the VA and Epilepsy Centers for Excellence 
and post-traumatic stress and suicide prevention, and on and on 
and on. And the VA, obviously, was one of the entities that--
the departments that worked with the Interagency Working Group.
    So I want to welcome our witnesses. We have done a lot in 
this committee since 2011 when we created the Interagency 
Working Group, and we are now working aggressively. We have 
doubled the amount of dollars through the National Science 
Foundation focused on this after the creation of what is called 
a budget theme, and the understanding of the brain, we are 
going to hear more about that day.
    And last year's appropriations bill moved to include an 
important element of the Nation's scientific enterprise, our 
National Labs, working with the National Science Foundation on 
the development of a national brain observatory. So I am 
excited. We are going to hear about where we are with the BRAIN 
Initiative in terms of mapping of the brain. We are going to 
hear a lot from your testimony today.
    And, again, I thank the chairman because he has through--I 
mean he has got a lot of interests in terms of space 
exploration, but it has no way had him step back from a 
commitment to make sure that we keep our eyes focused on the 
greatest scientific mystery that we know of, which is how our 
brains, which controls everything else, actually functions, and 
so I thank the chairman and look forward to your testimony.
    Mr. Culberson. Thank you, Mr. Fattah.
    This is an extraordinary and exciting subject. We are 
honored and privileged to have each one of you with us here 
today to help keep us apprised of the cutting-edge work that is 
being done in the United States and elsewhere in the world.
    And we will of course enter your written statement into the 
record without objection, and would welcome you to summarize 
your statement as best you can.
    Thank you, and we will start with you, Dr. Handelsman. 
Thank you.
    Dr. Handelsman. Thank you. Chairman Culberson, Ranking 
Member Fattah, and members of the committee, I thank you for 
the opportunity to speak today on the Federal investments in 
neuroscience and neurotechnology. The White House and OSTP 
support several neuroscience and mental health activities, 
including the Interagency Working Group in Neuroscience, the 
BRAIN Initiative, the National Alzheimer's Project, the 
initiatives to tackle mental health issues affecting veterans, 
service members, and military families.
    Diverse sectors of the American population face risks 
related to brain health--from concussions in athletes to 
Alzheimer's in the elderly. Recent studies estimate that as 
many as 5.1 million Americans age 65 and older have 
Alzheimer's; 18 percent of service members returning from Iraq 
and Afghanistan have PTSD or depression; and each year 
approximately 2.5 million civilians in the U.S. sustain a 
traumatic brain injury.
    Scientists have been exploring the underlying nature of 
these brain disorders with the hope of developing preventive 
strategies, treatments, and perhaps cures.
    One obstacle has been the absence of sufficiently sensitive 
neurotechnologies to see with precision what is happening 
inside the active brain. The Obama Administration's BRAIN 
Initiative intends to help overcome this particular obstacle. 
Since its launch in 2013, the BRAIN Initiative has grown to 
include investments from five Federal agencies--NSF, DARPA, 
IARPA, NIH, and FDA. These agencies have refined the goals of 
the BRAIN Initiative, developed funding opportunities, and 
awarded initial grants.
    Dr. Olds will share with you some of the exciting work at 
NSF.
    Work funded by other agencies is focusing on recording 
activity in the human nervous system, enhancing and developing 
new neuroimaging technologies, fostering developments in data 
handling and advanced analytics, and understanding capturing 
the brain's computational abilities.
    Federal investments of the foundation of the BRAIN 
Initiative but completion of the broad goals of this initiative 
will require complementary efforts by a variety of 
organizations outside the Federal government.
    To date, private sector partners have made commitments 
totaling over $500 million in just the first 2 years of the 
initiative.
    The Federal engagement in neuroscience is much broader than 
just the BRAIN Initiative. With the encouragement of Congress, 
including members of this committee, an Interagency Working 
Group on Neuroscience was established in 2012 to coordinate 
neuroscience research across the Federal government and 
identify opportunities for international collaboration and 
communication. The Neuroscience Working Group includes 
representatives from more than 20 Federal agencies and 
departments that have interests in neuroscience research.
    I describe some of the working group's interagency 
coordination activities in my written testimony.
    With regard to international collaboration, for example, 
last month the National Institute on Aging and its HHS sister 
agencies convened a followup to the 2013 G8 dementia summit, at 
which international partnerships for interdisciplinary research 
on the causes, prevention, and treatment of Alzheimer's were 
discussed.
    Also, NSF and NIH, in collaboration with German, French, 
and Israeli science organizations, have jointly funded 
collaborative research in computational neuroscience to 
facilitate international sharing of brain experimental data as 
well as analysis tools.
    On the domestic front, great strides have been made over 
the past year in mental health care for our service members, 
veterans, and their families, including improvements in 
continuity of mental health care and mobilization of community 
clinicians and peer counselors to increase access to services 
and to assist in suicide prevention.
    Thanks again for the opportunity to be here today. While 
there is still certainly much to be done to meet the needs of 
Americans facing neurological disorders and diseases, Federal 
investments are already making progress toward improving our 
understanding of the underlying neuroscience that will lead to 
preventive strategies and treatments. I thank the committee for 
its continued leadership and vigorous support for these issues. 
And, of course, I will be pleased to answer questions of the 
members.
    Mr. Culberson. Thank you very much, Dr. Handelsman.
    Dr. Olds, we look forward to hearing from you, and, you 
know, not only is your work so important on helping veterans 
and traumatic brain injury, it is also, I think, relevant and 
it will be interesting to know what--if at some point during 
the questioning you might be able to offer us any insight about 
how would you potentially spot someone like this pilot of the 
German aircraft that might be on the brink of doing something 
terrible that it looks like his act was a deliberate act. And 
it may indeed be work that is done by--by scientists like 
yourselves that might be able to help airlines spot something 
like that about to happen.
    So we look forward to your testimony, Dr. Olds. Thank you.
    Dr. Olds. Chairman Culberson, Ranking Member Fattah, and 
committee members, thank you for the opportunity to testify 
before you today on this important topic.
    My name is Jim Olds, and I am the Assistant Director for 
Biological Sciences at the National Science Foundation. I am on 
leave from George Mason University where I am a professor of 
neuroscience.
    Today I will outline the NSF's focus on understanding the 
brain. I hope to make three overarching points. First, the 
brain may be the most complicated system that we know of in the 
universe. It is a big data problem. Second, neurotechnology has 
advanced neurobiology to the point where we can explore new 
questions that were previously unapproachable. And, third, 
understanding the brain is an international effort that is 
bigger than one country and requires coordinated resources.
    Mr. Chairman, historically significant advances in brain 
research have resulted from broad areas of research in 
neuroscience and related fields. However, there remains much to 
be discovered if we are to achieve a comprehensive 
understanding of how the healthy brain's structural 
organization and dynamic activities produce cognition and 
behavior and how the brain can recover functions lost to 
disease or injury.
    Allow me to share one example. The current state-of-the-
art, noninvasive functional brain-scanning technology is off by 
a factor of 1,000 when it comes to resolving the actual neural 
code of human brains, both in time and space. If we are going 
to truly understand the brain, we are going to need a next 
generation of tools that will allow us to resolve brain 
function at the speed of thought.
    In its fiscal year 2016 budget request, NSF initiated 
``Understanding the Brain,'' a multiyear effort that combines 
cognitive science and neuroscience activities with NSF's 
participation in the BRAIN Initiative.
    NSF's overall goal with this activity is to enable the 
scientific understanding of the full complexity of the brain in 
action and in context.
    Understanding the Brain will draw on existing research 
investments to foster greater collaboration and to accelerate 
fundamental research. We will invest in neuroscience, cognitive 
science, neuroengineering, and the neural bases of learning, 
and how the brain adapts to changing environments. NSF is 
requesting $144 million in fiscal year 2016 for investments in 
Understanding the Brain. This almost doubles NSF's historical 
investment and builds on $92 million awarded in fiscal year 
2014.
    In April of 2013, President Obama announced the multi-
agency BRAIN Initiative. I know that Congress was very much 
involved in its creation, and I want to specifically 
acknowledge and thank this Committee's foresight in this 
matter.
    Since its creation, NSF has targeted significant funding 
for the BRAIN Initiative. This is an exciting time because 
neurotechnology advances are allowing us to pursue an 
understanding of the brain that was opaque to us in the past. 
NSF is uniquely positioned to advance research on understanding 
the brain by bringing together a wide range of scientific and 
engineering disciplines, each of which brings its own unique 
perspective to the brain challenge.
    NSF has consistently been a catalyst for transformative 
breakthroughs. For instance, I mentioned earlier the limit on 
functional imaging technology in representing brain activity. 
Just this past year, NSF funded a novel project to develop a 
new generation of brain measurement technologies, and if 
successful, this will transform our ability to observe the 
dynamic activity in living brains. This is a great example of 
how rapidly NSF works to accelerate discovery.
    In fiscal year 2014, five NSF directorates invested $11 
million in 36 highly interdisciplinary proof-of-concept awards 
called EAGERs that focused on neural circuit function. These 
strategic investments in fundamental research and 
infrastructure will transform our understanding of the brain, 
reveal the neural basis of thought and behavior, and show how 
to maintain a healthy brain throughout our lives.
    To close, I want to note that understanding the brain is an 
international challenge that is bigger than one country. Just 
as modern physics needs CERN--the largest particle physics 
laboratory in the world--neuroscience needs internationally 
coordinated resources. This includes creating the ability to 
share the vast amounts of data that will be generated by the 
challenge.
    I thank this committee for recognizing the size of the 
brain challenge and encouraging NSF to work not only with other 
agencies, but other nations. NSF will continue to work with 
multiple partners and stakeholders to address important gaps in 
our knowledge and to enable scientists working across 
disciplines, institutions, and nations to collect, share, and 
analyze the new data that will reveal the biological principles 
that produce the functioning human brain.
    Our goal, as always, is to provide the best possible 
science for the country. Thank you, again, for the opportunity 
to testify and for your attention.
    Mr. Culberson. Dr. Olds, thank you very much.
    As we go through the--in your opening statements, I would 
particularly be grateful and we may do--we will certainly do 
some of this in the questioning as well, talk to us about some 
of the successes. We are very supportive of the investment. 
That is why we are here today. Very supportive of the 
collaboration. That is why we are here today. Really appreciate 
the work that you are doing. Delighted to hear about the 
collaboration and the money that has been invested in the past 
and that needs to be invested in the future. We are supportive 
of that. That is why we are here today. Tell us about some of 
the exciting new discoveries. I mean, that is where we really--
that is what we want to hear about today, and what--what is 
working and what is not, and where, then, do we need to focus 
our attention, as you could, if you don't mind, in your opening 
statement? We will get into that in some of the questionings 
too, but I would love to hear it in the opening. Thank you.
    Mr. Lynch.
    Mr. Lynch. Mr. Chairman, Ranking Member Fattah, members of 
the subcommittee, I am Zack Lynch. I am the founder and 
executive director of the Neurotechnology Industry 
Organization, and I thank you for the opportunity to provide 
testimony today on behalf of NIO on how to maximize the 
societal return on Federal investments in neuroscience 
research.
    NIO is a nonprofit trade association that works to 
accelerate the development of treatments and cures for brain-
related illnesses. With over 100 members, NIO represents 
emerging neuroscience companies, academic brain research 
institutes, and patient advocacy groups across the United 
States and the world.
    Today more than 100 million Americans suffer from a brain-
related illness. That is one in three. These include 
Alzheimer's, autism, addiction, depression, epilepsy, multiple 
sclerosis, Parkinson's, schizophrenia, stroke, and many more. 
They also include post-traumatic stress and traumatic brain 
injury, which disproportionately affects members of our armed 
services.
    The combined economic burden of all these diseases has 
reached over $1 trillion a year in the United States alone. And 
this economic burden is accelerating as the population ages and 
expands, creating unprecedented demand for new treatments to 
cure neurological diseases and psychiatric illnesses.
    Now, in neuroscience, Federally funded research has always 
provided the scientific foundation upon which the private 
sector builds the next generation of therapeutic products. The 
National Institutes of Health continues to be the largest and 
most innovative funder of basic neuroscience worldwide. This 
investment in brain science and the SBIR program is critical 
for ensuring that the pipeline of neuroscience innovation 
remains robust.
    Accordingly, NIO requests that Congress appropriate at 
least $30.7 dollars for the NIH in fiscal year 2016. This 2.2 
percent increase keeps real purchasing power flat, adjusting 
only for an increase in the biomedical research and development 
price index.
    When it comes to the brain, however, we must do more than 
simply fund basic neuroscience research. We must improve public 
health. We must stimulate broad economic growth. And we must 
create new jobs.
    Two years ago, recognizing both the unique challenge and 
opportunity in neuroscience, President Obama launched the BRAIN 
Initiative. This ambitious effort aims to invigorate investment 
in neuroscience in much the same way that the human genome 
project and the national nanotechnology have done previously.
    Our industry is tremendously excited and optimistic about 
this program and its prospect to spur innovation, and we thank 
Congressman Fattah for his continued efforts in this 
initiative.
    I think it is most important to note that unlike any other 
area of life science research, neuro--investing in neuroscience 
will create direct economic benefits far beyond just reducing 
healthcare costs and alleviating human suffering.
    Let me give you two brief examples: Information technology, 
a multitrillion-dollar-a-year industry that sits on the cusp of 
being transformed by brain-inspired computing. Neuroscientists 
are researching the human brain for clues on how to design 
computers that can modify their hardware and software in 
realtime and modify themselves based on experience, just like 
the human brain does. As well as create radically efficient 
computers, the human brain runs on less electricity than a 
single light bulb. This area of cognitive computing represents 
a competitive advantage for American companies and will 
significantly impact economic growth and job creation and 
national security if we choose to invest wisely today.
    Education. Total expenditures in education have reached 
over $1 trillion a year, and yet the results are not helping 
our citizens remain globally competitive. Neuroscience can help 
us leapfrog this education performance gap. By developing fully 
personalized learning systems that tap into our natural 
neuroplasticity, we can safely accelerate learning, knowledge 
creation, and innovation.
    Now, looking forward, the convergence of neurogaming and 
neuromodulation with advances in self-learning computing will 
open up an entirely new realm of value creation of purely 
digital experiences that can be created and consumed with 
virtually no impact on global physical resources.
    For example, one could sell virtual experiences complete 
with emotional stimulation with unique landscapes or immersive 
health environments that enhance mental well-being.
    NIO believes that the BRAIN Initiative can and should play 
an essential role in accelerating the translation and 
commercialization of breakthrough neurotechnology. Accordingly, 
we ask that Congress allocate $300 million to the BRAIN 
Initiative in fiscal year 2016.
    Additionally, we recommend the consideration of a budget-
neutral program modeled on the Orphan Drug Act that will 
increase private investment into much needed treatments for 
neurological and neurodegenerative diseases.
    Investing in neuroscience offers both treatments to 
terrible diseases but also a grand opportunity for economic 
revitalization and dramatic improvements in individual 
resiliency.
    Today's neuroscience funding is inadequate if we want to 
lead the 21st century and beyond. I call on your subcommittee 
to strengthen our commitment to neuroscience funding to take 
advantage of the opportunities associated with the brain. I am 
confident that this approach will provide new treatments to 
terrible brain-related illnesses, transform industries, and 
create entirely new economic drivers for growth and jobs if we 
invest properly.
    Thank you for your attention, and I would be happy to take 
questions when you open it up to the panel.
    Mr. Culberson. Thank you, Mr. Lynch.
    Fascinating. Cognitive computing is exciting, but I share 
some of the fear of others in the idea of artificial 
intelligence. We want to avoid a Skynet situation. Dr. Hyman. 
Thank you. Look forward to hearing from you.
    Dr. Hyman. Chairman Culberson, Ranking Member Fattah, 
members of the subcommittee, my name is Steven Hyman, and I am 
offering this testimony both in my capacity as president of the 
Society for Neuroscience, and as a fellow of the American 
Association for the Advancement of Science. I am also director 
of the Stanley Center for Psychiatric Research at the Broad 
Institute of MIT and Harvard, and serve as Harvard University 
Distinguished Service Professor of stem cell and regenerative 
biology.
    The mission of the Society for Neuroscience is to advance 
understanding of the brain and the nervous system. AAAS, of 
course, has a broader mandate led now by newly installed CEO 
Rush Holt, which is to advance science and engineering and 
innovation throughout the world for the benefit of people.
    On behalf of both organizations, I deeply thank you for 
your support for neuroscience research and for the opportunity 
to testify here.
    In order to be responsive to the chairman, I will--instead 
of summarizing my remarks--I will try to put in context some of 
the advances that have come from the kind of funding we have 
had if you will also forgive me for the errors which will 
undoubtedly crop up from spontaneity.
    I think something to put these needed successes in context 
is probably well known to all of you, but that is not just the 
economic cost or the numbers created by brain disorders--one in 
three Americans is a very good number--but the impact. So while 
brain disorders can kill, stroke kills, and, tragically, 
suicide, suicide remains among the three leading causes of 
death for young people in this country, most of the damage done 
by brain disorders is through disability, whether it is a child 
with autism who, if they are at the more challenging end of the 
spectrum, may never succeed in education and won't be able to 
work in ordinary circumstances; schizophrenia, which is perhaps 
relevant to the incident with the aircraft that you reference. 
We don't know yet what was going on. But particularly cruel 
because onset is in late teens or early 20s just when families 
and society have made a maximum investment in a young person, 
getting them through college or technical school, and then they 
become essentially disabled for the rest of their lives. And 
our treatments are better than nothing, to be sure, but much 
remains desired. And, of course, Alzheimer's disease has been 
referenced already. But, again, we are facing a catastrophe 
here not only in terms of the individuals but also caregivers 
and families who get removed from the workforce.
    Now, the problem--and I think Dr. Olds said this very 
well--has been that the brain is not only complex, but I would 
add one other factor which is a required technological advance, 
which is it is inaccessible in life. Cancer is a very hard 
problem, but we neuroscientists would say, perhaps unfairly, 
that it is an easier hard problem because a surgeon does an 
excisional biopsy and hands the scientist the disease, whereas 
for the human brain, which is poorly modeled in animals in many 
cases--not all cases, especially the thinking parts of the 
brain--you know, we can't reach in and take tissue. And so we 
have to examine the brain indirectly, which is why some of 
these imaging initiatives are so important.
    That said, based on basic science and tools and 
technologies that have emerged in the last few years, there has 
been to my mind really breathtaking progress, and it hasn't yet 
led to treatments that generalize, but I think we finally are 
beginning to see a path.
    Let me give you just a few examples of these successes.
    So, for autism and schizophrenia, these were very 
mysterious illnesses. We could do brain imaging, but, again, 
the--exactly as Dr. Olds said, we are really looking only at 
ensembles of millions of neurons firing. We are not seeing what 
is actually going wrong. We had always known these disorders 
run in families. I mean, they don't--it is--they were not like 
Mendel's peas. It is not like, you know, in any family if one 
sibling has it, the other will have it. It skips generations 
and so forth, but we have known that these are highly 
genetically influenced illnesses.
    The problem for common illnesses is that they are not 
caused by a single gene creating a problematic mutation, as in 
the case of Huntington's disease, but many hundreds of genes 
contributing small effects. We had no possibility of detecting 
these.
    What has happened because of the--really the Federal 
investment in research across NSF, NIH, Department of Energy, 
is that the cost of sequencing DNA has come down about a 
millionfold in the last decade. It is really quite remarkable. 
Everyone has heard of Moore's Law about transistors on a chip. 
The cost of sequencing DNA makes that look rather torpid. Where 
I work now, the cost of a whole human genome is between $1,000 
and $2,000. And I would add the bill we pay to Amazon for 
putting the data in the cloud is $500. So these costs are 
converging, and we need our colleagues to improve some of the 
computing.
    But the point is, based on this technology, we can now 
afford to and accurately study many tens of thousands of 
patients. And as a result, the community has created durable 
global collaborations, and as a result, we now have the first 
literally 110 genes that are involved in causing schizophrenia. 
Now, these are--these are early clues, and there will be many 
more, and it is very hard to put them to work, but all of a 
sudden we have gone from a complete black box to light at the 
end of the tunnel, and pharmaceutical industry, which has fled 
this area as too difficult is now starting to dip their toes 
back in the water.
    One other really interesting example is something called 
optogenetics. Optogenetics is a tool in which one can, using, 
say, an injected viral vector in the brain of an animal or even 
making a transgenic animal, another fantastic technology, 
introduce an ion channel that comes from microorganisms in 
invertebrates, so something discovered in basic science, and 
then these channels get activated by light--I mean, all of us 
know our house plants, you know, move toward the light. What is 
the mechanism? There are all of these kinds of light sensitive 
channels in nature, but we can exploit this with fiberoptics to 
control--to turn on and turn off the cells in the brains of 
animals and begin to really understand how circuits are 
working. And this has absolutely in the last 3 or 4 years 
revolutionized our understanding in animal models of behavior. 
And while we are not going to put fiberoptic devices in human 
brains, it has also inspired a number of investigators, 
undoubtedly funded by both NSF and NIH but also involved with 
the DARPA aspects of the brain project, to think about how 
these principles might apply to human diseases, Parkinson's 
disease and other diseases before we have begun to know the 
circuitry.
    It is a really exciting time, and I would just end by 
saying that one of the things that the Brain Project does, 
which I think I am really very--I have been in the government, 
but I am really pleased with how the government has worked on 
this--has created a bottom-up endeavor that is going to build 
new tools--because we need these tools and technologies to get 
inside our skulls, literally--and engage these broadly for 
science but also ultimately in the service of human health and 
also will bring new kinds of thinkers into all of our 
portfolios. People who have been funded perhaps by the 
Department of Energy who have never thought about biology or 
the brain before, and so I absolutely, on behalf of the 
organizations I represent and also personally, thank you for 
your support of these endeavors, and I would be delighted to 
take any questions.
    Mr. Culberson. Thank you very much, Dr. Hyman.
    It is an extraordinarily exciting field of research, and 
you think about the size of the human genome and how little we 
know about what those genes do. We don't know, what, over 90--
what is the percent--what percentage of the genes in the genome 
do we know what they----
    Dr. Hyman. Well, you know, that is even a tricky question 
because often, you know, nature reuses the same gene in 
different cell types for different purposes. And so even where 
we know one or two purposes, we often don't know what they are 
doing in the brain. We understand best the 1 to 2 percent of 
the genome that codes for the protein building blocks of cells. 
The rest, which when I was in college we were told was junk, is 
actually quite, quite busy, and we are just at the earliest 
stages of understanding what the other 98 percent of the genome 
is doing.
    Mr. Culberson. I suspect God doesn't do anything that 
doesn't have a purpose.
    Dr. Hyman. That is a very good maxim to live by. Yeah.
    Mr. Culberson. Absolutely.
    Absolutely fascinating, but I noted also, and you didn't 
mention this in your summary, Mr. Lynch, about the importance 
of us making sure that we have got legislation encouraging 
companies to invest in orphan drugs, which is something you 
mentioned obliquely, but----
    Mr. Lynch. Yes sir.
    Mr. Culberson [continuing]. Really, really important 
because a lot of these medications and these problems are--
involve populations that may be too small for the companies to 
be able to see that there is an economic benefit, and that is 
just vitally important.
    Some studies have mentioned that many neurological 
disorders stem from a misfolding of a protein in the brain 
which can lead to a cascade of effects that result in ALS or 
Alzheimer's, Parkinson's and other neurological diseases. And 
traumatic brain injuries apparently also cause a similar 
misfolding of proteins with a cascading effect in the brain.
    Has it been solidly established that this protein 
malfunction is a potential root cause of these neurological 
diseases. And if we have indeed identified the root cause of 
these issues, could you tell us where we are in finding a cure 
and being able to either stop or reverse the cascade effect in 
the brain when these proteins----
    Dr. Hyman. Yeah, it is really quite clear. I mean, 
proteins, first of all, you know, come out--they are read out 
as a linear structure. And then there are all of these 
mechanisms inside the cell to make sure they have exactly the 
right confirmation to do their job----
    Mr. Culberson. And then some of the folding, I understand, 
is just a result of random chance about where they are 
positioned in the cell. They don't have enough elbow room to 
fold correctly.
    Dr. Hyman. You should teach biology. That is exactly--and 
then but they get stabilized, depending on negative and 
positive charges, or, you know, they will bounce around 
stochastically. And then they will come to the right 
confirmation. And then there are other proteins called 
chaperones which help them, you know, stay in the right 
confirmation. This is complex process that often fails, and 
normal cells must have a mechanism to degrade and remove these 
misfolded proteins.
    Mr. Culberson. So complex, in fact, you have had to 
crowdsource it. I have signed up for that project to do the 
protein folding, and I let the computer run it in the 
background, and you have really got--I also signed up for the 
one classifying galaxies, which is--that is what I do for fun.
    Dr. Hyman. But, well, the force is----
    Mr. Culberson. But it is so vast a problem you literally--I 
am sorry.
    Dr. Hyman. No, no. No, I am sorry. No, no. I was going to 
say gravity works--for galaxies--doesn't work at that scale----
    Mr. Culberson. I mean, the scale of the problem is so huge; 
crowdsourcing is one of the best ways and the size of the----
    Dr. Hyman. Yeah. There are a lot of quantitatively talented 
people who might be spending their lives in finance who, you 
know, make--could really, you know, in their extra time do some 
really good things here thinking about protein folding and 
other problems.
    But at any rate, you are absolutely right. It has been 
extremely frustrating, to take one example, that the gene that 
causes Huntington's disease, which is rare but not, you know, 
terribly, terribly rare, invariably lethal, with a terrible end 
course or some forms of--some of the familial forms of 
amyotrophic lateral sclerosis.
    Mr. Culberson. My sister-in-law's family has it.
    Dr. Hyman. Well, right. So you--I don't have to tell you 
how awful these conditions are.
    Mr. Culberson. She is clear, but her sister is not.
    Dr. Hyman. Yeah. So, again, technological innovation has 
given us--I don't want to over promise, but I think it has 
given us some really promising clues. So you can think of these 
mutations that cause protein misfolding or other mischief----
    Mr. Culberson. Or injury.
    Dr. Hyman. Or injury--as poisons in every cell, and the 
idea that a drug will work in all of the--now, in ALS, of 
course, it is really motor neurons, but they are affecting 
other cells. The fact that--the idea that you could sort of 
somehow neutralize this poison with a drug is very challenging. 
A new idea, based on the ability to deliver RNA molecules, 
which would interfere with translating from the DNA message 
these aberrant proteins that--the mutant form of Huntington or 
some of these familial forms of genes that cause ALS--and 
literally try to shut that gene off in the brain or in motor 
neurons is an entirely new, you know, last year or two this 
idea of gene silencing, which I think is an, you know, unproven 
but a really interesting idea, but we couldn't think about it 
without the technological advance of how would we get these 
neutralizing molecules into the right cells. Still an unsolved 
problem, but something probably some of your members might even 
be thinking about.
    Mr. Culberson. The poison you were referring to could also 
be thought of, I guess, in terms, perhaps, of like 
inflammation. I have been a subscriber to the Journals Nature 
and Science for over 20 years and don't pretend to understand 
all of it, but I read them cover to cover and----
    Mr. Hyman. I don't understand them.
    Mr. Culberson. Yeah. I know, but it is fascinating and 
noted that there was an article I know a year or two ago about 
the effects of chronic inflammation as a root cause of cancer, 
for example, as just a constant source of irritation or causing 
damage that then triggers an uncontrollable cascading mutation 
of cells. Is that similar to what you are talking about here?
    Dr. Hyman. Well, it is----
    Mr. Culberson. Conceptually.
    Dr. Hyman. It is conceptually similar. I think, in familial 
ALS and Huntington's, there is actually a very precise target, 
which is this mutated gene, that is leading to these terrible 
symptoms and death. And we can at least know exactly what we 
need to shut off, whereas in inflammatory disorders, there are 
many, many molecules involved and----
    Mr. Culberson. But to prevent the inflammation is to 
prevent the underlying----
    Dr. Hyman. That is correct. Absolutely. Absolutely.
    Mr. Culberson [continuing]. And the subsequent problem.
    One of my other passions--I am going to turn it over to Mr. 
Fattah--a long-term passion of mine that I hope in the time I 
am privileged to chair this subcommittee and work with you and 
all our other members is to identify--be able to identify in 
the future a genetic problem like that in an unborn child 
through the amniotic fluid and whip up a protein fix that you 
could then inject back into the amniotic fluid which the child 
would then breathe and repair and cure the child's disease 
before she is born. So that is absolutely possible. Isn't it?
    Dr. Hyman. Yes. Mr. Chairman, if my colleagues--maybe they 
want me to quiet down, but there is yet another exiting 
technology called CRISPR/Cas-9----well, I will explain what 
this is. So----
    Mr. Culberson. CRISPR----
    Dr. Hyman. CRISPR, C-R-I-S-P-R, hyphen, C-a-s 9, and it is 
in the news because leading scientists have said, We better 
call a halt on any human experimentation right now, see where 
we are ethically and in terms of safety, which is not to end 
the research. But let me describe was this is.
    Bacteria get infections too. Viruses invade them and kill 
them, and so bacteria need to have an immune system. And what 
they do is they, in some cases, is they--they form a memory 
of--they don't want to cut up their own DNA, so they form a 
memory of what the DNA of the viruses that afflict them. And 
they have invented basically molecular scissors to cut the DNA 
that gets recognized. We as a community----
    Mr. Culberson. When that DNA shows up, the molecular 
scissors go into action and chop it up.
    Dr. Hyman. Right. Something binds to it----
    Mr. Fattah. Zombie immune system.
    Mr. Culberson. Zombie immune system. That is nice. Got to 
use that.
    Dr. Hyman. Yeah, exactly.
    Mr. Culberson. Can you plagiarize that?
    Dr. Hyman. Mr. Fattah, if that is not copyrighted, you 
know----
    Mr. Fattah. I am a public figure. You can use it.
    Mr. Culberson. Zombie immune system.
    Dr. Hyman. But basically we can now use the same system, 
and this is now widely used in both microorganisms and animal 
models to cut DNA where we want because we can engineer the 
recognition strips, these so-called guide RNAs, and cut DNA. 
And then there are other well-known mechanisms to insert new 
pieces of DNA.
    So this is now an experimental tool that we are using to 
put the genes we discover about schizophrenia into cell lines. 
But the idea is that in a human potentially--and, again, this 
is really fraught and it is really early--you could do 
pregestational diagnosis. You could find the mutant gene for a 
single--for monogenic disorders like----
    Mr. Culberson. Huntington's or----
    Dr. Hyman. Huntington's, that are caused by a single gene.
    Mr. Culberson. Right.
    Dr. Hyman. You could design guide RNAs. You could cut out 
that version and then replace it with a healthy version.
    Now, there are all kinds of safety risks. There are all 
kinds of ethical risks because people might want to use this 
technology to make people taller or whatever.
    And we really have to think deeply about this, but I think 
we are entering an era where exactly what you have imagined may 
become possible.
    Mr. Culberson. Texas Medical Center, which I am proud to 
represent, I have been pushing them for years on this. And they 
tell me it is possible.
    Dr. Hyman. Absolutely. And that is a great institution.
    Mr. Culberson. Thank you. Thank you for letting me take so 
much time, Mr. Fattah.
    Mr. Fattah. Mr. Chairman, no. Thank you for your interest 
in these and all matters of science. So you can see my chairman 
is engaged. So it is very important.
    I want to make sure we go back because, in order to respond 
to the chairman, you kind of ad-libbed your remarks, and I want 
to make sure that we put on the record--this is a very 
important part of our process, hearings and public record--the 
scientific challenge in front of us.
    So the human brain, as best as we understand, about 100 
billion neurons, 100 trillion connections. It runs on low 
electricity and it does a lot, and we don't understand much of 
it. Is that right, Dr. Olds?
    Dr. Olds. I would say that we are very good stamp 
collectors right now and we are working diligently on coming up 
with a theoretical framing for a rule set for how those 100 
billion neurons work with each other.
    Mr. Fattah. I went out to Stanford and met with one of your 
colleagues, Dr. Newsome. He says, you know, if we are talking 
about looking at a map, we don't see the highways, the roads. 
We don't really have a good understanding and, even if we did, 
we don't understand the traffic that is on there. Right?
    So Paul Allen came into Philly. He announced a major 
investment into a cell institute. Now, he has already put a 
half a billion dollars into a brain institute. The cell 
institute is to look at the 50-plus trillion cells in the human 
body.
    But one of the things--the reason I was there--it was in 
Philly, but the reason I was there was that, in the cells in 
the brain, we don't yet know all of the cells in the brain and 
the cell types. Is that accurate?
    Dr. Olds. That is accurate. So a simplifying approach to 
understanding the brain is to take the 100 billion cells and 
classify them into their different types.
    Mr. Fattah. Right.
    Dr. Olds. And we are in the process of doing that, but----
    Mr. Fattah. But we are not there yet.
    Dr. Olds [continuing]. We are not there yet.
    Mr. Fattah. Right. Because I want the chairman just to work 
with me here so we have got a system in which there is a lot of 
interactions with the neural network that we don't understand, 
and we don't understand even the basics, the, you know, kind of 
identification of all the cells.
    So, the effort here is one of, you know, from just a task, 
it is a gigantic task. Right? So one of the things that the 
committee did in last year's bill was we did move to 
internationalize and to create collaborations and we have 
tasked the National Science Foundation with having--with 
developing an international conference because there is these 
efforts.
    And the committee has supported my work, whether it is 
Israel or the EU and others, to try to kind of cobble together. 
The EU has now put a billion and a half euros on the table for 
the Human Brain Project, Henry Markram. There are a lot of 
interests in trying to work together because there are, based 
on the World Health Organization's number, over a billion human 
beings with a neurological disease or disorder. Right?
    And the contention is that, at least as I approach this, is 
that we need a basic understanding of how a healthy brain would 
function as at least part and parcel to trying to figure out 
what to do about some of the challenges.
    So as the National Science Foundation is understanding the 
brain, we saw the EAGER grants, which were great, and we see 
your request this year.
    The basic next steps, as you see it, where we need to go, 
if you could talk to the chairman and I about that in terms of 
the cost side. Right?
    So, you know, we know on the health side we spent a lot of 
money. We spent $210 billion last year on care for Alzheimer's. 
Right? So I know we spent a lot of money.
    We spent $500 billion on mobility challenged Americans. So 
these are people who have suffered from stroke or some 
traumatic brain injury. And so we are spending a lot on the 
care side. We are spending a paltry amount of money in trying 
to figure out any of this.
    And the way I would phrase it, Mr. Chairman, is the Allen 
Institute, which just spent a half a billion dollars, they have 
now completed an essential framework for how the mouse's brain 
works. Right? And it is about a million neurons?
    Dr. Olds. No. Ten.
    Mr. Fattah. Ten million. Right.
    So they got this thing, so that is about where we are. Ten 
million versus this 100 billion. And that is a mouse. And the 
translation from animal to human is about 1 percent in 
neuroscience, different from, in all other areas it is about 50 
percent. So if you can find a cure in an animal, 50 percent of 
the time it will work in a human being.
    When you talk about the brain, it is 1 percent translation. 
So even when you find something that makes a mouse, you know, 
operate a little bit better, restore memory, whatever, you 
can't bet the ranch that you are going to be able to translate 
it to a human being. Is that correct?
    Dr. Olds. Correct.
    Mr. Fattah. All right. So talk to the chairman about where 
we need to be going over the next, me and him are going to be 
here for the next 10 years doing this, and we want to see at 
the end of this or sooner major relief for these families who 
have these challenges. Right?
    We also are interested in the science and the sexiness of 
this, but at the heart of this is human beings, a billion of 
them worldwide, 100 million in our own country. And so talk to 
us about how you see us not just this year, but over the next 
period of time here what we need to try to get done.
    Mr. Culberson. Yeah. Where we need to focus our efforts. 
That is a great question, probably the best question----
    Mr. Fattah. To make disruptive progress.
    Mr. Culberson. Yes.
    Dr. Olds. So in June we are going to be engaging in 
something called an ``Ideas Lab'' in collaboration with the 
Howard Hughes Medical Institute intramural campus at Janelia 
Farms, just across the river.
    Mr. Culberson. Where?
    Dr. Olds. Janelia Farm of Howard Hughes Medical Institute. 
It is just north of the Dulles runway.
    And the goal of that meeting is to pull together scientists 
from disparate fields to crack a very simple circuit in the 
brain, the olfactory circuit. It is one of the most ancient 
circuits in the brain. It is conserved across evolution.
    It is tractable from an engineering standpoint because the 
sense of smell doesn't go through a relay nucleus like the rest 
of our sensations do. And the goal is to take a very simple 
circuit, bring together scientists from a wide variety of 
disciplines, and crack that simple mechanism.
    Mr. Fattah. Can you yield for a second?
    Dr. Olds. Sure.
    Mr. Fattah. Mr. Chairman?
    Mr. Culberson. Oh, please.
    Mr. Fattah. I was just at the Weizmann Institute in Tel 
Aviv, well, in Israel, right outside of Tel Aviv, and they just 
created this, they have been working on this bionic nose with 
some funding from the National Science Foundation.
    These 6 million neurons that are right up here, they are 
below the blood-brain barrier. So they are very interested, 
neuroscientists are very interested in them because they can 
reach them.
    But this nose is at University of Penn, they developed some 
ability of getting dogs to sniff out cancer. So they have been 
able to get this bionic nose to sniff cancer and, also, 
explosives and illegal narcotics. And it is fascinating.
    But go right ahead.
    Dr. Olds. So the next steps would be to actually understand 
how more complicated circuits work. This olfactory circuit is a 
relatively simple one. There are more complicated circuits, 
such as the mammalian hippocampus, that play a critical role, 
for example, in Alzheimer's disease.
    When we catch Alzheimer's disease, the cells of the 
hippocampus die, and that is the same circuit that allows us to 
remember episodic memories, the movie of your life, if you 
will. That is a devastating symptom.
    It is a circuit that we known an awful lot about. The input 
and outputs are not as well known as with the olfactory 
circuit, but it is a circuit that is tractable. And it would be 
a logical next step.
    So the goal is to actually develop an understanding of how 
relatively simple important circuits work in the brain and then 
bring together that understanding of circuits to actually see 
how circuits communicate with one another in the brain.
    So that yields a road forward where we can actually 
understand how circuits that actually may be involved in 
diseases like Alzheimer's or Parkinson's or autism actually, in 
their communication, go awry and what potential therapeutic 
strategies might be. But that all starts with an understanding 
of the healthy brain.
    Mr. Fattah. Well, Mr. President, it is good to see you 
again.
    As President of the Society for Neuroscience, you have, the 
chairman mentioned earlier about this misfolding protein issue. 
And there is a member of your group, Dr. Soto, who is at the 
University of Texas at Houston, who has spent some considerable 
amount of time looking and he has really been working, he 
thinks that this, that the idea of this misfolding protein is, 
you know, the key to a number of these different disorders.
    I am trying to get, and I didn't get it directly from what 
Dr. Olds said. We are going to try to start with one place and 
move to the next place. I am trying to get a sense of where, if 
we were going to make a major leap forward, you sense that we 
need to be investing resources and efforts.
    Dr. Hyman. Yeah. I think there are--one way of thinking 
about it is there is a shared mechanism. Right? A protein has 
misfolded and the cell chokes on it, doesn't--is unable to get 
rid of it.
    And that might be something across many different diseases. 
But for each particular disease it is one or another protein 
that is genetically producing a protein given to misfolding or 
sometimes a disposal mechanism that isn't working.
    So I think there are two major useful areas of focus. And, 
again, I think there is some--there have been some very 
important investigators in Texas, Huda Zoghbi's lab at Baylor, 
for example, that has found a lot of these mutations that are 
devastating in children.
    So I think one important focus is to identify these genes 
and figure out ways in which we can potentially silence them 
or, if the CRISPR/Cas-9 scenario works out over time, even 
replace them in an embryonic stage, again, with all of the 
ethical concerns that need to be addressed first.
    But the alternative, which is more general, not disease by 
disease, is actually to better understand the mechanisms by 
which cells clear misfolded proteins and to see whether there 
are ways in which we can improve that set of processes in a way 
that might work across many different diseases. I won't go into 
the technical, you know----
    Mr. Culberson. You see that as one of the root causes of a 
lot of things----
    Dr. Hyman. It is a very--there are a lot of--yes. Yeah. 
Yeah.
    And then, again, you mentioned something that is new, but 
interesting, is that, in traumatic brain injury, this protein 
Tau, which has also been implicated in Alzheimer's disease, may 
not only create inappropriate tangles inside of neurons, but 
when they die, it may be released and almost infect neighboring 
neurons and spread some of the damage. Again, early, but 
really, really interesting and important work.
    Mr. Fattah. Last question for, okay.
    Mr. Lynch, the Potomac Institute released a study on 
neurotechnology 3 years ago, and they said that, from an 
economic standpoint, the economics of this in terms of GDP 
would be more impactful than any of the other economic 
revolutions in our country if we were able to figure out some 
of these problems, solve them, and build the industries that 
would benefit from them.
    So you are involved on the industry development side of 
this. In terms of venture capital, in terms of the work, one of 
the things that I have seen internationally is there is a lot 
of action in this space--right?--people trying to figure out 
diagnostic tools, people trying to figure out, you know, 
treatments.
    And where do you see America relative to the development of 
the neurotechnology industry?
    Mr. Lynch. Well, thank you for that question.
    I would like to return, in answering you, to the point you 
were trying to make earlier, which is these are exceedingly 
complex problems we are trying to solve.
    And to Dr. Hyman's points earlier, much of the 
breakthroughs that we are talking about that he articulated, 
whether it was neurogenomics, CRISPR/Cas-9, optogenetics, those 
were all borne out of the Federal investment in the human 
genome project. Right?
    And so what we are talking about here is: How are we 
actually going to solve these problems with the brain and 
develop treatments and cures for individuals who are suffering 
and alleviate these problems that are occurring with these 
families and the drag on the economy as a whole? We need to 
invest in fundamental brain research, in the BRAIN Initiative. 
We need to step it up and push forward.
    So what I represent is the neurotechnology industry. There 
are currently 800 companies worldwide right now that are 
developing treatments for neurological diseases and psychiatric 
illnesses. About 450 of those reside in the United States 
itself.
    Last year this industry generated about $150 billion in 
revenue in and of itself. That includes selling pharmaceuticals 
for anxiety, depression, epilepsy, multiple sclerosis. So there 
is a big pharma element to this industry.
    But the breakthroughs--they have basically left the ``R'' 
in neuroscience aside because of the hyper-complexity 
associated with developing these new treatments and are looking 
to these gentlemen to actually find some new technology so that 
we can get some insight into how we are going to develop these 
next-generation treatments.
    So from the venture capital side, we have been hosting a 
neurotech investing and partnering conference for 10 years now, 
and each year it brings together, you know, a modest number of 
companies, you know, 250 people, you know, 50 companies 
pitching their treatments, you know, to try and get venture 
capital funding.
    And what we have seen over the past decade is a continuous 
increase in the interest of venture capital to fund these 
companies. Now it is up to about $1.5 billion a year across 
about 120 deals last year. Okay? But the problem that we are 
beginning to see----
    Mr. Fattah. That is what Potomac was saying, that, if 
America misses the boat here, you know, it is kind of lights 
out, that this is like the area in which, the next wealth-
building phase in the world is going to operate in.
    Mr. Lynch. I couldn't agree with you more. Humanity has 
progressed through an agricultural revolution, an industrial 
revolution, and we are in the midst of an information 
revolution.
    And the next revolution, the technological revolution that 
will transform how we all work, live and play on a daily basis, 
will be the neurotechnology revolution. It will impact our 
laws, how we do marketing, how we entertain ourselves, how we 
treat each other, how we provide new ways for people to 
experience life, and it will impact every industry in different 
ways and create new industries like ``neurotainment''--right?--
completely new forms of entertaining far beyond the therapeutic 
impact that it will have.
    Mr. Fattah. One of the other jurisdictions we have is the 
Commerce Department. So I have spoken with the Commerce 
Secretary when she was here about Commerce developing a 
neurotechnology focus so that we could make sure that American 
industry is focused on this trade space and ways that we need 
to, and she has agreed to do that.
    So thank you very much, Mr. Chairman. I yield back to you.
    Mr. Culberson. I think a big part of this is the cognitive 
computing, I guess, that you mentioned earlier.
    Let me ask Dr. Olds, if I could, on behalf of the National 
Science Foundation, to talk to us about the number of grant 
proposals you receive in the neuroscience discipline.
    And of those that you receive, how many does the NSF fund? 
Just ballpark. And give us a--Mr. Fattah and I an idea of where 
the most productive areas might be for us to help you target.
    Dr. Olds. So I can give you now ballpark numbers on the 
number of awards that we have given per year. So from 2009 to 
2013, when we were spending approximately $70 million a year, 
we were making on the order of 150 to 200 awards per year.
    In 2014, we awarded in the neighborhood of 250 awards. In 
2015, this year, we expect to award something like 300. And if 
the appropriation that the President requested for 2016 comes 
through, that would be about 400 awards.
    On the number of proposals, I would need to get back to the 
Committee on that, and I will.
    Mr. Culberson. Ballpark percentage that you are able to----
    Dr. Olds. I would say we can fund about 20 percent--
somewhere in the neighborhood of 20 percent of the proposals.
    Mr. Fattah. Mr. Chairman, you were asking about 
breakthroughs earlier. Let me interrupt your train of thought 
and tell you I was.
    Mr. Culberson. Oh, please. That is the benefit of this. It 
is free flowing.
    Mr. Fattah. Something that you will be excited about.
    So Keith Black, who is the head of neurosurgery at Cedars-
Sinai, was doing some research that showed that you can use a 
part of the venom from a scorpion that will only attach to non-
healthy cells in the brain, and it allows the surgeon to now 
just go in and pluck out the tumor that otherwise is hard to 
discern.
    So this is where nature, you were talking about God's sense 
of humor, whereas nature--there is a lot going on out there, 
but this was a fascinating piece. I knew you would be.
    Mr. Culberson. It is fascinating.
    Mr. Fattah. So I wanted to share that with you. I am going 
to send you the paper. They are doing the clinic trials now. So 
it is working out quite well.
    Mr. Culberson. Right.
    Mr. Fattah. So they can, you know, and Senator Kennedy, we 
know lots of people who had these brain tumors not to a good 
result.
    But this particular technique enables the surgeon by 
utilizing something called chlorotoxin 35, which is part of the 
venom from an actual scorpion spider. It kind of lights up the 
runway, you know, for the snippers to come, you know.
    Mr. Culberson. Fascinating. It is extraordinary. And the 
advances come from you all sparking off each other; so, I know 
how important the collaboration is.
    And you really often don't know where the advance is going 
to come, and it is up to the Federal government to invest in 
this basic research because the private sector just--either 
cannot--they just simply don't have the resources. You can't 
stay with it. You have got to make sure your shareholders' 
expectations are met in the shorter term.
    So it is up to us to invest in a lot of these. It may just 
turn out to be dead-end rabbit trails, but otherwise wouldn't 
get done.
    I wanted to ask Dr. Olds about supercomputing. And National 
Science Foundation had funded Blue Waters, one of the most 
powerful supercomputers in the world.
    And, if you could, talk to us about how this resource is 
being used to support brain research. And how is the United 
States holding up in the ongoing effort to build the biggest, 
fastest, best computer on Earth?
    Dr. Olds. So----
    Mr. Culberson. The Japanese leapfrogged us, I know, 
recently, but that is--I just want to make sure we are the ones 
standing at the cutting edge of that work.
    Dr. Olds. So thank you for the question. That is two 
questions. I am going to answer the first one first and the 
second one second.
    Blue Waters, of course, is one of the most powerful 
supercomputers in the world and is hosted in Illinois at the 
National Center for Supercomputing. In the area of 
neuroscience, it is being used in a number of really exciting 
areas. One is brain imaging, where it is improving the 
resolution of blood flow imaging, which is really important in 
diagnosing stroke and ischemia in the brain.
    It is also being used to elucidate the structure of ion 
channels, which Dr. Hyman mentioned earlier. These are 
critically important. These ion channels have three-dimensional 
shapes, which is critical to their function and how they 
interact with neurotransmitters and drugs. And so Blue Waters 
is being used for that.
    It is also being used to simulate and model the process of 
vesicle fusion to the membrane presynaptically--that is 
involved in neurotransmission. If you don't have a 
neurotransmitter being released from the membrane, then you do 
not have communication between cells.
    And then, to me, one of the most exciting areas that Blue 
Waters is working on has to do with gene expression in the 
brain in the context of Alzheimer's disease.
    We have been talking about misfolded proteins in 
Alzheimer's disease, but, really, the important thing to think 
about Alzheimer's disease is that there are about 8,000 brain-
specific genes that are expressed in the brain, and these 
genes--you can think of their expression across all the brain 
cells as being a dynamic network which is under exquisite 
control.
    When we are healthy, that network is operating in one mode. 
When we have a disease like Alzheimer's, it is operating in 
another mode that may require supercomputing to actually 
understand. So Blue Waters is being used in that context, and I 
think that is really important.
    Getting back to the question of how we are doing in terms 
of supercomputing, I would just go back to what Mr. Lynch was 
talking about.
    You know, we have a proof of concept--an existence proof in 
the human brain--that we can have real high-performance 
computing, exascale computing, if you will, functioning on 20 
watts of electricity.
    So there is something about the architecture of what is in 
here that is fundamentally different from what is in, you know, 
the laptop computer. If we could understand that, I think it 
would be a gigantic step forward in terms of having a permanent 
lead in high-performance computing.
    Mr. Culberson. Well, how do we deal with the--once the 
computer becomes self-aware and can learn--you mentioned 
cognitive computing--it opens up all kinds of wonderful 
possibilities, but, also, terrifying possibilities as well.
    Talk to us a little bit about, if you could, each one of 
us, some of your personal concerns about how we are going to 
deal with that when we cross that threshold. You know, some of 
the greatest minds in the country continue to talk about the 
concern about AI, that it may not be a happy experience.
    Dr. Hyman. Mr. Chairman, I think there are a lot of 
technologies that we focus on all for benefit with therapeutic 
purposes to solve important engineering problems that have 
other uses that we wouldn't be so happy with or that we worry 
might get away from us.
    And maybe the earliest experience of this country in 
thinking about that is nuclear proliferation, which is, after 
all, knowledge of certain advanced technologies. And we can see 
the challenges there, but I think the challenges are going to 
be even greater because these are going to be widely 
disseminated not-classified technologies.
    And one of the things that I have actually been involved in 
is to help people thinking about inventing these technologies, 
not--not AI, but invasive deep-brain stimulation for regulating 
behavior.
    So DARPA has these very interesting advanced projects 
really aimed at servicemen and -women who have traumatic brain 
injury, post-traumatic stress disorder, but, also, chronic pain 
syndromes who may have become addicted to pain medicines 
because of their injuries.
    And as an alternative to waiting for the development of new 
medications, they are studying the ability to directly 
stimulate circuits in the brain, something that has worked 
very, very well for Parkinson's disease.
    But they understand that, once you are stimulating brain 
circuits, you know, this could be a good and therapeutic thing, 
but it also could change personality, personal identity.
    So they have appointed an ethical, legal, and social issues 
panel to help them oversee this research that I am privileged 
to serve on, and they take it quite seriously. But I think it 
is a kind of model.
    The Genome Project did that. They had an ethical, legal, 
and social issues panel that actually Jim Watson, James Watson, 
had initiated. And the idea here is not to stop these 
technologies because they have so much benefit, but, really, as 
a community, to think through the really difficult problem of 
maximizing the benefit, but somehow controlling the risks.
    Mr. Fattah. It is kind of like not to minimize, but it is 
just like everything else. I mean, it is like the automobile. 
You know, if used for its purpose, fine.
    And that is why I think OSTP at the origins of this effort 
with the Interagency Working Group put together a ethics group. 
I know the president, Amy Gutmann, was involved and some 
others.
    So, you know, it is a big concern. However, as Newt 
Gingrich said, it is the larger challenge for the country. If 
we can't delay Alzheimer's by 5 or 6 years, you know, we are 
going to go bankrupt.
    Mr. Culberson. Well, I am not questioning that.
    Mr. Fattah. We have got to figure out our way forward and 
we have got to make sure that people don't misuse the 
technology.
    Mr. Culberson. You know, that is why we are here. Very 
supportive of the work. But I just think, with your talent at 
this table, it is important to talk about the ethical 
challenges and what would lie ahead for the human race if we 
actually develop a computer that is able to function at the 
level of the human brain, can learn a task----
    Mr. Fattah. But to get closer to your line, there are 
issues here that are useful for us from an intelligence 
standpoint and other things for national security that are also 
beneficial and is closer to the line you are concerned about, 
but have some utility.
    Mr. Culberson. Well, that day is coming soon. And we have 
got a panel of great talent here. I just want to get your 
thoughts about AI and cognitive computing and what are we going 
to do when we hit that threshold.
    Mr. Lynch. Sure. I mean, with any new technologies, there 
is both promise and peril. And we need to have extreme 
vigilance as these technologies come to market and are being 
researched.
    I personally know right now that IBM, Facebook, Google, HP, 
Qualcomm, all the major chipmakers around the world, some of 
the major software companies, are hiring neuroscientists 
because they see the competitive advantage that brain-inspired 
computing can actually bring to their organization.
    So, in a way, you know, the cat is kind of out of the bag, 
and we need to have these public conversations around, ``What 
are the limits to these technologies? And how do we design them 
in initially?''
    Mr. Culberson. Right. They just called a vote, and I want 
to let Mr. Fattah close up.
    But I really would also like to ask about what is this 
device and the instant gratification that it brings doing to 
our kids and the evolution of our minds.
    Because this is changing us. And the human instinct for 
instant gratification--you see the Google searches. If people 
don't get what they find within a few nanoseconds, they are 
switching. It is altering behavior, and I think it is really 
worrisome.
    Can you talk to us a little bit about that, any one of you 
who want to dive in.
    Dr. Olds. So Nicholas Carr wrote an article recently. I 
think it was called Is Google Ruining Us? And----
    Mr. Culberson. Well, in particular, these things.
    Dr. Olds. Right. And----
    Mr. Culberson. Sometimes I want to hit it with a hammer.
    Dr. Olds. I think that he raised the point that, as we 
become used to answering questions instantly without thinking 
about them intellectually, that would change the plasticity of 
our neural circuits and, potentially, would produce some long-
term change.
    As I told Mr. Carr at the time he was researching his book, 
I would be skeptical about that and I think we really need to 
actually look at the evidence very carefully with regard to 
long-term changes in human brains as a result of the IT 
revolution that is going on.
    Mr. Culberson. Physical changes. What about behavioral? 
Then I want to let Mr. Fattah close up on this. But, I mean, he 
has gotten me on another question.
    But it worries the heck out of me because you don't see 
kids playing in the yard anymore and looking for bugs or doing 
things like all normal kids should be.
    Dr. Olds. I agree.
    Dr. Hyman. I mean, you are absolutely right. And, again, we 
have got--we are not very good at having broad conversations 
about how to control the downside of technologies where we are 
all too good at sometimes having deadening regulation. You 
know, you are not going to outlaw, you know, email or iPhones, 
but we have to deal with cyberbullying. Right?
    And so I think we really need to have more serious 
conversations that somehow affect the way society handles these 
issues or things that are really beneficial and wonderful will 
then have very much unintended consequences.
    Mr. Culberson. But you are seeing changes in human behavior 
with this instant access to information and gratification----
    Dr. Hyman. Yeah. Absolutely.
    Dr. Olds. If I may, I think this is an example of why we 
need research in social, behavioral, and economic sciences as 
well as the basic biological research, because this is an area, 
clearly, where we are looking at complex human behavior as it 
interacts with machines. And that would be SBE.
    Mr. Culberson. That is a social behavior headline no one 
wants----
    Mr. Fattah. Let me jump on the more positive side of this 
for a minute.
    So, you know, I was out in the Napa Valley, the Staglins. 
They had a son who had some challenges with schizophrenia. And 
since that time, he is doing great, but they engaged themselves 
in this effort and raised a lot of money, over $250 million of 
private money, particularly for schizophrenia-related research. 
And they fund early investigators.
    And part of what seems to be emerging as part of some of 
their research is that some of this gaming activity can be 
therapeutically useful and that part of the challenge--it is 
not the totality of the challenge--but part of the challenges 
of some of these young people. It is almost always young people 
who face these schizophrenic circumstances and almost always 
boys, not in every circumstance, but more so than not just 
getting the brain functioning slightly more efficiently by 
activity actually provides some benefit.
    And then I was out in Tom Cole's backyard at the University 
of Oklahoma's, got a program called a center called K20, and 
they were developing these games that my teenager likes, these 
sim games, but imbedding in the game, you know, things that we 
would want, you know, interest in STEM education and going to 
college and, you know, hiding these notions in nuanced sort of 
ways inside the game so that even the kids are playing them 
they are getting indoctrinated with positive messages.
    So I think, you know, some of this we are going to have to 
run with and just try to improve as we go, Mr. Chairman.
    But I do want to, as we go to wrap up, I want to thank the 
chairman again because it is not the norm in a majority-
minority situation that there would be a hearing like this, and 
I want to thank you.
    But it just shows that the interest in this matter is not 
partisan and we intend, you know, well beyond this 
administration, which has got, you know, 20 more months and has 
done some important work--but this is work that we are going to 
be engaged in for a long time going forward that we need to 
deal with.
    And we need to do it on all of the fronts. We didn't talk a 
lot about traumatic brain injury today, but we have close to 3 
million Americans--and I am not talking about servicemembers 
now--3 million--a lot of them young people--not all of them--
but, you know, riding their bikes, playing games, who end up 
with very serious injuries.
    And the things that we thought we knew about traumatic 
brain injuries in the past we now know differently, and there 
is a lot more that can be done. And this is an area where we 
want to do, that we need to, also look at because it is very 
different from the disease side.
    These are actually, we had our own colleague who was shot 
in the head, Congresswoman Giffords, and, you know, in past 
circumstances, you wouldn't see the kind of recovery that has 
happened. But, you know, it is because of the great work that 
is being done. But we need to work in this space more.
    And I know that the chairman and I did work on this on the 
veterans' side, but this is on the civilian side, it is a very 
important issue, too.
    So I want to thank the chairman and I want to thank our 
guests.
    Mr. Culberson. This is a team effort.
    Mr. Fattah. It is a team effort, and we are going to keep 
going. All right.
    Mr. Culberson. It so important, and it is something we are 
arm in arm on, as I have been a member of the subcommittee 
since I first got on Appropriations in 2003 and always dreamed 
of having the privilege of being able to chair it to be able to 
help make sure that these--as Mr. Jefferson said, he liked the 
dreams of the future better than the memories of the past.
    And I will continue to do everything I can to help make 
sure that these dreams of the future come true from our work 
that we do arm in arm----
    Mr. Fattah. Together. Right.
    Mr. Culberson [continuing]. And remembering, also, that Mr. 
Jefferson liked to say that liberty is the firstborn child of 
science, which is absolutely true.
    So it is exciting and so worthwhile. And we will continue 
to work together, Chaka, to make sure that we are providing you 
the research, the support that you need, and get out of the way 
as much as possible.
    Because, as a Texan, we also understand that the less 
government, the better, and get out of the way, and 
particularly when it comes to the sciences, let you follow the 
facts.
    Mr. Fattah. And let me thank OSTP for shepherding this, and 
you have done a great job, Dr. Rubin and Dr. Hogan and the team 
there, because this is a massive enterprise stretching across 
both the government and the private sector and private 
foundations and academia and hospitals. I mean, there are just 
a lot of people, including people focused on ethics, who have 
to be part of this. So thank you and----
    Mr. Culberson. Thank you for making this happen.
    Mr. Fattah. Somehow I think we might be having another 
hearing on neuroscience next year this time in the 
appropriations process.
    Thank you, Mr. Chairman.
    Mr. Culberson. Maybe a lot sooner.
    Thank you very much.
    And the hearing is adjourned. Thank you.




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bolden, C. F.....................................................    87
Cordova, F. A....................................................   253
Handelsman, Jo...................................................   321
Hyman, Steven....................................................   321
Lynch, Zack......................................................   321
Olds, James......................................................   321
Pritzker, Hon. Penny.............................................     1
Sullivan, Kathryn................................................    57

                                  [all]
</pre></body></html>
